Office of Inspector General
Semiannual Report to Congress


April 1, 1999 – September 30, 1999
                                                FOREWORD



I am pleased to submit the semiannual report on the activities of the Office of Inspector
General (OIG) for the period ended September 30, 1999. This semiannual report is issued
in accordance with the provisions of the Inspector General Act of 1978, as amended.

OIG oversight of major Department of Veterans Affairs' (VA) programs resulted in systemic
improvements and increased efficiencies in areas of medical care, benefits administration,
procurement, financial management, and facilities management. OIG audits,
investigations, and other reviews identified over $219 million in monetary benefits, for an
OIG return on investment of $10 for every dollar expended. A noteworthy accomplishment
was our evaluation of internal controls in the Compensation and Pension (C&P) benefit
program that provided the Under Secretary for Benefits a comprehensive assessment of
vulnerabilities in the general internal control environment, and C&P claims processing in
particular. Additional OIG accomplishments during the period included 143 indictments,
83 criminal convictions, and 202 administrative actions, foremost of which were cases
involving health care and benefits fraud and employee misconduct.

VA, the second largest Department in the Federal Government, operates the largest
health care system in the United States. The OIG Office of Healthcare Inspections
continues to focus on quality of care issues to include the Veterans Health Administration’s
(VHA’s) management of confused and wandering patients, and the effectiveness of the
joint VHA and Department of Defense collaborative traumatic brain injury program.
Healthcare inspectors conducted proactive reviews of essential aspects of VHA clinical
operations and patient treatment processes and made recommendations for improvement.

OIG has continued its Combined Assessment Program (CAP) to evaluate the quality,
efficiency, and effectiveness of VA medical services. CAP combines the skills of OIG’s
major components to provide collaborative assessments of key operations and programs
at VA medical centers on a cyclical basis. The CAP reports highlighted numerous
opportunities for improvement.

I look forward to continued partnership with the Secretary and the Congress in improving
service to our Nation's veterans.


(original signed by:)
RICHARD J. GRIFFIN
Inspector General
                                                  TABLE OF CONTENTS
                                                                                                                                                             Page

HIGHLIGHTS OF OIG OPERATIONS ..........................................................................................................                        i
VA AND OIG MISSION, ORGANIZATION, AND RESOURCES .................................................................                                              1
COMBINED ASSESSMENT PROGRAM .....................................................................................................                              7
OFFICE OF INVESTIGATIONS
     Mission Statement ..............................................................................................................................         11
     Resources ...........................................................................................................................................    11
     Criminal Investigations .......................................................................................................................          11
              Veterans Health Administration.............................................................................................                     12
              Veterans Benefits Administration..........................................................................................                      23
              National Cemetery Administration ........................................................................................                       33
              OIG Forensic Documents Laboratory ...................................................................................                           34
     Administrative Investigations .............................................................................................................              34
              Veterans Health Administration.............................................................................................                     35
              Office of Financial Management ...........................................................................................                      36
OFFICE OF AUDIT
     Mission Statement ..............................................................................................................................         37
     Resources ...........................................................................................................................................    37
     Overall Performance ...........................................................................................................................          37
              Veterans Health Administration.............................................................................................                     38
              Veterans Benefits Administration..........................................................................................                      42
              Office of Financial Management ...........................................................................................                      43
              Office of Information and Technology...................................................................................                         46
              Implementation of GPRA in VA.............................................................................................                       47
OFFICE OF HEALTHCARE INSPECTIONS
     Mission Statement ..............................................................................................................................         49
     Resources ...........................................................................................................................................    49
     Overall Performance ...........................................................................................................................          49
            Veterans Health Administration ..............................................................................................                     49
OFFICE OF MANAGEMENT AND ADMINISTRATION
     Mission Statement .............................................................................................................................          59
     Resources ...........................................................................................................................................    59
     Hotline and Data Analysis Division.....................................................................................................                  60
     Hotline Section ....................................................................................................................................     61
              Veterans Health Administration.............................................................................................                     61
              Veterans Benefits Administration..........................................................................................                      64
              National Cemetery Administration .......................................................................................                        65
              Office of Human Resources and Administration...................................................................                                 65
     Data Analysis Section .........................................................................................................................          66
     Operational Support Division ..............................................................................................................              68
     Information Technology Division.........................................................................................................                 70
     Resources Management Division.......................................................................................................                     72
OTHER SIGNIFICANT OIG ACTIVITIES
     President’s Council on Integrity and Efficiency...................................................................................                       73
     OIG Management Presentations ........................................................................................................                    74
     Congressional Testimony ...................................................................................................................              75
     Obtaining Required Information or Assistance...................................................................................                          75
                                                                                                                                             Page

APPENDIX A -   REVIEWS BY OIG STAFF ...................................................................................... 77
APPENDIX B -   CONTRACT REVIEWS BY OTHER AGENCIES ................................................... 87
APPENDIX C -   CONTRACT REVIEW REPORTS FOR WHICH A CONTRACTING
               OFFICER DECISION HAD NOT BEEN MADE FOR
               OVER 6 MONTHS AS OF SEPTEMBER 30, 1999................................................. 89
APPENDIX D     FOLLOWUP ON OIG REPORTS.................................................................................... 93
APPENDIX E -   REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL........................ 97
APPENDIX F -   VA OIG OPERATIONS PHONE LIST............................................................................ 99
APPENDIX G -   GLOSSARY......................................................................................................................... 101
                              HIGHLIGHTS OF OIG OPERATIONS

This semiannual report highlights the activities and accomplishments of the Department of Veterans
Affairs (VA) Office of Inspector General (OIG) for the 6-month period ended September 30, 1999. The
following statistical data highlights OIG activities and accomplishments during the reporting period.

        DOLLAR IMPACT                                                                                              Dollars in Millions

                  Funds Put to Better Use........................................................................           $209.9
                  Dollar Recoveries.................................................................................          $4.1
                  Fines, Penalties, Restitutions, and Civil Judgments.............................                            $5.9

        RETURN ON INVESTMENT
                  Dollar Impact ($219.9) / Cost of OIG Operations ($21.0)...................                                 10 : 1

        OTHER IMPACT
                  Indictments...........................................................................................     143
                  Convictions ..........................................................................................      83
                  Administrative Sanctions .....................................................................             202

        ACTIVITIES

            Reports Issued
               Combined Assessment Program...........................................................                          3
               Audits ...................................................................................................     27
               Contract Reviews .................................................................................             43
               Healthcare Inspections .........................................................................               19
               Administrative Investigations ..............................................................                   10

            Investigative Cases
                Opened .................................................................................................     240
                Closed...................................................................................................    138

            Hotline Activities
               Contacts................................................................................................     7,289
               Cases Opened .......................................................................................           396
               Cases Closed ........................................................................................          358


COMBINED ASSESSMENT PROGRAM

Three Combined Assessment Program (CAP) reports were issued during this reporting period. The CAP
provides recurring cyclical oversight of VA medical facility operations, focusing on the effectiveness and
quality of service provided to veterans. The program combines the skills and abilities of the OIG’s major
components to provide collaborative assessments of VA medical facilities. Each team consists of
representatives from the Offices of Investigations, Audit, and Healthcare Inspections. They provide an
independent and objective assessment of key operations and programs at VA medical centers on a
cyclical basis.


                                                                        i
OFFICE OF INVESTIGATIONS

During the semiannual period, the Office of Investigations, comprised of a Criminal Investigations
Division and an Administrative Investigations Division, focused its resources on investigations that have
the highest impact on the programs and operations of the Department. Criminal investigative priority
continues to target cases of patient abuse, instances where incapacitated veterans fall victim to
unscrupulous fiduciaries, public corruption, and major thefts. Immediate response to these types of
allegations is absolutely essential and demonstrates that the OIG will take decisive action against those
who prey on veterans and will hold accountable those VA employees who disregard their public trust
responsibilities. Additionally, we began a major initiative with other components of the OIG to
proactively identify fraud occurring in the programs of the Veterans Benefits Administration (VBA).
During the period, the Criminal Investigations Division concluded 138 investigations resulting in 226
judicial actions and over $11.7 million recovered or saved. Investigative activities resulted in monetary
benefits of over $12 returned to the Government for each dollar spent. The Administrative Investigations
Division concentrated its resources in the investigation of allegations, generally against high-ranking VA
officials, concerning misconduct and other matters of interest to the Congress and the Department. The
division completed 15 administrative investigations this semiannual period and issued 10 reports. These
investigations resulted in administrative action taken against 8 high-ranking officials and other
employees, and 22 corrective actions taken by management to improve VA operations and activities.

Veterans Health Administration

The following are examples of investigations in which Veterans Health Administration (VHA) employees
and contractors have been charged with various illegal activities: (i) A VA medical center (VAMC) nurse
was arrested and subsequently indicted on charges of tampering with consumer products. Investigation
disclosed the individual used syringes to withdraw Demerol from vials for his personal use, refilled the
vials with saline solution, and returned them for distribution to veteran patients. The individual admitted
his actions during the course of the investigation. (ii) A VAMC licensed practical nurse was sentenced to
5 months' imprisonment, 5 years’ supervised release, and was ordered to pay restitution of $33,350. He
stole personal checkbooks from two veteran patients at the VAMC and wrote checks to himself by
forging the veterans' signatures. (iii) A veterans outreach specialist was sentenced to 12 months’
incarceration, 3 years’ supervised release, and ordered to pay restitution of $324,700. For almost 13
years, the individual collected Workers’ Compensation benefits, claiming 100 percent disability from on-
the job-injury. During the time he was collecting benefits for his inability to work, he was, in fact,
working a series of paying jobs. (iv) A contractor who supplied surgical instruments to VA agreed to pay
$1,334,000 to the Government after being charged with violation of the False Claims Act. The contractor
certified that they would supply VA surgical instruments manufactured in Germany. Instead, the
company shipped imported surgical instruments made in non-designated countries. (v) A VA contractor
who supplied tools and supplies to VAMCs was sentenced to 73 months in prison for conspiring to
defraud VA and the Department of Defense (DoD) on Government contracts. He admitted that he paid
bribes to VA officials in order to influence the awarding of approximately 190 VA contracts to his
companies.

Veterans Benefits Administration

The following investigations are examples of fraud relating to some of the benefits programs
administrated by VBA: (i) An individual was sentenced to 78 months’ imprisonment and restitution of
$571,000 after conviction on charges of equity skimming, mail fraud, bankruptcy fraud, and money
laundering. The individual fraudulently assumed 61 properties with mortgages guaranteed by VA or
insured by the Department of Housing and Urban Development (HUD), rented the homes, and kept the



                                                    ii
rent monies for himself without making the required mortgage payments. His actions caused all of the
loans to go into default and foreclosure. He delayed foreclosure proceedings by filing multiple
bankruptcies under fictitious names. (ii) A former VA regional office (VARO) ratings specialist was
sentenced to 33 months’ imprisonment and was ordered to pay restitution of $588,872 after pleading
guilty to stealing VA compensation benefits. He created a record for a fictitious veteran and awarded the
fictitious veteran benefits for service connected disabilities. For more than 12 years he caused VA to
deposit over $588,000 in monthly benefit checks into a savings account opened in the name of the
fictitious veteran. (iii) A VARO supervisor was sentenced to 33 months’ in prison, ordered to pay
restitution of $615,000, and forfeit more than $300,000 in personal property. A VARO senior claims
examiner was also charged in the case. Investigation disclosed the two conspired to create records, which
fraudulently reflected that the supervisor’s fiancé was entitled to receive more than $615,000 in disability
payments to which he was not entitled. (iv) An individual was indicted on one count of forgery after he
concealed his mother’s death for almost 9 years in order to continue receiving more than $78,000 in VA
Dependency and Indemnity Compensation (DIC) benefits in her name. (v) An individual was sentenced
to 8 months’ imprisonment, 36 months’ probation, and ordered to pay restitution of $59,780 following a
guilty plea to charges of fraud against the Government. He fraudulently received VA benefits for a
service-connected disability by declaring himself unable to work. At the same time he was working
under a false name and Social Security number to conceal the fraud. (vi) An individual was indicted and
arrested on charges of health care fraud, false use of a Social Security number, and theft of Government
funds. The individual, who was not a veteran, assumed the identity of a veteran, utilized the identifying
data of the veteran, and filed fraudulent documents in order to receive VA medical treatment and pension
benefits totaling more than $147,000. (vii) The spouse of a veteran was sentenced to 12 months’ home
confinement, 2 years’ supervised release, and ordered to pay restitution of $243,044 after pleading guilty
to theft of Government funds. She failed to report her husband’s death and, for more than 15 years,
continued to collect VA disability benefits sent in the husband’s name, totaling more than $243,000.
(viii) An individual acting as a VA fiduciary, court-appointed guardian, and Social Security representative
payee to a number of elderly veterans was sentenced to 37 months’ imprisonment, 3 years’ probation, and
ordered to pay restitution of $200,000 after pleading guilty to charges of misapplication of funds by a VA
fiduciary and mail fraud. She appropriated funds belonging to the estates of five of her elderly veteran
wards and made false statements on accountings submitted to VA in order to conceal the thefts.

National Cemetery Administration

The following are examples of investigations in which National Cemetery Administration (NCA)
employees have been charged with various illegal activities: (i) A foreman and a caretaker at a VA
national cemetery were sentenced on charges of witness tampering. The foreman was sentenced to 6
months’ home detention, 36 months’ probation, and fined $2,000. The caretaker was sentenced to 6
months’ home detention, 36 months’ probation, and fined $1,000. The two individuals attempted to
prevent witnesses from cooperating in an investigation into corruption at the VA cemetery. (ii) A NCA
program assistant pleaded guilty to an indictment charging her with theft of Government property and
resigned from her position. A co-conspirator in the case, an NCA program support assistant who also
pleaded guilty to theft of Government property, used Government-issued credit cards to purchase
merchandise that she sold for profit, gave to the program assistant, or kept for herself. Also arrested in the
case was a sales representative for a company that contracted with the Government as an office supply
vendor. He was charged with bribery of Government officials and conspiracy to defraud the Government.
He admitted providing cash and/or merchandise to the two VA employees in return for their making
purchases from his company.




                                                      iii
OFFICE OF AUDIT

Audit Saved or Identified Improved Uses for $197 Million

Audits and evaluations were conducted which focused on determining how programs can work better,
while improving service to veterans. During this reporting period, 27 performance and financial audits
and evaluations and 43 contract reviews identified opportunities to save or make better use of $197 million
in monetary benefits. The Office of Audit returned $20 for every dollar spent on performance and financial
audits. Postaward and preaward contract reviews returned $3 and $51 for every dollar spent, respectively.

Veterans Health Administration

The following are examples of major health care related audits. (i) A report on the management of
employee quarters at VAMCs concluded that by phasing out VHA’s quarters program, $39.8 million
could be saved. (ii) An evaluation of VHA’s diagnostic radiology and nuclear medicine activities
concluded that radiology and nuclear medicine require standardized workload reporting and staffing
guidelines, coordination in acquiring new technology, and greater oversight and direction. (iii) A report
on VHA’s Emergency Medical Strategic Health Care Group found improvements are needed in
determining VA’s role in emergency management, fiscal accountability, interagency financial support,
and training and development. (iv) An audit of minor construction and nonrecurring maintenance
projects identified a need for thorough reviews of project scope will enable $20 million in monetary
benefits. (v) A protocol package was developed to provide Veterans Integrated Service Networks
(VISNs) with an effective methodology to enhance review of Workers’ Compensation Program (WCP)
claims to reduce costs and identify fraud.

Veterans Benefits Administration

At the request of the Under Secretary for Benefits, and in conjunction with other OIG components, we
began a comprehensive evaluation of internal controls in the Compensation and Pension (C&P) benefits
program to identify vulnerabilities that could contribute to or facilitate fraud. Significant vulnerabilities
were identified involving automated data processing (ADP) access and authority, claims processing
procedures, and oversight. We also provided the Under Secretary suggested methods to eliminate the
vulnerabilities identified.

Office of Financial Management

As part of the Consolidated Financial Statements (CFS) audit, we issued six management letters
addressing financial reporting and control issues. The management letters provided Department
managers additional observations and advice that will enable the Department to improve day-to-day
accounting operations and controls. The management letters contained observations concerning: (i)
expenditure transactions, (ii) ADP security, and (iii) VBA’s benefit program.

Contract Review and Evaluation

During the period, we completed 43 contract reviews – 36 postaward and 7 preaward reviews. The
postaward reviews had recoveries of $3.1 million, which have been returned to VA to fund programs.
Preaward reviews of contractors' proposals resulted in recommendations that can assist contracting
officers in saving $11.3 million in contract costs.




                                                      iv
OFFICE OF HEALTHCARE INSPECTIONS

The Office of Healthcare Inspections’ (OHI) program evaluations, hotline inspections, quality program
assistance (QPA) reviews, Office of the Medical Inspector oversight, and technical reviews show that
VHA clinicians provide generally good care to an aging, chronically infirm veteran population in a
variety of clinical care environments.

Program Reviews

We conducted three health care program evaluations: (i) In keeping with our oversight responsibility of
contributing to the improvement of health care delivery, we conducted an exploratory and preliminary
assessment of VAMCs’ missing patient policies and procedures. Patients leaving VAMCs without
approval or knowledge of clinicians has been an issue that has instigated various reviews and constituent
concerns. Moreover, incidents of patients missing or eloping from VAMCs can result in such
consequences as serious injury or death, which undermine the public’s perception of the quality of care
provided to veteran patients. Our analysis showed that improvement is needed in monitoring high-risk
patients, and inpatient search procedures, to reduce adverse patient incidents resulting from unauthorized
absences. Also, clinical managers, who have responsibility for ensuring patient safety, need to assess and
record appropriately the factors that can help define a patient’s elopement risk. (ii) Our analysis of the
Defense and Veterans Head Injury program operations showed that the VA Traumatic Brain Injury
program is an active component. VHA clinicians are treating a broad range of head-injured patients,
including evaluating and treating acute head injuries. We concluded clinicians need to strengthen coma
care, refine the treatment of violent patients, and strengthen support of ventilator-dependent patients.
VHA managers need to increase system-wide awareness of the program, particularly as VHA continues
its transition to a primary health care model. (iii) Our nationwide assessment of the VHA’s Deans
Committee structure, functions, and compliance with established VHA policy guidance revealed that over
time the Deans Committee structure and function has changed as a function of affiliation governance.
VHA developed a revised approach to the governance of its academic affiliations with the establishment
of Academic Partnership Councils. The emergence of VISNs stimulated changes in VHA’s academic
affiliation program and the governance of the affiliation relationship, as exemplified by the Deans
Committee. VHA is shifting toward a VISN-wide role for the administration of these academic
affiliations and the implementation of Affiliation Partnership Councils. As VHA continues its evolution
from Deans Committees to Affiliation Partnership Councils, VHA top managers need to oversee Council
functions more stringently to ensure that they adhere to law and VHA guidance. VHA also needs to
revise its policy to standardize guidance for Affiliation Partnership Council operations.


OFFICE OF MANAGEMENT AND ADMINISTRATION

Hotline and Data Analysis

The Hotline program provides an opportunity for employees, veterans, and other concerned citizens to
report fraud, waste, abuse, and mismanagement. The identification and reporting of issues such as these
are integral to the goal of improving the efficiency and effectiveness of the Federal Government. During
the reporting period, the Hotline received 7,289 contacts. Of this number, staff opened 396 cases, and
completed 358 cases, of which 105 contained substantiated allegations. Hotline staff generated 230
letters responding to inquiries received from members of the Senate and House of Representatives. Staff
recorded 35 administrative sanctions against employees and 55 corrective actions taken by management
to improve VA operations and activities. The Hotline reviews found that some employees improperly
used their Government credit cards, Government-leased vehicles, and Government equipment and



                                                    v
supplies. Reviews identified several instances of misconduct by professional staff in the care and
treatment of veteran patients. A Hotline review at one VAMC uncovered plans to purchase a telephone
system unnecessarily and deficiencies in other VA contracts. Reviews concerning VBA operations
identified problems with a number of C&P cases that warranted corrective action by management.

The Data Analysis Section provides automated data processing technical assessments and support to all
elements of the OIG and other Governmental agencies needing information from VA files. During the
reporting period, the staff processed 433 requests for data and information. These requests are often the
first step in more comprehensive reviews by OIG activities that result in solutions beneficial to the VA or
lead to the identification of fraud, waste, and abuse. The Section responds to requests from other VA
program offices and renders assistance to the investigative components of other agencies. During one
joint project, OIG and VA identified over $700,000 in inappropriate benefits, and actions were taken to
discontinue payments and initiate collection actions.

Followup on OIG Reports

The Operational Support Division is responsible for obtaining implementation actions on audits,
inspections, and reviews with over $1 billion of actual or potential monetary benefits as of September 30,
1999. Of this amount $909 million is resolved, but not yet realized as VA has agreed to implement the
recommendations, but has not yet done so. In addition, $114 million relates to unresolved reviews
awaiting contract resolution by VA contracting officers. After obtaining information that showed
management officials had fully implemented corrective actions, the Division took action to close 67
internal reports and 230 recommendations with a monetary benefit of $464 million.




                                                     vi
VA AND OIG MISSION, ORGANIZATION, AND
RESOURCES
The Department of
Veterans Affairs (VA)
Background
In one form or another, American governments                          810 Vermont Avenue
have provided veterans benefits since before the
Revolutionary War. VA’s historic predecessor                      [photo not available electronically]
agencies demonstrate our Nation’s long
commitment to veterans.

The Veterans Administration had been in
existence since 1930, when Public Law 71-536             810 Vermont Avenue, NW, Washington, DC
consolidated the Veterans’ Bureau, the Bureau
of Pensions, and the National Home for
Disabled Volunteer Soldiers.                             Organization
The Department of Veterans Affairs was
established on March 15, 1989, by Public Law             VA has three administrations that serve
100-527, which elevated the Veterans                     veterans:
Administration, an independent agency, to                • Veterans Health Administration (VHA)
Cabinet-level status.                                    provides health care,
                                                         • Veterans Benefits Administration (VBA)
Mission                                                  provides benefits, and
                                                         • National Cemetery Administration (NCA)
VA's motto comes from Abraham Lincoln's                  provides burial and recognition.
second inaugural address, given March 4, 1865,
"to care for him who shall have borne the battle         To support these services and benefits, there are
and for his widow and his orphan." These words           six Assistant Secretaries:
are inscribed on large plaques on the front of the       • Financial Management (Budget, Finance,
VA Central Office building on Vermont Avenue             Acquisition and Materiel Management
in Washington, DC.                                       (A&MM)),
                                                         • Information and Technology,
The Department’s mission is to serve America’s           • Planning and Analysis,
veterans and their families with dignity and             • Human Resources and Administration
compassion and to be their principal advocate in         (Equal Opportunity, Human Resources
ensuring that they receive the care, support, and        Management, Administration, Security and Law
recognition earned in service to this Nation.            Enforcement, and Resolution Management),
                                                         • Public and Intergovernmental Affairs, and
                                                         • Congressional Affairs.




                                                     1
VA and OIG Mission, Organization and Resources

In addition to VA’s Office of Inspector General,        VA life insurance programs have 4.7 million
other staff offices providing support to the            policies in force with a face value of over $467
Secretary include the Board of Contract                 billion. Almost 467,000 home loans were
Appeals, the Board of Veterans’ Appeals, the            guaranteed, with a value of almost $51 billion.
Office of General Counsel, the Office of Small
and Disadvantaged Business, the Centers for             The National Cemetery Administration currently
Minority Veterans and for Women Veterans, and           operates and maintains 116 cemeteries and had
the Office of Employment Discrimination                 1,356 employees in FY 1999. Operations of
Complaint Adjudication.                                 NCA and all of VA’s burial benefits account for
                                                        approximately $252 million of VA’s $44 billion
Resources                                               budget. Interments in VA cemeteries continue
                                                        to increase each year, with almost 78,000 in FY
                                                        1999. Approximately 348,000 headstones and
While most Americans know that VA exists,
                                                        markers are provided for veterans and their
few have any idea of the size of this Department,
                                                        eligible dependents in VA cemeteries, state
which is the Nation’s second largest in terms of
                                                        veterans’ cemeteries, and private cemeteries.
staffing. For FY 1999, VA had 205,428
employees and a $44 billion budget.
There are an estimated 25.9 million living
veterans and the provision of legislatively             VA Office of Inspector
mandated services to them is a massive
operation. To serve our Nation’s veterans, VA           General (OIG)
maintains facilities in every state of the union
and the District of Columbia, the                       Background
Commonwealth of Puerto Rico, Guam, and the
Philippines.                                            VA’s OIG was administratively established on
                                                        January 1, 1978, to consolidate audit,
Approximately 189,000 of VA’s employees                 investigation, and related operations into a
work in the health care system. Health care             cohesive, independent organization. In October
accounts for $18 billion (approximately                 1978, the Inspector General Act (Public Law 95-
41 percent) of VA’s budget in FY 1999. VHA              452) was enacted and established a statutory
provides care to an average of 60,000 inpatients        Inspector General (IG) in VA.
daily. During FY 1999, slightly more than 37
million episodes of care were estimated for
outpatients. There are 172 hospitals, 722
                                                        Role and Authority
outpatient clinics, 132 nursing home units, and
                                                        The Inspector General Act of 1978 states that
40 domiciliaries.
                                                        the IG is responsible for: (i) conducting and
                                                        supervising audits and investigations, (ii)
Veterans benefits were funded at $25 billion
                                                        recommending policies designed to promote
(almost 57 percent) of VA’s budget in FY 1999.
                                                        economy and efficiency in the administration of,
The 11,324 employees of VBA provide benefits
                                                        and to prevent and detect fraud and abuse in, the
to veterans and their families. Approximately
                                                        programs and operations of VA, and (iii)
2.6 million veterans and their beneficiaries
                                                        keeping the Secretary and the Congress fully
receive compensation benefits valued at
                                                        informed about problems and deficiencies in VA
$18 billion. Also over $3 billion in pension
                                                        programs and operations and the need for
benefits are provided to veterans and survivors.
                                                        corrective action.




                                                    2
                                                 VA and OIG Mission, Organization and Resources

The Inspector General Act Amendments of 1988                The percent of OIG resources, which have been
provided the IG with a separate appropriation               devoted during this semiannual reporting period
account and a revised and expanded procedure                in VA’s major organizational areas, are
for reporting semiannual workload to Congress.              indicated in the following chart.
The IG has authority to inquire into all VA
programs and activities as well as the related
activities of persons or parties performing under                                          
grants, contracts, or other agreements. The                                               	


                                                                                             
inquiries may be in the form of audits,                                  
                                                                         
investigations, inspections, or other appropriate                                                 
                                                                                                  
	
actions.                                                                                              



                                                                                        
Organization                                                                             



Allocated full time equivalent (FTE) for the FY
1999 staffing plan was as follows:
                                                            The following chart indicates percent of OIG
                                                            resources which have been devoted to mandated,
                                  ALLOCATED                 reactive, and proactive work.
           OFFICE
                                     FTE
 Inspector General                        4
                                                                                       	
 Counselor                                5                                                

 Investigations                        102
 Audit                               * 167
                                                                     		
 Management and                                                                             	
 Administration                         51                                                         


 Healthcare Inspections                 31
           TOTAL                       360
                                                            Mandated work is required by law and the
* Does not include 24 reimbursable FTE.                     Office of Management and Budget; examples
                                                            are our audits of VA’s Consolidated Financial
FY 1999 funding for OIG operations was                      Statements, followup activities, and Freedom of
$38.4 million, with $36 million from                        Information Act information releases.
appropriations and $2.4 million through
reimbursable agreements. Approximately                      Reactive work is generated in response to
85 percent of the total funding was for personnel           requests for assistance received from external
salaries and benefits, 5 percent for official travel,       sources concerning allegations of fraud, waste,
and the remaining 10 percent for all other                  abuse, and mismanagement. Most of the work
operating expenses such as contractual services,            performed by the Offices of Investigations and
rent, supplies, and equipment.                              Healthcare Inspections is reactive.




                                                        3
VA and OIG Mission, Organization and Resources
Proactive work is self-initiated and focuses in
areas where the OIG staff determines there are
significant issues; some healthcare inspections
and most audits fall into this category.


OIG Mission Statement
    The OIG is dedicated to helping VA ensure
    that veterans and their families receive the
    care, support, and recognition they have
    earned through service to their country.
    The OIG strives to help VA achieve its
    vision of becoming the best managed
    service delivery organization in
    Government. The OIG continues to be
    responsive to the needs of its customers by
    working with the VA management team to
    identify and address issues that are
    important to them and the veterans served.

    In performing its mandated oversight
    function, the OIG conducts investigations,
    audits, and health care inspections to
    promote economy, efficiency, and
    effectiveness in VA activities, and to detect
    and deter fraud, waste, abuse, and
    mismanagement. The OIG’s oversight
    efforts emphasize the goals of the National
    Performance Review and the Government
    Performance and Results Act for creating a
    Government that works better and costs
    less. Inherent in every OIG effort are the
    principles of quality management and a
    desire to improve the way VA operates by
    helping it become more customer driven
    and results oriented.

    The OIG will keep the Secretary and the
    Congress fully and currently informed
    about issues affecting VA programs and
    the opportunities for improvement. In
    doing so, the staff of the OIG will strive to
    be leaders and innovators, and perform
    their duties fairly, honestly, and with the
    highest professional integrity.




                                                    4
                                                                      DEPARTMENT OF VETERANS AFFAIRS
                                                                        OFFICE OF INSPECTOR GENERAL

                                                                                          Inspector General
                                           Executive Assistant                            ______________                             Counselor to Inspector General
                                                                                               Deputy



         Assistant Inspector General
                                                           Assistant Inspector General                        Assistant Inspector General                         Assistant Inspector General
              Management and
                                                                  Investigations                                        Auditing                                    Healthcare Inspections
                Administration
                                                             __________________                                  _________________                                   _________________
            _________________
                                                                      Deputy                                             Deputy                                              Deputy
                    Deputy


                                                                                                                                                        Medical Assessment             Patient Care
     Hotline and             Operational             Administrative               Criminal
                                                                                                        Contract Review                                         and                  Inspections and
    Data Analysis             Support                Investigations            Investigations
                                                                                                         and Evaluation                                    Consultation                 Evaluation


                                                                                    Benefits                                                                                        Health Systems
     Information             Resources               Analysis and                    Fraud                                                                                           Development
     Technology             Management                Oversight                                                Financial                 Financial
                                                                                                               Statement                Management




5
                                                                                   Healthcare
                                                                                     Fraud
                                                                                                                                                                          Field Offices
                                                                                                              Management,                                                    Atlanta
                                                                                    Forensic                                            Planning and
                                                                                                               Policy and                                                   Chicago
                                                                                   Documents                                             Operational
                                                                                                              Professional                                                Los Angeles
                                                                                   Laboratory                                              Support
                                                                                                              Development


                                                                   Field Offices
                                                                     New York                                          Operations Divisions
                                                                  St. Petersburg                                         Central Office
                                                                      Chicago                                               Bedford
                                                                   Los Angeles                                               Atlanta
                                                                                                                            Chicago
                                                                                                                          Kansas City
                                                                                                                             Seattle
                                                               Resident Agencies
                                                         Atlanta            Boston                                           Sub-Offices
                                                         Columbia           Dallas                                              Austin
                                                         Denver             Houston                                             Dallas
                                                         Kansas City        Nashville                                           Hines
                                                         New Orleans        Newark                                           Los Angeles
                                                         Phoenix            Pittsburgh                                       Philadelphia
                                                         San Francisco      Washington
                                                                 West Palm Beach
VA and OIG Mission, Organization and Resources




                                       6
COMBINED ASSESSMENT PROGRAM
Combined Assessment Program                                credentialing and privileging, agent cashier
Overview                                                   activities, data integrity, and the medical care
                                                           cost fund.
The Combined Assessment Program (CAP) is a                 Representatives from the Office of Healthcare
part of the OIG's effort to ensure that quality            Inspections conduct a Quality Program
healthcare service is provided to our Nation’s             Assistance (QPA) review. These are proactive
veterans. The CAP provides recurring cyclical              reviews which incorporate the use of
oversight of VA medical facility operations,               standardized survey instruments to evaluate the
focusing on the quality, efficiency, and                   quality of care provided in VA healthcare
effectiveness of service provided to veterans.             facilities. These facilities are evaluated to
                                                           determine the extent to which they are
The CAP combines the skills and abilities of the           contributing to VHA's ability to accomplish its
OIG’s major components to provide                          mission of providing high quality healthcare,
collaborative assessments of VA medical                    improved patient access to care, and high patient
facilities. The OIG team consists of                       satisfaction.
representatives from the Offices of
Investigations, Audit, and Healthcare                      The following is a summary of the three CAP
Inspections. They provide an independent and               reviews conducted this period.
objective assessment of key operations and
programs at VA medical centers on a cyclical
basis.
                                                           North Florida and Southern
                                                           Georgia Veterans Health System
Special agents from the Office of Investigations           Review
conduct Fraud and Integrity Awareness
briefings. The purpose of these briefings is to            The OIG conducted a review of the North
provide key staff of the medical center with               Florida and South Georgia Veterans Health
insight into the types of fraudulent activities that       System from February 22 through February 26,
can occur in VA programs. The briefings                    1999. The following are highlights of our
include an overview and case-specific examples             activities and areas that we identified as
of fraud affecting healthcare procurements, false          vulnerable and in need of greater management
claims, conflict of interest, bribery, and illegal         attention:
gratuities. Special agents also investigate certain
matters which have been referred to the OIG by             Quality Program Assistance Review - The
VA employees, members of Congress, veterans,               results of the QPA identified several
and others.                                                management activities that enhanced the quality
                                                           of patient care. The QPA also identified areas of
Auditors from the Office of Audit conduct a                concern that affected the quality of patient care;
limited review to ensure that management                   these include clinical staffing issues, patients’
controls are in place and working effectively.             access to care, clinic and pharmacy waiting
Auditors assess key areas of concern which are             times, food quality, employee relations issues,
derived from a concentrated and continuing                 environmental safety, and cleanliness issues.
analysis of VHA, VISN, and medical center
databases and management information. These                Management Control Issues - A number of
areas may include patient management,                      issues were identified in which management




                                                       7
Combined Assessment Program

controls should be strengthened. Specific areas            Southern Nevada Veterans
needing improvement included: purchase cards               Healthcare System Review
and convenience checks, clinical contracts,
construction planning, warehouse and storage               The OIG conducted a CAP review of the
utilization, inventory management, telephone               Southern Nevada Veterans Healthcare System
access security system, food and nutrition                 from March 22 through 26, 1999. The following
services, laboratory tests, time and attendance            are highlights of our activities and areas that we
for part-time physicians, medical care                     identified as vulnerable and in need of greater
collections fund, agent cashier, and means                 management attention:
testing.
                                                           Quality Program Assistance Review - The QPA
Office of Investigations Fraud and Integrity               identified several issues that required
Awareness - Four Fraud and Integrity                       management attention, including recruiting more
Awareness briefings were conducted. These                  staff to meet the expanding workload, reviewing
briefings discussed issues concerning the                  the operation of the post-traumatic stress
recognition of fraudulent situations, referral to          treatment program, improving the system for
the Office of Investigations, and the type of              transporting patients to other VA medical
information needed to make a complaint or                  centers for care, and providing employee
referral. Investigators worked with auditors on            training on violence prevention and
agent cashier issues, advised contracting                  management.
officials and risk managers on when the OIG
should be contacted, and met with police                   Management Control Issues - The management
officials. Additionally, a fraud referral was              control review identified opportunities to
received from one of the System Divisions.                 improve operations by strengthening pharmacy
                                                           security, properly scheduling controlled
We made a series of observations and                       substances inspections and agent cashier audits,
recommendations that we believe warrant                    obtaining means test information from veterans,
management attention. The Director concurred               reducing excess inventories of supplies, revising
with the report contents and began working                 information technology contingency plans, and
towards implementing all but two of the                    pursuing employee debts.
recommendations. The Director deferred action
on the recommendation to implement a                       Office of Investigations Fraud and Integrity
telephone personal identification number system            Awareness - Three Fraud and Integrity
and to change line authority over staff at satellite       Awareness briefings were conducted for VA
outpatient clinics until further study is                  employees that discussed the recognition of
completed. We wish to point out that the Under             fraudulent situations, referrals to the Office of
Secretary for Health previously informed the               Investigations, and the type of information
OIG that steps were being taken to ensure                  needed in making a complaint or referral.
telephone security systems were installed at all
VHA facilities without telephone securities by             The review also evaluated issues/allegations
September 30, 1998. The OIG may followup on                referred to the OIG by a member of Congress
telephone system actions taken at a later date.            based on complaints made to the General
(CAP Review, North Florida and South Georgia               Accounting Office (GAO) during a review of a
Veterans Health System, 9IG-CAP-502, 4/22/99)              prior matter. Our review of the referenced
                                                           issues/allegations concluded that four areas were




                                                       8
                                                                  Combined Assessment Program

substantiated and required management                    procedures. However, improvement was needed
attention. These areas were:                             in contract administration to ensure that
                                                         payments were consistent with negotiated prices.
Long Waits for Clinic Appointments. GAO
reported allegations that patients had to wait too       Unused Electroencephalograph (EEG) System.
long for clinic appointments, particularly               GAO reported that VA had purchased a $55,000
appointments in the specialty clinics. We                EEG system for the Neurology Clinic but had
confirmed this problem existed. During FY                not utilized it. The system had been requested in
1998, 21 of the System's specialty clinics had           the belief that opening the Ambulatory Care
waiting times for new patient appointments in            Center would lead to enough increase in EEG
excess of 30 days and 7 had waiting times                workload to justify an in-house capability,
greater than 90 days. Management is working to           consisting of the EEG system and a technician to
address this issue by recruiting more clinical           operate it. However, the anticipated workload
staff and by strengthening the medical school            increase did not occur, no technician was hired,
affiliation as a means of gaining physicians and         and as a result, the EEG system was not utilized.
residents to staff specialty clinics.                    At the time of our review, VA was exploring the
                                                         feasibility of negotiating a sharing agreement
Uncorrected Construction Deficiencies in the             with a community hospital to operate the EEG
Ambulatory Surgery Suite. GAO reported an                system at reduced rates, which could allow for
allegation that the VA's new Ambulatory                  the recovery of the cost.
Surgery Suite had not been put into service
because of uncorrected deficiencies in the suite's       We made recommendations that, we believe,
air conditioning system. When we began our               warrant management attention. We may
review in March 1999, management did not                 followup at a later date to evaluate corrective
have an action plan for correcting the                   actions taken. (CAP Review, Southern Nevada
deficiencies and opening the Suite. This                 Veterans Healthcare System, 9IG-CAP-503,
occurred because System staff and VISN                   6/30/99)
engineering staff were not able to reach
agreement about the nature of the deficiencies           Louis Stokes Cleveland VAMC
and the best way to correct them. To resolve the         Review
disagreement, we suggested that VA award a
contract to identify, analyze, and correct the           The OIG CAP team visited VAMC Cleveland
deficiencies. System and VISN management                 from April 26 through April 30, 1999. The
agreed to this approach. In April 1999,                  following are highlights of our observations and
management prepared the statement of work for            testing of management operations that were
the suggested contract. If this contract is              identified as areas that appear vulnerable and in
properly managed, the Surgery Suite should be            need of greater management attention. These
open by November 1999.                                   areas included:
Excessive Costs for Radiology Services. GAO              Quality Program Assessment - The results of the
reported that certain employees had expressed            QPA identified several areas of concern that
concerns that VA might have paid too much for            affect the quality of patient care; these include
radiology and magnetic resonance imaging                 waiting times for triage in walk-in clinics,
(MRI) services. This allegation was partially            patient transfers, environmental concerns in one
substantiated. The VA had negotiated                     nursing home care unit ward, quality of patient
reasonable contract prices for radiology/MRI




                                                     9
Combined Assessment Program

meals, nurse-staffing levels on one nursing home
care unit ward, and answering telephone calls.

Management Control Issues - A number of areas
were identified where management controls and
oversight should be strengthened to correct and
prevent some internal control deficiencies,
including: billings for the medical care
collections fund involving care provided by
nurse practitioners, medical supplies inventory
records, surgeon productivity, scheduling
narcotics inspections, agent cashier audits,
timeliness of reconciliations and certifications of
Government purchase card transactions,
information technology recovery plans,
estimating workload, protocols for warehouse
storage, controlling employee exposure to
hazardous materials, use of reusable dialyzers,
and perceptions of human resources
management.

Fraud and Integrity Awareness and Hotline
Allegations - Four Fraud and Integrity
Awareness briefings were conducted which
discussed issues concerning the recognition of
fraudulent situations, referral to the Office of
Investigations, and the type of information
needed in making a complaint or referral. Two
additional briefings regarding fraud in the
Federal Employees Compensation Act program
were also conducted.

We made a series of observations and
recommendations that we believe warrant
management attention. The Medical Center
Director provided acceptable comments to all
recommendations. We may followup at a later
date on planned actions until completion. (CAP
Review, Louis Stokes Cleveland VAMC,
Cleveland, OH, 9IG-CAP-504, 9/24/99)




                                                      10
OFFICE OF INVESTIGATIONS
Mission Statement                                        Resources
    Conduct investigations of criminal                   The Office of Investigations has 102 FTE
    activities and administrative matters                allocated to the following areas.
    affecting the programs and operations of
    VA in an independent and objective
    manner, and assist the Department in
    detecting and preventing fraud and other                  
    violations.                                                 
                                                                

The Office of Investigations is responsible for
conducting criminal and administrative
investigations affecting the programs and
operations of VA. The office consists of three                                               
divisions.                                                                                     	

                                                                                 
I. Criminal Investigations Division - The                                          

Division is primarily responsible for conducting
investigations into allegations of criminal
activities related to the programs and operations
of VA. Criminal violations are referred to the
Department of Justice for prosecution. The               I. CRIMINAL
Division is also responsible for operation of the
Forensic Document Laboratory.                            INVESTIGATIONS
II. Administrative Investigations Division - The
                                                         DIVISION
Division is responsible for investigating
allegations, generally against high-ranking VA           Mission Statement
officials, concerning misconduct and other
matters of interest to the Congress and the                  Conduct investigations of criminal
Department.                                                  activities affecting the programs and
                                                             operations of VA in an independent and
III. Analysis and Oversight Division - The                   objective manner, and assist the
Division is responsible for the oversight                    Department in detecting and preventing
responsibilities of all Office of Investigations             fraud and other criminal violations.
operations through a detailed, recurring
inspection program. The Division is the primary          Resources
point of contact for law enforcement
communications through the National Crime                The Criminal Investigations Division has 84
Information Center, the National Law                     FTE for its headquarters and 19 field locations.
Enforcement Telecommunications System, and               These individuals are deployed in the following
the Financial Crimes Criminal Enforcement                program areas:
Network.




                                                    11
Office of Investigations

                                                          Customer Satisfaction
                                                          • Customer satisfaction survey forms were
                                                       provided to each prosecutor upon referral of an
                            	                           investigation for criminal prosecution. All
                                                          ratings received exceeded 4.0 and averaged 4.8
                                                          out of a possible 5.0 (5.0 means highly satisfied
                                                          and 1.0 means dissatisfied).
                               

                                	
                                                          Following are summaries of some of the
                                                          investigations conducted during the reporting
                                                          period by VA component. We discuss VHA,
                                                          VBA, and NCA. This is followed by the OIG
                                                          Forensic Document Laboratory.

Overall Performance

Output
                                                          Veterans Health
• 138 investigations were concluded during                Administration
the reporting period. The goals for output were
met.
                                                          Fraud and other criminal activities committed
Outcome                                                   against VHA include actions such as patient
• Indictments - 143                                       abuse, theft of Government property, drug
• Convictions - 83                                        diversion, bribery/kickback activities by
                                                          employees and contractors, false billings, and
• Monetary Benefits - $11.7 million
                                                          inferior products.
• Administrative Sanctions - 137
                                                          During the reporting period, we have continued
Cost Effectiveness
                                                          our support to VHA in its attempt to remove
• The average cost of conducting the 138                  from the workers’ compensation rolls those
closed investigations was $7,337. Each                    employees fraudulently accepting benefits. The
investigation averaged a return of $88,645,               Office of Investigations investigates those
resulting in approximately $12 returned for               instances of criminal activity against VHA that
every $1 spent.                                           have the greatest impact and deterrent value.
Timeliness
• Average work days from receipt of
                                                          Employee Integrity
allegation to initiation of investigation averages
32 days against a goal of 30 days.                        Theft/Diversion of Pharmaceuticals
• Average work days from initiation of
investigation to referral to an assistant U.S.            • A former VAMC registered nurse was
attorney was 215 days which did not meet our              sentenced to 3 months’ home confinement, 5
goal of 180 days.                                         years’ probation, a $500 fine, and a $100 penalty
                                                          after pleading guilty to one count of acquiring a
                                                          controlled substance by fraud. He is also
                                                          required to participate in a narcotics addiction




                                                     12
                                                                              Office of Investigations

treatment program. As a result of the                   computer in the names of two patients, one of
investigation, the nurse was discharged from his        whom was deceased.
position at the VAMC. A VA OIG investigation
disclosed the individual, who had been                  • A former VAMC physician was sentenced
employed in the VAMC emergency room,                    to 6 months’ home confinement, 36 months’
diverted up to 2,000 milligrams per day of              probation, and was ordered to pay a $5,000 fine
Demerol and Vicodin for his own use over the            and restitution in the amount of $6,387. The
course of a 15-month period. Investigation              physician previously pleaded guilty to one count
found that the nurse obtained the narcotics from        of theft of Government property after a joint VA
the emergency room narcotics cabinet and                OIG and Drug Enforcement Administration
altered the Controlled Substance Administration         investigation disclosed the physician had
Record, which is used to track the narcotics            diverted for his own use approximately 45,620
inventory. To avoid detection, the nurse made           doses of codeine over a 3½-year period. He
false entries on the record, including entering         accomplished this diversion via two separate
fictitious patient names, indicating that larger        schemes. Initially, he recruited several veteran
doses were given to patients than were actually         patients at the VAMC and told them that he was
given, listing fictitious narcotic transfers            helping an uninsured patient that needed
between different units of the hospital, and            codeine. He would give the veterans
shortening balance-forward amounts.                     prescriptions for codeine, which they would
Additionally, the individual destroyed some             have filled at the VAMC pharmacy and then
records to cover up his diversion and false             turn over to the physician. Eventually, the
entries. It was found that the nurse was often          physician began writing codeine prescriptions
under the influence of these drugs while on duty        for some of his patients, which he would drop
and while administering emergency health care           off at the VAMC pharmacy and then pick up
services to veterans. An audit conducted by the         himself. He would indicate to the pharmacy
VA Pharmacy Service, under the direction of the         personnel that he would see the patient later that
VA OIG, revealed that the nurse diverted more           day and would give the medications to the
than 130,000 milligrams of Demerol and more             patient at that time. The patients were not aware
than 3,300 tablets of Vicodin.                          that the physician was writing these
                                                        prescriptions and never received the drugs.
• A VAMC pharmacist was arrested and
charged with stealing 400 Endocet (generic form         • A VAMC nurse was arrested by VA OIG
of Percocet) tablets, and two liquid syrup              and Food and Drug Administration special
medications containing the controlled substance         agents and subsequently indicted on charges of
Hydrocodone from the VAMC pharmacy. The                 tampering with consumer products.
arrest was made by special agents of the Drug           Investigation disclosed the individual used
Enforcement Administration and VA OIG. A                syringes to withdraw Demerol from vials for his
VA OIG investigation disclosed the pharmacist           personal use, refilled the vials with saline
replaced the stolen Endocet with Tylenol tablets        solution and returned them for distribution to
(a non-controlled substance), and replaced the          veteran patients. The individual admitted his
stolen Hydrocodone syrup with liquid Tylenol.           actions in a signed sworn statement given during
In additional charges, it was alleged the               the course of the investigation. Further action in
pharmacist illegally obtained other controlled          the case is pending.
substances by entering two unauthorized
prescriptions into the VAMC pharmacy




                                                   13
Office of Investigations

Possession/Sale of Illegal Drugs                         • A former VA medical and regional office
                                                         center (VAM&ROC) police officer pleaded
• A joint investigation by the VA OIG, VA                guilty pursuant to an arrest and indictment on
police, and local law enforcement officials              charges of theft. A joint VA OIG and VA police
resulted in two VA employees pleading guilty to          investigation disclosed that, after an employee at
possession of controlled substances on VA                the VAM&ROC reported her laptop computer
property. Both employees became subjects of              missing, the officer took a report from the
the investigation after a coordinated gate search        employee and reported that the laptop computer
using drug-sniffing dogs, was conducted as               had likely been stolen and would not be
employees left the property after work. The              recovered. Subsequent investigation, however,
search was conducted based on allegations                determined the officer had stolen the computer
received that drug trafficking was taking place          and pawned it for cash. During questioning
on the VAMC grounds. Additional gate                     subsequent to his arrest, he admitted stealing at
searches were subsequently conducted, resulting          least four computers. After this admission, VA
in more arrests. The investigation continues.            immediately issued subject a notice of
                                                         termination. Sentencing is pending.
• Twenty-four individuals were arrested by
VA OIG special agents, in an effort to break up          • A former VAMC laboratory technician was
a drug-theft ring. A joint investigation by the          arrested following an indictment by a grand jury
VA OIG, Food and Drug Administration, and                on charges of embezzlement of funds. While
local police disclosed that a conspiracy was             employed at the VAMC, the laboratory
taking place among a group of individuals to             technician was detailed to the American
purchase controlled pharmaceuticals from                 Federation of Government Employee local
Medicaid recipients. The conspiracy targeted             office as union president. A joint investigation
drugs which could be obtained at no cost to the          by members of VA OIG, U.S. Department of
recipients and which were easily obtained from           Labor (DOL), Office of Labor Management
Government sources such as VA pharmacies.                Standards, and the Federal Bureau of
Investigation showed many of the drugs that              Investigation (FBI) disclosed that, while acting
have been sold in the conspiracy were                    as president, the former employee embezzled
represented to the conspirators as having been           union funds in excess of $41,000 by writing
stolen or otherwise diverted from VA                     checks from the union’s account payable to
pharmacies.                                              herself, family members, and for personal
                                                         expenses. She also withdrew funds from the
Theft and Embezzlement                                   union’s account at several automatic teller
                                                         machines and made purchases for her personal
• A former VAMC chief of prosthetics and                 use using the union’s bank debit card. Judicial
sensory aids was indicted by a Federal grand             action is pending.
jury, charged with one count of theft of
Government property. A VA OIG investigation              • An individual who was the former treasurer
disclosed the individual ordered personal                of a labor union representing workers at a
computers and related software items using               VAMC was sentenced to 4 months’ home
fraudulent VA purchase orders, and shipped               confinement with electronic monitoring, 170
them to his residence and other locations for his        hours of community service, and ordered to
own personal use. Loss to VA exceeds $20,000.            make restitution of $19,511 to the union. The
                                                         individual previously had pleaded guilty to one
                                                         count each of embezzlement and false




                                                    14
                                                                               Office of Investigations

statements. The guilty plea and subsequent                guilty to two counts of bank fraud after a VA
sentencing were the result of a joint VA OIG              OIG investigation disclosed he had stolen
and DOL investigation.                                    personal checkbooks from two veteran patients
                                                          at the VAMC and then wrote checks to himself
• A former VA outpatient clinic agent cashier             by forging the veterans' signatures. Several of
pleaded guilty to one count of theft of                   these checks were written after the veterans had
Government funds. The individual admitted                 died. Investigation further revealed he also
that, over a 4-year period, she embezzled more            forged the endorsement on two U.S. Treasury
than $10,000 in medical and prescription drug             checks made payable to one of the veterans.
co-payments made by patients, converting the
funds for her own use. As a result of the                 • A VAMC nursing assistant pleaded guilty to
investigation, the individual resigned from her           computer fraud and grand theft after being
position with VA. Sentencing is pending.                  arrested by VA OIG special agents. The plea
                                                          was the result of a joint VA OIG and state
• A former VAMC carpenter signed a pretrial               Department of Motor Vehicles investigation,
diversion agreement admitting that, over a 2-             which disclosed the nursing assistant obtained a
year period, he stole 16 air conditioners from the        patient’s personal information from the hospital
VAMC for his personal use and monetary gain.              computer system. He then used this information
He was ordered to pay $5,500 in restitution to            to apply for and obtain a temporary state driver’s
the VAMC as part of the agreement. During the             license. The nursing assistant used the
course of the investigation, VA OIG special               temporary driver’s license and the patient’s
agents executed a search warrant, at which time           personal information to obtain a credit card,
they confiscated five of the air conditioners from        telephone account, and automobile financing
an auto repair shop, where the individual had             under the patient’s name. The patient did not
stored them in an attempt to avoid detection.             know the nursing assistant and did not give
The remaining air conditioners were allegedly             permission to use his identity.
sold or given away by the individual.
                                                          • An individual formerly employed by VA as
• A former VAMC administrative officer in                 a computer specialist was sentenced to 2 years’
the Research Service pleaded guilty to a one-             probation, $1,000 restitution, and $1,500 in fines
count criminal information charging him with              after pleading guilty to a one-count criminal
theft of Government funds. A VA OIG                       information charging him with theft of
investigation disclosed the individual filed false        Government property. A VA OIG investigation
travel vouchers in connection with a permanent            disclosed the individual, who came under
change of station move. In his plea, the                  investigation in response to allegations that he
individual admitted he had claimed $9,200 in              was selling VA-owned computers and computer
false moving expenses that were subsequently              parts, sold a computer that contained VA-
paid by VA. The individual had resigned his               purchased parts to an undercover agent. He
VA position at the onset of the investigation.            admitted during the investigation that, over the
Sentencing is pending.                                    past 7 to 8 years, he had stolen and sold VA
                                                          computers and parts valued at over $11,000. He
• A former VAMC licensed practical nurse                  admitted to realizing at least $6,500 in cash
was sentenced to 5 months' imprisonment, 5                profits from the sale of either stolen VA
years’ supervised release which includes 5                computers, or computer systems that he
months' electronic monitoring, and restitution of         constructed using stolen VA parts.
$33,350. The individual previously had pleaded




                                                     15
Office of Investigations

Acceptance of Bribes, Gratuities,                         that his injuries were not going to allow him to
Conflicts of Interest                                     work again. At the time of his termination, he
                                                          started collecting workers’ compensation
• A former VA outpatient clinic medical                   benefits. He failed to report, however, that he
travel clerk pleaded guilty to charges of                 was earning income of $15,000 a year as a dog-
accepting gratuities while functioning as a               handler while collecting the benefits. As a
public official. She was sentenced to 2 years’            result, he received over $55,000 in benefits to
probation and ordered to pay a $1,500 fine. A             which he was not entitled.
VA OIG investigation revealed the individual
accepted monetary gratuities from the owners of           • A former VA veterans outreach specialist
a medical transportation company in exchange              was sentenced to 12 months’ and 1 day’s
for giving their company extra business. As               incarceration, 3 years’ supervised release, and
travel clerk, her duties included arranging               ordered to pay restitution of $324,700. The
transportation for veterans and working with              sentencing was the result of a previous guilty
contractors enrolled in providing transportation          plea to a nine-count indictment charging him
service to ambulatory and wheelchair-bound                with workers’ compensation fraud, making false
veterans. She was responsible for selecting the           statements, and mail fraud. A VA OIG
contractor to transport veterans to and from a            investigation disclosed that, for almost 13 years,
designated VA medical facility.                           the individual illegally collected over $320,000
                                                          in workers’ compensation benefits, claiming 100
• A former VAMC labor gang foreman was                    percent disability from an on-the job-injury.
sentenced to 3 years’ probation and ordered to            During that time, he submitted yearly forms to
pay a $3,000 fine after pleading guilty to one            the DOL’s Office of Workers' Compensation
count of conspiracy to accept an unlawful                 Programs certifying he was unable to work due
gratuity. The sentencing was the result of a joint        to the disability. The investigation revealed that,
VA OIG and Defense Criminal Investigative                 while the individual was collecting benefits for
Service (DCIS) investigation concerning VA                his inability to work, he was, in fact, working a
employees accepting bribes and gratuities in              series of jobs including counselor at a military
return for having recommended approval of                 academy, school psychologist at an elementary
numerous purchases orders. The foreman                    school, adjunct professor at a university, private
admitted he recommended approval of eight                 therapist, owner and operator of two bus
orders to purchase $22,000 of hand and machine            companies, and co-owner and director of both a
tools and landscaping supplies and services from          preschool and an infant evaluation center.
VA contractors who supplied the products. The
contractors involved previously pleaded guilty to         Credit Card Fraud
conspiracy charges.
                                                          • A former VAMC program support clerk
Workers’ Compensation Benefits Fraud                      pleaded guilty to defrauding VA and a state
                                                          Department of Public Aid. In a joint VA OIG
• A former VAMC laborer was sentenced to 5                and Postal Inspection Service investigation, it
years’ probation and ordered to pay restitution of        was disclosed the individual used a VA-issued
$8,400. A joint VA OIG and DOL investigation              credit card for personal use, resulting in a loss to
disclosed the individual injured his back while           VA of more than $3,700. The investigation
on the job in 1994 and was terminated from                further disclosed that the individual applied for
employment in 1995 when it was determined                 state public aid, failing to disclose her
                                                          employment with VA on the application, causing




                                                     16
                                                                                 Office of Investigations

a loss of more than $39,000 in fraudulent benefits        Patient Abuse/Death
payments. Sentencing in the case is pending.

• A former VAMC library technician was
indicted in a state court and charged with two
counts of felony theft. A VA OIG investigation
revealed the individual used her Government
IMPAC credit card to purchase items for her
personal use. The investigation further
determined that the library technician, who had
been elected treasurer of the VA Employees
Association, misappropriated approximately                                     VA nurse
$10,000 from the association’s account into her                            charged in neglect
personal bank accounts.                                                        of patient

• A former VAMC program support assistant                            [photo not available electronically]
pleaded guilty to one count of theft of
Government property after he was arrested on
charges of credit card fraud by VA OIG special
agents. A joint VA OIG, U.S. Secret Service
(USSS), and U.S. Postal Inspection Service
investigation disclosed the individual received a
Government credit card in the mail shortly after
he had been terminated from his VA position.
Despite the fact that the card was marked “For
Official Government Travel Only” and he had
been terminated from employment, he activated
the card and used it to charge over $6,000 worth
of personal items. Sentencing is pending.

• An individual pleaded guilty to one count of
credit card fraud and one count of conspiracy to
commit credit card fraud. The plea resulted
from a joint VA OIG and USSS investigation,
which disclosed the individual had fraudulently
obtained a Government credit card issued to a
former VA employee. The individual thereafter
used the credit card to make unauthorized
withdrawals in excess of $95,000 in cash from
multiple automated teller machines.
                                                          • A former VAMC dialysis nurse was arrested
                                                          on charges of knowingly, and willfully or by
                                                          culpable negligence, neglecting a disabled adult,
                                                          and by doing so causing him great bodily harm.
                                                          The arrest was the result of a joint VA OIG and




                                                     17
Office of Investigations

local police investigation which disclosed the           • A Federal grand jury returned a superseding
individual improperly connected a kidney                 indictment charging a former VAMC nurse with
dialysis machine to a disabled veteran in her            first degree murder of a VAMC patient and
care, and then left him unattended while she             assault with intent to commit murder of another
attended to personal business. The improper              patient. These charges are in addition to charges
connection caused the veteran’s blood to drain           filed against the former nurse in an earlier
into a plastic container and overflow rather than        indictment returned in November 1998. With
return to his system. After discovering that             the advent of these newest charges, the U.S.
more than two liters of the veteran’s blood had          Attorney filed a notice to seek the death penalty
drained from his body, the individual, assisted          in this case. The superseding indictment
by co-workers, took actions, which appeared to           charges, as did the original indictment, that the
be an attempt to cover up what happened. These           former nurse used a heart stimulant to assault
actions included cleaning up the blood with rags         and murder three VAMC patients, and that she
and surreptitiously disposing of them, and               assaulted two additional patients with intent to
pouring the blood into a washroom sink before            commit murder, also by injecting them with the
calling for medical assistance. The investigation        stimulant. The superseding indictment adds the
disclosed 45 minutes elapsed from the time the           additional charges of murder, and attempted
blood loss was discovered by the nurse until             murder and assault with intent to commit
medical assistance was summoned. When the                murder. All of the victims were patients at the
medical assistance team arrived, members were            VAMC where the nurse worked.
not informed of the massive loss of blood, later
determined to be the cause of the veteran’s
death.




        Ex-Nurse Could Face Death
                                                              [photo not available electronically]




                                                    18
                                                                              Office of Investigations

• A former VAMC nurse was sentenced to 1                 Other Employee Misconduct
year's probation after having been convicted at
trial on one count of making false statements.           • A VAMC occupational therapy assistant,
The conviction was the result of an investigation        and his daughter, both pleaded guilty to one
conducted by VA OIG following receipt of a               count of conspiracy to commit mail fraud and
complaint from a VAMC patient. The                       wire fraud. The guilty pleas followed
investigation determined the former employee, a          indictments, which charged the individuals with
registered nurse assigned to the long-term               accepting money for items, and not providing
psychiatry unit, made false statements to VA             the items to buyers. Investigation disclosed the
OIG special agents denying that she routinely            subjects sent and received electronic messages,
slept on duty during her shifts. For the majority        using VA’s Internet services, to advertise and
of the nights, she was the only registered nurse         sell products. They obtained more than $40,000
assigned to the unit and the only staff member           by U.S. mail and wire transfers while operating
allowed to dispense medications to patients.             this fraudulent scheme.

• A VAMC police officer was convicted in                 • As the result of a joint investigation between
municipal court on charges of tampering with             VA OIG special agents and VA police, a
physical evidence and was sentenced to 90 days’          violation notice for commercial solicitation and
imprisonment. A joint investigation by VA                vending was issued to a physician's assistant
OIG, VA police, and the FBI disclosed a                  working in a VA outpatient clinic. Investigation
physical altercation took place between a patient        disclosed the physician’s assistant was soliciting
and a VA employee during which the patient               patients and staff to purchase a fruit juice which
sustained minor injuries. The VA employee,               he purported to provide medicinal benefits. He
who was not injured, denied striking the patient         told patients that the juice was an anti-
and advised that the patient had struck him              inflammatory, and that he was conducting VA-
instead. The VA police officer, who responded            sanctioned research. The issuance of the
to the incident, issued a citation for disorderly        violation notice mandates an appearance before
conduct to the patient. When interviewed during          a Federal magistrate judge.
the course of the investigation, the officer
admitted throwing away the statement he                  • An individual employed in a VAMC
received from another patient that corroborated          compensated work therapy division pleaded
the victim patient’s story of the assault by the         guilty to charges of possession and reproduction
VA employee.                                             of child pornography on Government property.
                                                         A VA OIG investigation disclosed the individual
• A former VHA licensed practical nurse was              accessed the shared computers in the VAMC’s
sentenced to 3 years’ supervised release and 40          library to download and print more than 11
hours of community service. The individual               pages of pornographic material portraying
previously had pleaded guilty to one count of            children. Sentencing is pending.
assault on a patient after a VA OIG investigation
disclosed she struck the patient, a 77-year old          • A former VA information security officer
veteran who was a resident of a VA extended              was sentenced to 27 months’ incarceration, 36
care unit. Investigation further showed the              months’ probation, and ordered to pay a fine of
victim suffered from dementia and was unable to          $2,000 for possession of child pornography on
make a complaint or defend himself against the           Government property. A VA OIG investigation
actions of the nurse.                                    disclosed the individual stored numerous




                                                    19
Office of Investigations

sexually explicit images of children, some under          OIG and VA police investigation disclosed the
the age of 12, on his VA computer.                        two individuals entered a VAMC and threatened
                                                          to harm a VA employee if he did not pay them
Control of Drugs                                          money he had borrowed, at the rate of 20
                                                          percent interest every 2 weeks. The two
A veteran was sentenced to 36 months’                     individuals were subsequently arrested by VA
probation and ordered to pay $500 in fines after          OIG special agents. One of the individuals was
he was indicted and pleaded guilty to charges of          released on a $25,000 bond, while the second,
attempting to obtain a controlled substance by            who was serving 5 years’ probation for a 1998
fraud. A joint VA OIG and VA police                       felony robbery conviction, was held pending the
investigation disclosed the individual presented          receipt of additional bond requirements.
an altered prescription to a VAMC pharmacy in
an attempt to obtain Percocet. Investigation              • An individual was arrested by VA OIG
further disclosed the individual had presented            special agents pursuant to a warrant charging
altered prescriptions on two prior occasions,             him with assaulting and threatening a VAMC
successfully obtaining quantities of Percocet to          doctor. After being arrested, the individual was
which he was not entitled.                                arraigned and ordered to stay away from the
                                                          VAMC, and to have no contact with the doctor.
Theft of Other Property                                   The individual was further ordered to appear
                                                          before the court in November 1999, or face a
A VAMC outpatient, who previously had been                fine or imprisonment of up to $1,000 or 180
arrested on charges of stealing checks from a             days, or both.
fellow patient, was sentenced 6 months’
incarceration, 3 years’ probation, and ordered to         Armed Robbery
pay $3,000 in restitution. A VA OIG
investigation disclosed the individual stole blank        An individual formerly employed by a credit
checks from a veteran residing in a VA nursing            union located at a VAMC was found guilty in a
home, forged the veteran’s signature and cashed           jury trial of one count of bank robbery. A joint
the checks, resulting in a theft of approximately         investigation by VA OIG, FBI, and local police
$3,000.                                                   disclosed that the former employee assisted
                                                          another individual, not employed by VA, in
Threats to VA Employees                                   planning the robbery of the credit union for over
                                                          $147,000. The associate, who previously
• An individual recently terminated from her              pleaded guilty has already been sentenced.
employment in the VAMC radiology unit was                 Sentencing for the former employee is pending.
arrested for making death threats to various VA
employees with whom she had worked. A joint               Construction Related Fraud
VA OIG and FBI investigation disclosed the
individual left threatening voice mail messages           A construction company that contracted to
indicating she wanted to kill her supervisor and          perform VAMC renovations, and its former
other VA employees.                                       comptroller and project manager, were all
                                                          sentenced in U.S. District Court after pleading
• A criminal complaint and arrest warrants                guilty to charges of making false statements.
were issued charging two individuals with                 The construction company was sentenced to 3
collection of credit by extortion. A joint VA             years’ probation and a $25,000 fine. The




                                                     20
                                                                              Office of Investigations

comptroller was sentenced to 2 months in a               him with conspiracy to file false claims. The
halfway house, 6 months’ home detention, and 3           individual’s guilty plea was in response to
years’ probation. The project manager was                evidence developed during a joint VA OIG and
sentenced to 3 years’ probation, 6 months’ home          FBI investigation, which disclosed the
confinement with electronic monitoring, and a            individual approved invoices totaling
$2,000 fine. The construction company had                approximately $68,000 for computer purchases
previously pleaded guilty to two counts of               that a co-conspirator had submitted to VA. The
making false statements. The comptroller had             computers, intended for the use and training of
pleaded guilty to two counts of conspiracy to            disabled veterans, were never delivered. For his
make false statements and the project manager            part in the scheme, the individual received more
had pleaded guilty to one count of making                than $50,000. The co-conspirator, owner of a
fraudulent demands and possession of false               private company which supplied the computers,
papers with the intent to defraud. The guilty            previously was convicted and pleaded guilty to
pleas and sentencings were the result of a joint         similar charges. A sentencing date for the
investigation conducted by the VA OIG, DCIS,             former VA employee is pending.
DOL, and Army Criminal Investigations
Division. The construction company and its two           • A VAMC director of respiratory care
employees admitted submitting false certified            pleaded guilty to soliciting and receiving a
payrolls to DOL on VA and Army contracts.                laptop computer for her personal use from a VA
                                                         contractor in exchange for purchasing medical
Procurement Fraud                                        supplies and laboratory equipment from the
                                                         contractor. Sentencing is pending.
• An individual, who served as business
manager for a medical testing company, pleaded           • A contractor that supplied surgical
guilty to a one-count criminal information               instruments to VA agreed to pay a settlement of
charging her with conspiracy to defraud the              $1,334,000 to the Government after being
United States by billing for unnecessary                 charged with violation of the False Claims Act.
laboratory tests. Two additional individuals, the        The settlement is the result of a VA OIG
president and the former product manager for             investigation which disclosed the contractor,
the company, were both indicted on 16 counts of          who was awarded a Federal Supply Schedule
mail fraud and one count of conspiracy to                contract, violated the Trade Agreements Act.
defraud the United States. A joint VA OIG,               Specifically, the contractor certified during the
Department of Health and Human Services                  contract negotiation phase that they would only
(HHS) OIG, and DCIS investigation disclosed              supply VA surgical instruments manufactured in
the individuals involved in the conspiracy               Germany. Instead, the company shipped
encouraged clinics to order or arrange for               imported surgical instruments to VA and other
laboratory blood testing services for dialysis           Government agencies that were manufactured in
patients through the company. The services               Malaysia and Poland. Both are considered non-
were paid primarily by Medicare; however, VA             designated countries and prohibited from
paid the company more than $1 million for                participating in Federal procurements.
VAMC laboratory services. Sentencing is
pending.                                                 • An individual who had a contract to
                                                         distribute latex examination gloves to VA was
• A former Vocational and Rehabilitation                 charged with introduction or delivery of
Counseling Service psychologist pleaded guilty           misbranded devices into interstate commerce,
to a one-count criminal information charging             fraud, and false statements. A joint investigation




                                                    21
Office of Investigations

by VA OIG, Food and Drug Administration, and               having submitted false payroll records to the
FBI revealed the distributor sold gloves, which            Government. A VA OIG investigation disclosed
were not medical grade, to a Federal Supply                that, between 1995 and 1998, payrolls were
Schedule contractor who, in turn, supplied the             submitted that overstated the actual wages paid
gloves to numerous VAMCs. The total amount                 to employees. The companies underpaid
of the sales was more than $329,000. Judicial              employees in wages and benefits resulting in
action is pending.                                         approximately $700,000 in additional
                                                           Government payments to which the companies
Contract Fraud                                             were not entitled.

• An individual who contracted with VA to                  Fee Basis Fraud
supply tools and supplies was sentenced to 73
months in prison and restitution of $10,000 for            • An individual entered into a deferred
conspiring to defraud VA and DoD on                        prosecution agreement with the U.S. Attorney’s
Government contracts valued at more than                   Office after a criminal complaint was filed
$400,000. The individual was first charged in a            against her, charging her with one count of false
19-count criminal indictment charging him with             claims. During the course of a joint VA OIG,
conspiracy to bribe VA and DoD officials,                  USSS, and Postal Inspection Service
submitting false statements and false claims,              investigation, the individual admitted she
counterfeiting DoD’s official seal, mail fraud,            submitted false billings to VA for home health
and attempted bribery. He pleaded guilty at that           care expenses incurred allegedly caring for her
time to separate charges of using a fake passport          father and seeking reimbursement of
to flee the country with his wife and filing a U.S.        approximately $40,000. During the time she
Customs form in a false name. The individual               was allegedly caring for her father in her home,
admitted that, with the assistance of his wife, he         he was confined to a hospital, which was
paid bribes to VAMC and DoD officials in order             rendering care.
to influence the awarding of Government
contracts to his companies. The bribes included            • A nurse, who treated veterans under a fee
thousands of dollars in cash and items such as a           basis arrangement with VA, was indicted by a
motorcycle, air compressor, chain saw, cigars,             Federal grand jury and charged with four counts
and bottles of liquor. As a result of the bribes,          of wire fraud and two counts of submitting false
his companies were awarded approximately 190               claims. The indictment was the result of a VA
VA contracts valued at more than $132,000 to               OIG investigation which determined the nurse
supply hand tools, machine tools, and                      submitted false invoices for nursing visits to
landscaping supplies and services. Some of the             patients that she did not perform. Investigation
Government officials to whom he paid bribes                disclosed the nurse submitted more than $43,900
have pleaded guilty to accepting the bribes.               in false billings. A trial date is pending.

• Three individuals each pleaded guilty to one             Travel Benefits Fraud
count of conspiracy to submit false statements.
The plumbing companies, which employed the                 A veteran was arrested by VA OIG special
three individuals and had contracted to perform            agents on charges of theft of VA travel benefits.
plumbing work for VA, separately pleaded                   A joint VA OIG and VA police investigation
guilty to one count of false statements. The               disclosed the veteran, a VAMC outpatient,
guilty pleas were the result of an indictment that         provided a false address on his records, claiming
charged the individuals and the companies with




                                                      22
                                                                              Office of Investigations

he lived outside a 20-mile radius of the VAMC,           more than $4,000 for his own use. Judicial
which enabled him to file claims for travel              actions are pending.
reimbursement. Investigation found he actually
lived within the 20-mile radius. Over a 2-year           • An individual pleaded guilty to a charge of
period, the individual received approximately            submitting false statements to a lending
$8,000 in travel benefit reimbursement                   institution in order to obtain a VA-guaranteed
payments to which he was not entitled.                   loan. A Federal grand jury had previously
                                                         returned a seven-count indictment against the
                                                         individual. The fraudulent activities surfaced
                                                         after the individual defaulted on his mortgage
Veterans Benefits                                        loan within 12 months of origination, triggering
Administration                                           an audit of his loan processing documents,
                                                         which disclosed the presence of conflicting
VBA provides wide-reaching benefits to veterans          information. A VA OIG investigation
and their dependents including pension and               confirmed the application contained inflated
compensation payments, home loan guaranty                income information and false supporting
services, and educational opportunities. Each of         documentation, which served as the basis for his
these benefits programs is subject to fraud by           loan approval. The subsequent default and
those who wish to take advantage of the system.          foreclosure resulted in a $33,100 loss to VA.
For example, individuals submit false claims for
service connected disability, third parties steal        • A veteran and his spouse were sentenced
pension payments issued after the unreported             after pleading guilty to charges of conspiracy to
death of the veteran, individuals provide false          obtain a VA-guaranteed home loan, making
information so that veterans qualify for VA              false statements in order to obtain a VA-
guaranteed property loans, equity skimmers               guaranteed home loan, making false statements
dupe veterans out of their homes, and                    on a Federal credit union loan application, and
educational benefits are obtained under false            using a false Social Security number. The
representations. The Office of Investigations            veteran, who pleaded guilty to two counts of the
spends considerable resources in investigating           original 29-count indictment, was sentenced to
and arresting those who defraud the benefits             two concurrent 11-month prison terms, two
operations of VA.                                        concurrent periods of probation, 3 and 5 years
                                                         respectively, and was ordered to pay $10,000 in
Loan Guaranty Program Fraud                              restitution. The veteran’s spouse, who pleaded
                                                         guilty to six counts of the original 29 count
Loan Origination Fraud                                   indictment, was sentenced to 6 concurrent
                                                         periods of 3 years’ supervised probation and was
                                                         ordered to pay $10,000 restitution. A joint VA
• A former VARO loan guaranty
                                                         OIG and USSS investigation disclosed the
representative was indicted on one count of
                                                         couple provided false income information in
embezzlement. A VA OIG investigation
                                                         order to obtain the VA-guaranteed mortgage
disclosed the individual embezzled funds from
                                                         loan, on which they subsequently defaulted. The
veterans seeking his assistance on problems
                                                         couple also used false information on other
associated with their VA-guaranteed home
                                                         credit applications. Loss to VA is
loans. When the veterans sent him money to be
                                                         approximately $132,800.
applied to their loans, he wrongfully converted




                                                    23
Office of Investigations

Equity Skimming                                             The manager was reprimanded for having
                                                            participated substantially in the award of the
An individual was sentenced to 78 months’                   contract, a potential conflict of interest because
imprisonment, a fine of $15,000, and court                  the firm employed two of his children. The
ordered restitution of $571,000 after conviction            director received a letter of counseling because
at a jury trial on charges of equity skimming,              he authorized improper procurement procedures
mail fraud, bankruptcy fraud, and money                     to obtain the contract.
laundering. A VA OIG investigation disclosed
the individual fraudulently assumed 61                      • A VA OIG investigation disclosed evidence
properties with mortgages guaranteed by VA or               that two employees in a VARO loan guaranty
insured by HUD, rented the homes, and kept the              division engaged in favoritism and unacceptable
rent monies for himself without making the                  bidding practices. The first employee was
required mortgage payments. His actions caused              terminated from employment after the
all of the loans to go into default and eventual            investigation showed she acted as a property
foreclosure. In addition, he delayed foreclosure            management specialist for a number of VA
proceedings by filing multiple bankruptcies                 portfolio properties on which successful bids
under fictitious names. He deposited and                    had been made by her outside employer, a
withdrew large sums of cash, so he could                    financial services company. Most of the bids
launder the illegal proceeds of the scheme.                 submitted by the company were slightly above
                                                            the minimum acceptable offer amounts, a
Property Management Fraud                                   confidential value set by VA, which led
                                                            investigators to believe she was engaging in
An individual pleaded guilty to one count each              unacceptable practices. In addition, she
of making a false statement to VA and to HUD.               personally met with a bidder who also happened
The individual previously was indicted on 25                to be her home insurance broker, to obtain
counts of making false statements following a               signatures on bid submission documents,
joint VA OIG and HUD investigation which                    creating the appearance of favoritism. The
determined that he misrepresented himself as a              second VA employee, who also was employed
licensed real estate broker in order to participate         by the same financial services company, was
in brokering the sale of repossessed VA and                 demoted two grades based on the findings of the
HUD homes. The individual, whose real estate                investigation, which showed the outside
license had expired, altered the expiration date            employment created an appearance of
on his license in order to make himself appear              impropriety and favoritism.
eligible to participate in real estate transactions.
Through his actions, he received commissions to             Beneficiary Fraud
which he was not entitled on sales of homes.
Sentencing is pending.                                      Employee Misconduct

Unacceptable Bidding Practices                              • A former VARO supervisor was sentenced
                                                            to 33 months in prison and ordered to pay
• Two VA employees, one a veterans service                  $615,472 in restitution to VA. She also agreed
center manager and the other a VARO director,               to forfeit more than $300,000 in personal and
were issued a reprimand and letter of                       real property, including two vehicles. The
counseling, respectively, for their roles in the            sentencing follows a guilty plea to one count of
noncompetitive issuance of a contract to a firm             engaging in an unlawful monetary transaction
to provide transcription services for the VARO.




                                                       24
                                                                                Office of Investigations

(money laundering) involving the proceeds of a            as he exited the bank. At the time of his arrest,
mail fraud and larceny scheme. A VARO senior              he was in possession of $10,000 cash.
claims examiner also was arrested in the case,
charged with conspiracy to steal public money,            Dependency & Indemnity Compensation
theft of public money, obstruction of agency              (DIC) Benefits Fraud
proceedings, and destruction of public records,
after it was disclosed the claims examiner                • The widower of a VA beneficiary was
conspired with the former supervisor to create a          indicted and charged with theft of Government
fraudulent VA disability award on the                     funds. This individual’s wife was a VA
supervisor’s behalf. A VA OIG investigation               beneficiary, the surviving spouse of a deceased
disclosed the former supervisor created                   veteran, whose payments should have ceased
computerized records which fraudulently                   upon her remarriage. A joint VA OIG and
reflected that her fiancé was entitled to receive         USSS investigation disclosed, however, that the
large amounts of VA disability payments to                wife failed to notify VA that she had remarried
which he was not entitled. Investigation further          in 1983, and then the spouse, in turn, failed to
revealed the claims examiner destroyed                    notify VA when his wife, the VA beneficiary,
Government records relating to the crime and              died in 1988. Between 1988 and 1997, VA
advised the former supervisor to provide false            benefit payments totaling over $80,044 were
information to investigators. The former                  deposited into his checking account, during
supervisor caused the benefit monies to be                which time he also re-married. In 1997, the
deposited into an account bearing both their              individual shot his present wife, who had
names, wrongfully obtaining more than                     threatened to disclose his illegal receipt of VA
$615,000 in VA benefits.                                  monies. The information regarding the fraud
                                                          surfaced during the investigation of the shooting
• A former VARO ratings specialist was                    by the local sheriff’s office. The individual was
sentenced to 33 months’ imprisonment, 3 years’            convicted of malicious wounding and is
supervised release, and ordered to pay restitution        presently incarcerated. Judicial action on the
of $588,872. He previously had pleaded guilty             fraud charges is pending.
to stealing VA compensation benefits after a VA
OIG investigation revealed he had created a               • An individual was indicted and charged with
record for a fictitious veteran and awarded this          arson, insurance fraud, and defrauding VA
fictitious veteran benefits for service-connected         following a joint investigation by the VA OIG, a
disabilities. For more than 12 years, he                  state fire marshal’s office, and a state Insurance
continued the fraud, causing VA to deposit more           & Safety Fire Commission. The individual, the
than $588,000 in monthly benefit checks into a            widow of a deceased veteran, was under
savings account he opened in the name of the              investigation for a suspicious fire that destroyed
fictitious veteran. Each month the individual             her home and belongings. In addition to arson
withdrew funds from the account. In 1998, he              and false insurance claim charges, the
was arrested by local police on an unrelated              indictment charges that the widow
charge. At the time of his arrest, he was in              misrepresented her marital status on a VA
possession of multiple identification documents           application for VA DIC benefits and received
including documents in the name of the fictitious         benefits to which she was not entitled. The loss
veteran. While under surveillance, he made a              to VA is estimated at over $32,000.
withdrawal from the account and was
immediately arrested by VA OIG special agents             • An individual was indicted by a Federal
                                                          grand jury on 10 counts of mail fraud and 6




                                                     25
Office of Investigations

counts of forgery following a VA OIG                       VA DIC benefits checks, resulting in a loss to
investigation which disclosed she wrongfully               the Government of more than $62,000.
diverted VA DIC benefits payments.
Investigation showed she failed to inform VA               • An individual was indicted on one count of
about the death of her mother, a VA beneficiary,           forgery after a joint VA OIG and FBI
and continued to collect the benefits checks as            investigation disclosed that he concealed his
they were sent by VA, converting more than                 mother’s death in order to continue receiving
$7,800 in VA benefits to her own use.                      VA benefits in her name. After the mother’s
                                                           death in 1986, the individual continued for
• An individual was arrested by special agents             almost 9 years to negotiate her VA DIC benefits,
of the VA OIG, U.S. Marshals Service, and                  resulting in a loss to the Government of more
military police, as the result of a criminal               than $78,000.
indictment on charges of making false claims
against VA, and a subsequent charge of failure             • An individual pleaded guilty to a criminal
to appear in court to answer the false claims              information charging him with theft of
charges. Investigation disclosed that the                  Government funds. A VA OIG investigation
individual filed a claim to receive benefits as the        disclosed the individual, who was a friend of the
widow of a veteran, failing to report her                  widow of a veteran, converted VA DIC benefits
remarriage, which would have caused the                    intended for the widow, after failing to notify
benefits to cease. She forged the signature of a           VA of the widow’s death in 1991. Investigation
veteran to whom she claimed to have been                   disclosed that he forged the widow’s signature
married on VA documents designating her as a               on documents which he submitted to VA in
beneficiary. As a result, the individual received          order to continue the issuance of electronically
over $33,000 in DIC benefits to which she was              deposited funds. He used automated teller
not entitled.                                              machines and forged checks to convert more
                                                           than $32,000 to his own use. Sentencing is
• A criminal information was filed against an              pending.
individual who wrongfully diverted his deceased
mother’s DIC benefits and used them for                    • An individual was indicted by a Federal
personal expenses. A VA OIG investigation                  grand jury on one count of theft. The indictment
disclosed that, from the time of the mother’s              was the result of a VA OIG investigation which
death in 1995 until 1997, the individual failed to         determined the individual failed to report the
report the death and continued to allow benefits           death of her mother to VA and the Social
payments to be electronically deposited by VA              Security Administration (SSA), and continued
into a joint bank account that he shared with his          for more than 30 years to divert benefits
mother. Over a 2½-year period, the individual              intended for her mother from both agencies. As
received more than $33,600 to which he was not             a result of her actions, the individual received
entitled.                                                  more than $85,000 in SSA retirement/survivors
                                                           insurance benefits, and more than $26,000 in
• An individual was indicted on one count of               VA benefits to which she was not entitled.
theft of Government funds after a VA OIG
investigation disclosed that she concealed her             • An individual was sentenced to 4 months’
mother’s death in 1993 in order to continue                incarceration, 4 months’ home detention, 1
receiving VA benefits. For almost 6 years, the             year’s supervised release, and ordered to pay
individual continued to negotiate her mother’s             restitution of $56,890 to VA after a VA OIG
                                                           investigation disclosed the individual




                                                      26
                                                                               Office of Investigations

fraudulently received and negotiated benefits            previously pleaded guilty to a one-count
payments intended for her deceased mother.               criminal information charging her with
She failed to notify VA of her mother’s death            fraudulently accepting VA DIC compensation
and continued for more than 10 years to divert           benefits on behalf of the deceased beneficiary.
the benefits payments. Loss to VA was in                 The custodian’s husband previously pleaded
excess of $76,000.                                       guilty and was convicted for his role in aiding or
                                                         assisting his spouse in concealing receipt of the
• An individual was indicted on one count of             benefits monies by excluding the income on a
theft of Government funds after a joint VA OIG           joint Federal tax return. He was sentenced to 5
and USSS investigation disclosed that she failed         months’ incarceration, 5 months’ home
to report her mother’s death to authorities and,         detention, 1 year’s supervised release, and was
instead, intercepted and cashed VA benefits              ordered to pay $58,272 in restitution to VA after
checks intended for her mother. Loss to the              pleading guilty. The guilty pleas and resulting
Government was more than $5,700.                         sentencings were the result of a joint VA OIG
                                                         and Internal Revenue Service (IRS)
• A husband and wife were each sentenced to              investigation which disclosed that $58,272 in
5 years’ probation, ordered to pay a fine of $500        disbursements were illegally diverted by the
and $17,250 in restitution. The couple                   custodian, following the death of the
previously pleaded guilty to uttering a forged           beneficiary, and were not accounted for as
writing after a VA OIG investigation revealed            income on the custodian’s Federal tax return.
the couple fraudulently received and negotiated
U.S. Treasury checks intended for the wife’s             Pension Benefits Fraud
deceased mother.

• An individual pleaded guilty to one count of
theft of Government funds and one count of
misprision of a felony after previously being
indicted by a Federal grand jury on the theft                        Veterans service officer
count. She was recently charged with the                              faces federal charges
misprision count in a superceding bill of
information. A VA OIG investigation revealed                      [photo not available electronically]
the individual failed to notify VA of her
mother’s death, continuing to access VA DIC
benefits that were electronically deposited into
the deceased mother’s bank account. Loss to the
Government is approximately $94,600. She was
charged with misprision of a felony after                • An individual who served as a county
investigation disclosed her connection with a            veterans service officer and two individuals who
scheme to commit Government program fraud.               worked as home health care providers were
                                                         indicted by a grand jury on nine counts each of
• An individual who had custodial                        defrauding VA. Each individual was charged
responsibility for a VA beneficiary’s affairs            with one count of conspiracy to defraud the
prior to the beneficiary’s death in 1992 was             United States and commit wire fraud, and each
sentenced to 4 months’ home detention, 1 year            was charged with eight separate counts of wire
supervised release, and was ordered to pay               fraud. The indictments were the result of a joint
$58,272 restitution to VA. The individual




                                                    27
Office of Investigations

VA OIG and Postal Inspection Service                     investigation, which disclosed the individual
investigation, which determined the individuals          applied for and received VA pension benefits to
were engaged in a scheme to qualify veterans for         which he was not entitled. Investigation showed
in-home health care assistance and a VA pension          he failed to report significant income and assets to
by circumventing the system’s income                     VA, which would have made him ineligible for
limitations. The trio devised an elaborate               the benefits. Loss to the Government is more than
scheme whereby the veterans’ service officer             $5,300.
referred veterans to the home health care
company by telling them they could qualify for           • An individual was indicted on four counts of
both in-home aid and attendance as well as a VA          theft of Government property after the
pension. The individuals at the home health care         individual admitted during a VA OIG
agency would have a non-spouse family member             investigation that she wrongfully used VA
or friend designated as home health care                 pension benefits intended for her deceased
provider, making it appear that they were                father. She failed to notify VA of her father’s
employees of the home nursing care company.              death in 1994 and continued to access the funds
The company would then establish fees for the            that were electronically deposited for her father
designated care giver in the exact amount                into their joint bank account. The loss to VA
necessary to offset the veterans’ household              was more than $23,600.
income regardless of the value or level of care
provided. This process would cause the veteran           • A criminal information and plea agreement
to appear eligible for full VA pension benefits,         were filed charging a veteran with one count of
which would then be paid to the veterans. A              fraudulent acceptance of payments. A joint VA
significant portion, however, was taken by the           OIG and FBI investigation disclosed the veteran
home nursing care company and shared with the            submitted false income verification reports to
veterans’ service officer. The remainder of the          VA in order to qualify for pension benefits to
funds was disbursed to the veterans and their            which he was not entitled. The resulting loss to
spouses. This scheme resulted in a loss of over          VA totaled more than $18,600. Sentencing is
$300,000 to VA.                                          pending.

• Three individuals were arrested by special             • A veteran pleaded guilty to one count of
agents of the VA OIG and Postal Inspection               false statements. The guilty plea was the result
Service based on a criminal complaint charging           of an indictment following a VA OIG
them with conspiracy to defraud the                      investigation which determined the individual
Government, after it was found they conspired            had made false statements regarding his total
to divert funds intended for the widow of a              family income. As a result, he received $54,000
veteran. A joint investigation disclosed the             in pension benefits to which he was not
individuals, one of whom was the daughter of             otherwise entitled. Sentencing is pending.
the widow, continued to receive and negotiate
VA pension benefit checks intended for the               • A veteran was sentenced to 8 months’
widow, after her death in 1997. Loss to the              imprisonment, 36 months’ probation, and
Government is approximately $8,000. The                  ordered to pay restitution of $59,780 following a
investigation continues.                                 guilty plea to charges of fraud against the
                                                         Government. A joint VA OIG and SSA
• A veteran was indicted by a Federal grand              investigation disclosed that for almost 4 years,
jury on one count of making false statements. The        the individual fraudulently received VA benefits
indictment was the result of a VA OIG                    for a service-connected disability by declaring




                                                    28
                                                                                Office of Investigations

himself unable to work. At the same time, he               the veteran’s name to yearly verification forms
was fully employed, working under a false name             sent by both VA and the RRB. Based on the
and Social Security number to conceal the fraud.           yearly submissions of these forms, benefits
                                                           continued to be paid, resulting in a loss to the
• An individual was sentenced to 6 months’                 Government of approximately $51,000.
home detention, 5 years’ probation, and ordered
to make $37,200 in restitution to the                      • A veteran was indicted by a Federal grand
Government. The sentencing was the result of a             jury on one count of false statements and 10
VA OIG investigation, which disclosed the                  counts of theft of Government funds. The
individual used a false name and Social Security           indictment was the result of a VA OIG
number to obtain VA pension benefits to which              investigation, which charged that the veteran
she was not entitled.                                      submitted false statements to VA in order to
                                                           obtain increased benefits due to
• An individual was indicted and subsequently              unemployability. As a result, he received over
arrested on charges of health care fraud, false            $72,000 in additional benefits to which he was
use of a Social Security number, and theft of              not entitled.
Government funds. A joint investigation by VA
OIG, FBI, SSA, and VA police disclosed the                 • A widow of a veteran was sentenced to 12
individual, who was not a veteran, assumed the             months’ home confinement, 2 years’ supervised
identify of a veteran, used the identifying data of        release, and ordered to pay restitution of
the veteran, and filed fraudulent documents in             $243,044 after having pleaded guilty to a one-
order to receive VA medical treatment and                  count criminal information for theft of
pension benefits. As a result, the individual              Government funds. A joint VA OIG and USSS
received over $147,000 in benefits to which he             investigation was initiated based upon
was not entitled.                                          information discovered during a VA computer
                                                           records match. The investigation disclosed the
Compensation Benefits Fraud                                individual, the spouse of a veteran collecting
                                                           disability benefits for injuries sustained during
• The spouse of a deceased veteran was                     his time of service in the U.S. Air Force, failed
sentenced to 6 months' home detention, 2 years'            to report her husband’s death in 1983. For more
probation, and ordered to pay restitution of               than 15 years, VA benefits continued to be sent
$20,890 to VA and $26,435 to the Railroad                  in the husband’s name. The widow continued to
Retirement Board (RRB) after she pleaded                   receive her deceased husband’s monthly VA
guilty to charges of theft of Government                   benefit payments, and wrongfully converted
property. The sentencing was the result of a               more than $243,000 in VA benefits to her own
joint VA OIG, USSS, and RRB OIG                            use.
investigation which disclosed that, at the time of
his death in 1989, the veteran was using an alias,         • A veteran was arrested after she was
a fraudulent Social Security number, and false             indicted by a county grand jury on charges of
date of birth. Since his death certificate cited           felony theft. A joint VA OIG and USSS
this fraudulent identifying data, neither VA nor           investigation revealed the veteran altered the
RRB detected that the veteran was deceased and             figures on three VA compensation benefits
both agencies continued to issue benefit                   checks, wrongfully obtaining $3,200 by this
payments in his name. The spouse then                      deception. Further judicial action is pending.
converted these payments to her own use. In
furtherance of this scheme, she had her son sign




                                                      29
Office of Investigations

• A veteran pleaded guilty to conspiracy to               determined the nursing home administrator, who
defraud the United States and conspiracy to steal         had been appointed as fiduciary for three
and convert VA and SSA funds pursuant to a                incompetent veterans residing at the home,
criminal information that was filed. A joint VA           embezzled funds from the veterans’ bank
OIG and SSA investigation revealed that, from             accounts. The individual surrendered her state
1987 to 1996, the veteran and his wife submitted          nursing home administrator’s license upon
false statements to VA and SSA regarding their            entering the guilty plea. The state Attorney
income and marital status in order to receive             General is seeking revocation of her license.
both VA and SSA payments. The veteran’s wife
reported to SSA that she was single during that           • An individual was indicted on nine counts of
time, with no other income other than her SSA             wire fraud after a VA OIG investigation
benefit payments, in order to continue receiving          disclosed he embezzled funds from his ward, an
the benefits which would have terminated with             incompetent veteran. The indictment charged
remarriage. Further, after the couple divorced in         that, over the course of approximately 3 years,
1996, the veteran failed to report the fact of the        the individual obtained more than $100,000
divorce to VA, which would have caused a                  through fraudulent means. The individual
reduction in VA benefits. As a result of these            executed a fiduciary agreement with VA, in
unlawful actions, the Government paid the                 which he agreed to serve as “custodian-in-fact”
couple more than $45,500 in benefit payments to           for the veteran. Pursuant to this agreement, he
which they were not entitled. According to the            was required to use all money paid by VA
terms of the plea agreement, the Government               strictly for the benefit of the veteran. Instead,
agreed not to prosecute the wife for her part in          however, the individual ordered interstate wire
the conspiracy.                                           transfers of funds from the fiduciary account to
                                                          several of his personal accounts.
Fiduciary Fraud
                                                          • An individual serving as fiduciary for his
• An individual was arrested by VA OIG                    cousin, a 100-percent disabled veteran unable to
special agents after being indicted by a Federal          handle his benefits funds, was sentenced to 18
grand jury for embezzling VA pension benefits             months’ incarceration, 3 years’ supervised
intended for her mother. A joint VA OIG and               release, and was ordered to pay restitution of
Office of Personnel Management OIG                        $39,000 after a VA OIG investigation revealed
investigation revealed the individual was                 the individual stole benefit monies intended for
appointed as her mother’s fiduciary and court             the cousin. As fiduciary, the individual was
appointed guardian because her mother was                 required to use the funds for the welfare of the
disabled and unable to manage her VA benefits.            veteran. The funds were deposited into a
Over a period of approximately 14 months, the             restricted-withdrawal agreement account. The
daughter misappropriated over $10,000 in VA               account would not release any funds without
benefits while the mother was confined to a               required written authorization from VA. The
nursing home and supported by Medicaid.                   individual forged VA authorization letters and
                                                          illegally drained the account over a period of
• A nursing home administrator was                        3 months. The unauthorized withdrawals
sentenced to 15 months’ imprisonment, 3 years’            amounted to a loss of more than $39,000 in VA
supervised release, and ordered to pay $45,000            compensation benefits.
in restitution. The sentencing and previous
guilty plea resulted from a joint investigation by        • An individual acting as a VA fiduciary,
VA OIG, FBI, SSA OIG, and local police which              court-appointed guardian, and Social Security




                                                     30
                                                                                 Office of Investigations

representative payee to a number of elderly                count of theft and embezzlement of Government
veterans was sentenced to 37 months’                       funds. A VA OIG investigation determined she
imprisonment, 3 years’ probation, and ordered to           had used the identifying data of a veteran to
pay restitution of $200,000 to her wards. The              submit forged and falsified educational benefits
fiduciary previously pleaded guilty to charges of          documents to VA, ultimately receiving more
misapplication of funds by a VA fiduciary and              than $6,000 in benefits to which she was not
mail fraud after an investigation by the VA OIG            entitled. Investigation disclosed she conspired
disclosed information that she had wrongfully              with another education claims examiner and a
appropriated funds belonging to the estates of             veteran in a scheme that awarded educational
five of her elderly veteran wards, some of whom            benefits to the veteran even though he did not
were judged to be mentally incompetent. She                attend classes. The individual and the veteran
also made a series of false and fraudulent                 split the money fraudulently obtained from VA.
statements on accountings that were submitted              The other education claims examiner previously
to VA, in order to conceal the thefts.                     was indicted and pleaded guilty to the same
                                                           charge. The veteran was charged for his role in
• An individual was sentenced to 60 months’                the case and entered into a pretrial diversion
probation and ordered to pay $9,760 in                     program.
restitution to VA, following a guilty plea to
charges of fraudulent acceptance of payments.
A VA OIG investigation disclosed the
individual, a court-appointed guardian for a
disabled veteran, failed to account for VA funds           Laney College professor convicted in class-for-
paid over a period of 14 months; funds he used                       cash scam with veterans
for his own purposes.
                                                                    [photo not available electronically]
• A former attorney, who was appointed to act
as fiduciary for a World War II disabled veteran,
was sentenced to 18 months’ imprisonment, 3
years’ probation, and ordered to pay restitution
of $113,500 for theft of funds from the veteran’s
guardianship account. A VA OIG investigation               • Two individuals were convicted on one
disclosed that from 1990 to 1994, more than                count of conspiring to defraud VA and nine
$120,000, which included Government benefits,              counts of aiding and abetting the making of false
was deposited into a bank account that the                 claims to VA, following a 5-week jury trial. The
fiduciary had opened for the veteran. In late              trial originally commenced involving 5
1993, however, the fiduciary started                       defendants: 3 former college professors and 2
withdrawing large amounts of money from the                student veterans, who were charged in a 25-
account to pay for personal expenditures.                  count indictment with allegedly initiating a
                                                           scheme in which student veterans received VA
Educational Benefits Fraud                                 educational benefits without attending actual
                                                           college classes. The student veterans allegedly
• A former VARO education claims examiner                  paid instructors up to $50 per class, allowing
was sentenced to 5 years’ supervised probation,            them to attend weekly “symposiums” which
ordered to pay restitution of $6,119, and a fine of        fulfilled their requirements for up to four
$500. The individual previously had pleaded                classes. These students received monthly
guilty to an indictment charging her with one              educational stipends from VA because they were




                                                      31
Office of Investigations

perceived to be full time students. A joint VA            Other Benefits Fraud
OIG and Postal Inspection Service investigation
has identified more than 550 veterans who                 • A civil complaint and consent decree were
participated in the fraud; about 450 of these             filed against an individual who served as
veterans are involved in parallel civil                   National Service Officer for a Jewish War
proceedings. As a result of the civil settlements,        Veterans of America (JWV) office located at a
the Government has recovered approximately                VARO. A VA OIG investigation disclosed the
$2.9 million.                                             individual contacted veterans who were going to
                                                          be awarded retroactive compensation benefit
Medical Benefits Fraud                                    checks for injuries suffered during their time in
                                                          service. He advised them that, if they provided
• An individual was sentenced to one year of              him with $1,000, he would help expedite their
incarceration, 2 years’ supervised release, and           claims. Veterans were deceived into believing
ordered to make restitution of $52,082 to VA              that paying the money would speed the
after being arrested and subsequently indicted by         processing of their claims and that, if they did
a Federal grand jury on charges of theft of               not pay, the processing could be delayed
Government services. A VA OIG investigation               indefinitely. The individual would collect and
disclosed the individual, who is not a veteran,           retain the money from the veterans, at times
falsified a military discharge form in order to           falsely representing to them that the money was
make it appear that he had served in the military,        being given to the JWV. The investigation
thus enabling him to obtain medical care at a             identified 86 veterans who paid money to the
VAMC to which he was not entitled. Over a 5-              individual. As a result of the investigation, he
year period the individual used the altered               signed a civil consent decree in court admitting
documents to receive over $285,000 worth of               to the scheme. He turned over more than
medical care to which he was not entitled.                $93,000 to the Department of Justice, which will
                                                          be used to reimburse his victims for his actions
• A VA OIG investigation found that an                    and pay related costs of the investigation.
individual who has been a fugitive from the law           During the course of the investigation, he
for approximately 12 years, using multiple                claimed he was the only individual involved in
identities after having escaped from two Federal          the scheme and resigned from his position with
prison facilities, has been receiving VA                  the JWV.
compensation benefits while on the run from the
law. According to the investigation, the                  • A U.S. Marine and four family members
individual has been receiving his benefits                were indicted on charges of conspiracy to
payments by electronic transfer to a bank                 defraud the United States. The Marine, his ex-
account. He has also been receiving medical               wife, mother, and two brothers were all charged
treatments at a VAMC on a regular basis. On               with making false claims in excess of $300,000
the date of his last visit, VA OIG special agents         in attempts to obtain benefits from VA, Service
assisted U.S. Marshals in arresting the individual        Members Group Life Insurance, and SSA. The
as he reported for his scheduled appointment.             indictment charged that the five conspired in a
Following his arrest, he refused to admit to using        scheme to fake the Marine’s death in 1994 in a
the identity listed on the arrest warrant. He is          house-trailer fire, subsequently submitting false
being held in custody for an identity hearing and         claims to the Government for benefits payments
then will be re-institutionalized at a Federal            associated with the death. At the time of the
facility.                                                 house-trailer fire, the Marine was facing a court-
                                                          martial in connection with the sexual assault of a




                                                     32
                                                                                Office of Investigations

fellow Marine’s daughter. Authorities claim he            disabled veterans who believed they legitimately
faked his own death to avoid prosecution and              owned them.
killed someone else as part of his scheme. Local
police initially believed the burned body found
at the scene of the fire was that of the Marine.
The Marine was incarcerated awaiting trial on
                                                          National Cemetery
charges of murder, sexual assault, kidnapping,            Administration
and arson. He also faced a court-martial by the
U.S. Marine Corps for a host of charges ranging
from desertion to sexual misconduct. He died in           Employee Integrity
prison awaiting trial. Judicial actions are
pending for the others involved.                          • Two individuals formerly employed by VA,
                                                          one as foreman and the other as caretaker at a
• A veteran was arrested and charged in                   VA National Cemetery, were sentenced on
municipal court with one count of grand theft             charges of witness tampering. The former
and five counts of forgery. A joint VA OIG and            cemetery foreman was sentenced to 6 months’
Federal Protective Service investigation                  home detention, 36 months’ probation, and fined
disclosed the veteran, who was employed                   $2,000. The former caretaker was sentenced to
through a VARO’s work-study program, was                  6 months’ home detention, 36 months’
terminated from his employment at the work-               probation, and fined $1,000. The sentencings
study site due to misconduct. After his                   were the result of a VA OIG investigation,
termination, he forged the initials of his former         which revealed the two individuals attempted to
supervisor on his work-study time record and              prevent witnesses from cooperating in a VA
continued receiving compensation for hours that           OIG investigation into corruption at the VA
were never worked. Over the course of a 4-                cemetery.
month period, the individual collected more than
$1,700 in pay through these fraudulent means.             • A NCA program assistant was arrested on
                                                          charges of theft of Government funds and
• An individual who served as president of a              conspiracy, pleaded guilty to a one-count
vehicle leasing company was sentenced to serve            indictment charging her with theft of
5 to 15 years in the state penitentiary and was           Government property and ultimately resigned.
ordered to pay $549,053 in restitution. He                At the time of her arrest, a search warrant was
previously was indicted on 24 counts of larceny,          executed at her residence. A joint VA OIG and
forgery, and making false statements, and                 FBI investigation determined that a co-
pleaded guilty to 4 counts of grand larceny. A            conspirator in the case, employed as a NCA
VA OIG investigation disclosed the individual,            program support assistant, used Government-
through his company, sold adaptive equipment              issued purchase cards to purchase about $6,000
vehicles to companies and individuals, some of            worth of merchandise for personal use. The
which were purchased with VA funds for use by             merchandise included a television, camera,
handicapped veterans. The company                         computer equipment, electronic equipment, and
represented that it owned the vehicles outright           other items that she either sold for profit, gave to
when, in fact, it acquired the vehicles by lease          the program assistant, or kept for herself. The
and did not hold title to them. The company               program assistant also used the second VA
stopped making the lease payments after it sold           employee’s Government-issued purchase card to
the vehicles and, as a result, collection agencies        pay a $1,400 past-due tuition bill for a relative.
began threatening to confiscate vans from the             The second VA employee pleaded guilty to a




                                                     33
Office of Investigations

one-count criminal information charging her
with the theft of more than $200,000 in
                                                        II. ADMINISTRATIVE
Government property. Also arrested in the case          INVESTIGATIONS
was a sales representative for a company that
contracted with the Government as an office             DIVISION
supply vendor, after a warrant was issued
charging him with bribery of Government                 Mission Statement
officials and conspiracy to defraud the
Government. During his interview, he admitted
                                                            Independently review allegations and
that he had provided cash and/or merchandise to
                                                            conduct administrative investigations
the two VA employees in return for their making
                                                            generally concerning high ranking senior
purchases from his company. He also admitted to
                                                            officials and other high profile matters of
obtaining a television from the former VA
                                                            interest to the Congress and the
program support assistant, who had charged the
                                                            Department.
item against her VA-issued Government purchase
card.
                                                        Resources

OIG Forensic Document                                   The Administrative Investigations Division has
                                                        nine FTE assigned. The following chart shows
Laboratory                                              the percentage of resources utilized in reviewing
                                                        allegations by program area.
The OIG operates a nationwide Forensic
Document Laboratory service for fraud detection
that can be utilized by all elements of VA. The
types of requests routinely submitted to the
laboratory include handwriting analysis,                        
typewriting, inks, paper, photocopied                           
documents, and suspected alterations of official
documents. A breakdown of laboratory                                              
examinations conducted during the period                                           	
follows.

    Laboratory Cases for the Period
                               Cases
         Requester
                             Completed                  Overall Performance
OIG Office of Investigations     11
VA Regional Offices                     4               During the reporting period the Division closed
                                                        15 cases, 5 of which had Congressional interest.
Board of Veterans Appeals               2
VA Office of Regional                                   Output
                                        1
Counsel                                                 • During the reporting period, 10 reports were
VA Regional Office &                                    issued. Five cases resulted in administrative
                                        1
Insurance Center                                        closures.
           TOTAL                       19




                                                   34
                                                                                Office of Investigations

Outcome                                                   against nurses and police officers without
• VA managers took administrative actions                 ensuring the charges were adequately supported
against 8 high-ranking officials and other                by the evidence. Finally, VHA officials agreed
employees and 22 corrective actions to improve            to review the appropriateness of the charges.
operations and activities as the result of these          (Review of the Reliability of an Administrative
reviews, to include issuing bills of collection in        Board of Investigation Concerning a Patient
four instances for collection of monies due VA.           Search and Recovery, VA NJ Health Care
                                                          System, Lyons Campus, 9PR-A01-110, 6/4/99)
The administrative investigation reports
discussed below address serious issues of                 Contracting Issues
misconduct against high-ranking officials and
other high profile matters of interest to the             An administrative investigation substantiated
Congress, Secretary, VA managers, media, and              that contracting officers and purchasing agents
the general public.                                       improperly awarded prohibited personal services
                                                          contracts to two retired VA employees. As
                                                          personal services contractors, these individuals
Veterans Health                                           were considered “employed” by the Government
                                                          and were subject to restrictions regarding rates
Administration                                            of pay and per diem reimbursement. VHA
                                                          officials agreed to issue bills of collection for
                                                          excesses in the rates of pay and per diem
Reliability of an Administrative                          reimbursements and to work with the Office of
Board of Investigation                                    Personnel Management to issue bills of
                                                          collection to recoup the Federal retirement
A joint OIG review assessed the reliability of an         benefits the retirees received while under the
internal Administrative Board of Investigation            personal services contracts. VHA officials also
into the search for a patient and the recovery of         agreed to issue a bill of collection to one of the
his body. Our review concluded the Board did              individuals to recoup the amount of the buyout
not adequately identify individual responsibility         she received. Finally, VHA officials agreed to
for a delay in recognizing the patient was                take administrative action against the official
missing and did not adequately assess the                 responsible for issuing the contracts. VHA
responsibility of individual police officers              could not implement a recommendation to take
during the search for the patient. We also                administrative action against the facility director
identified inadequate search policies and                 because he retired following issuance of our
employee training and found the Board did not             draft report. (Contracting Issues at the VA
accurately assess some actions that occurred              Chicago Health Care System, Chicago, IL, 9PR-
after the patient’s body was found. Finally, we           E03-143, 9/15/99)
found management failed to assess the evidence
adequately before taking administrative action            Procurement and Vehicle Use
against the employees involved. VHA officials             Issues
agreed to correct weaknesses in accounting for
patients’ whereabouts. They also agreed to take           An administrative investigation substantiated
administrative action against managers                    that a senior official willfully misused a
responsible for deficient local patient search            Government vehicle, improperly leased a luxury
policies and police officer training, and for             car for routine use, installed non-Federal plates
proposing and sustaining disciplinary charges




                                                     35
Office of Investigations

on the vehicle, illegally supplemented his                 certification, GSA authorized the VISNs to lease
Government salary, and was absent without                  these vehicles. In at least two instances, the
taking leave. In response to our                           certification contributed to VISN offices wasting
recommendations to take administrative action              Government funds on unnecessary vehicles. As
against the official for misuse of the vehicle, for        a result of this investigation, VHA officials
supplementing his VA salary, and for                       provided VISN offices guidance requiring them
unauthorized absences from duty and repeated               to justify the vehicles they have acquired since
tardiness, VHA officials proposed action and the           1996 and to obtain Central Office approval
official subsequently resigned. VHA officials              before leasing new vehicles or replacing existing
also agreed to take administrative action against          vehicles with larger ones. VHA also reminded
another official for improperly registering the            VISNs that, by regulation, all vehicles must be
luxury vehicle. They also agreed to terminate              limited to the minimum body size and optional
the lease of the vehicle, ensure that all the              equipment required. (Justification for the Lease
facility’s vehicles had U.S. Government tags,              of Non-Standard Passenger Vehicles by VHA,
and correct the senior official’s improper leave           VA Central Office, 9PR-E11-057, 4/15/99)
records and travel claims. (Procurement and
Use of a Government Vehicle and Other Issues,
VISN Boston, MA, 9PR-E11-114, 6/22/99)
                                                           Office of Financial
Time and Attendance Issues                                 Management
An administrative investigation substantiated
that a part-time physician violated time and
                                                           Use of Local Supply Funds
attendance policy, which sometimes resulted in
                                                           An administrative investigation substantiated
the physician being paid for hours not spent at
                                                           that three Office of Acquisition and Materiel
the facility. VHA officials agreed to take
                                                           Management (OA&MM) service chiefs did not
administrative action against the physician, issue
                                                           ensure their travel expenses for a VA Central
a bill of collection to recoup payments made to
                                                           Office activity were charged to the appropriate
him for time not spent at the facility, and convert
                                                           funding source. They inappropriately charged
his appointment to an intermittent one. The
                                                           their expenses to their stations’ supply fund. As
investigation also substantiated that one of the
                                                           a result of this investigation, OA&MM officials
physician’s supervisors was aware of complaints
                                                           reissued guidance, clarifying that only specified
about the physician’s attendance pattern but took
                                                           OA&MM employees may authorize travel for
no corrective action. Administrative action
                                                           centrally directed supply fund programs and
against this official was previously taken. (Time
                                                           activities using the supply fund accounts. In
and Attendance Issues, VAMC Salisbury, NC,
                                                           addition, VHA officials corrected the erroneous
9PR-A99-060, 6/22/99)
                                                           charges. (Use of Local Supply Funds for Travel
                                                           by Various A&MM Service Chiefs, VA Central
Vehicle Lease Issue                                        Office, Washington, DC, 9IQ-Q81-132, 8/11/99)
An administrative investigation substantiated
that a VHA Central Office official certified to
the General Services Administration (GSA) that
mid and large size vehicles were necessary for
the new VISN offices, without first determining
the actual needs. As a result of the unsupported




                                                      36
OFFICE OF AUDIT
Mission Statement                                       Division conducts preaward and postaward
                                                        reviews of certain categories of VA contracts.
    Improve the management of VA programs
    and activities by providing our customers           Overall Performance
    with timely, balanced, credible, and
    independent financial and performance               Output
    audits and evaluations that address the             • Issued 27 performance and financial audits
    economy, effectiveness, efficiency,                 and evaluations, for an output efficiency of 1
    financial, and internal control of VA               report per 3 FTE during this 6-month period.
    operations, and that identify constructive          Additionally, 43 contract review reports (36
    solutions and opportunities for                     preaward contract reviews and 7 postaward
    improvement, and to conduct preaward and            reviews) were issued, for an output efficiency of
    postaward reviews to assist contracting             about 3 reports per FTE for the 6-month period.
    officers in price negotiations and to ensure
    reasonableness of contract prices.                  Outcome
                                                        • Recommendations were made to enhance
Resources                                               operations and correct operating deficiencies
                                                        with monetary benefits totaling $183 million. In
The Office of Audit had an average 158 FTE              addition, postaward contract reviews identified
assigned in VA Central Office and 7 operating           recoveries of $3.1 million; preaward contract
divisions throughout the country during the 6-          reviews, designed to assist VA contracting
month period covered by this report. The                officers in negotiating the best possible prices,
following chart shows the percentage of                 made recommendations that should save VA
resources utilized in auditing each of VA’s             $11.3 million.
major program areas.
                                                        Cost Effectiveness
                                                        • A return of $20 in monetary benefits was
                                                        achieved for every dollar spent in performance
                                               and financial audits and evaluations during this
                             
                                                 6-month period, $3 was recovered for every
                                                      dollar spent on postaward contract reviews, and
                                                        $51 in contract costs were avoided for every
                                                        dollar spent on preaward contract reviews.
                              
            
                               Customer Satisfaction
                                                    • Customer satisfaction with performance and
                       	
                                                        financial audits and evaluations was 4.2 on a
                                                        scale of 5, for reports issued during the period.
                                                        The average customer satisfaction rating for
                                                        contract reviews was 4.7 out of a possible 5.
In addition, the Office of Audit’s Contract             Audits completed during the period identified
Review and Evaluation Division had 24 FTE               opportunities to improve services to veterans,
reimbursed by the VA Office of A&MM. This               and identified savings that could be used to




                                                   37
Office of Audit

provide more and better service. The following         This practice did not meet the intent of Federal
summarizes some of the audits completed during         policy because the employees receiving the
the reporting period organized by VA                   deduction were not required to live in quarters
component: VHA, VBA, Office of Financial               and because there was no mission-related need
Management, and Office of Information                  for the employees to occupy quarters.
Technology. This is followed by an assessment
of the implementation of GPRA in VA.                   Third, VAMCs needed to ensure that tenants
                                                       were properly charged for utilities and other
                                                       VA-provided services. VHA-wide annual
                                                       undercharges for utilities and services totaled
Veterans Health                                        about $582,000.
Administration
                                                       Fourth, VHA needed to end the practice of
Resource Utilization                                   making capital improvements on quarters that
                                                       are not mission-essential. Over a typical 10-year
                                                       period (the investment payback period used by
Issue: Management of employee                          VHA) VAMCs would spend about $38.25
   quarters at VAMCs.                                  million on improvements to unneeded quarters.
Conclusion: The quarters program is
   not needed and should be phased
   out.
Impact: Better use of $39.8 million.

We evaluated how effectively VHA managed
the employee quarters program. In FY 1997, 96
VAMCs operated 1,114 quarters units. We
                                                                      Photo of a building
concluded that VHA should phase out the
quarters program because it is not needed for
VAMCs to accomplish their missions. Until this                  [photo not available electronically]
is done, VHA should address the following four
issues.

First, VHA needed to discontinue
implementation of the Quarters Management
                                                       One of the VA Quarters reviewed in this audit.
Information System (QMIS) as the method for
setting quarters rents. For most VAMCs, QMIS           We recommended that VHA: (i) discontinue the
yielded lower rents than those already                 implementation of QMIS and return to using
established by appraisals. As a result, VHA's          appraisals to set rents, (ii) require VAMCs with
overall quarters rental income would be reduced        outdated or questionable appraisals to obtain
by $962,000 a year and most rents would not be         new appraisals and set rents accordingly, (iii)
consistent with prevailing community rates as          end the tax deduction practice, (iv) require
required by Federal policy.                            VAMCs to install utility meters and to charge
                                                       tenants for metered usage, (v) issue guidance on
Second, VHA needed to end the practice of              charging for unmetered utilities and for other
deducting rent and utilities payments from the         VA-provided services, (vi) issue guidance
taxable compensation of certain employees.             requiring that quarters capital improvements be




                                                  38
                                                                                       Office of Audit

justified based on capital programming                  and nuclear medicine management information
principles, and (vii) impose a moratorium on            was reported inconsistently, preventing
such improvements until the new guidance is             comparison and evaluation of medical center
issued. The Under Secretary for Health                  productivity. Staffing disparities existed among
generally concurred with the recommendations            medical centers with comparable workloads and
and provided acceptable implementation plans            most radiology and nuclear medicine services
or proposed acceptable alternative corrective           did not apply staffing guidelines, or there was
actions. (Evaluation of VHA Management of               disparity in the guidelines that were used. We
Employee Quarters at VAMCs, 9R8-A03-113,                also found that the procurement of picture
6/18/99)                                                archiving and communication systems (PACS)
                                                        equipment was not coordinated well by medical
                                                        centers and VISNs, which could lead to
“The direct involvement of your office                  inappropriate expenditures on incompatible
has infused a number of top                             PACS equipment totaling $114 million over the
management initiatives designed to                      next 5 years. Finally, the Radiology Service
improve control and accountability of the               program director position had been vacant since
resources involved in the operation of                  September 1996 and should be filled.
the rental quarters. This office looks
forward to its continued partnership with               We recommended that: (i) management
your staff in the implementation of the                 information reports and workload counting be
recommendations.”                                       made consistent, (ii) guidance be provided on
                                                        the use of staffing guidelines, (iii) guidance be
                                                        provided on the acquisition of picture archiving
      Chief Facilities Management Officer               and communication systems equipment to assure
                                                        need and compatibility, and (iv) a director of
                                                        Radiology Service be appointed. The Under
Issue: VHA radiology and nuclear                        Secretary for Health concurred with our
   medicine activities.                                 recommendations and provided acceptable
Conclusion: Standardized workload                       implementation plans. (Evaluation of VHA
   reporting and staffing guidelines,                   Radiology and Nuclear Medicine Activities,
   coordination in acquiring new                        9R4-A02-133, 7/23/99)
   technology, and greater oversight
   and direction was needed.                            “We very much appreciate the
Impact: Better use of $114 million.                     thoroughness and cooperative efforts of
                                                        your evaluators, and believe that their
The purpose of this evaluation was to assess the        observations accurately focus on
effectiveness and efficiency of program                 opportunities for program
operations. Based on results of a survey of 166         improvement.”
VA medical facilities, radiology and nuclear
medicine services were appropriately accredited                          Under Secretary for Health
and all VAMCs reported that mammography
services were offered to women veterans, either
by in-house staff or by contract.

However, management attention was needed to
improve specific operational areas. Radiology




                                                   39
Office of Audit

Issue: VHA’s Emergency Medical                           emergency and disaster-related mission. The
   Strategic Healthcare Group (EMSHG).                   Under Secretary for Health concurred with all
Conclusion: Improvements needed in                       recommendations, with the exception of a
   determining VA’s role in emergency                    deferred concurrence to one recommendation.
   management, fiscal accountability,                    (Audit of the EMSHG, 9R4-A19-124, 6/28/99)
   interagency financial support, and
   training and development.
Impact: Better use of $4.6 million.                      “Your report appears to provide a
                                                         thorough and candid evaluation of this
The audit was conducted at the request of the            important office, and I believe it will be
former VA Chief of Staff to determine if: (i)            very useful to us as we restructure this
VA’s emergency and disaster-related missions             Strategic Healthcare Group.”
were properly established in legislation,
interagency agreements, or other enabling action                          Under Secretary for Health
and were supported by published policies and
procedures; (ii) these missions were properly a
role for EMSHG; (iii) EMSHG’s organization               Issue: Management of VAMC West Palm
and supervisory structure and its organizational            Beach.
position within VHA served to achieve                    Conclusion: Action is needed to resolve
appropriate mission objectives; (iv) fiscal                 conflicts between the facility’s top
operations properly accounted for expenditures;             management team and a group of
and (v) management controls over headquarters               senior clinical staff.
and field staff were adequate. Audit results             Impact: Improved management and
found programmatic inefficiency,                            operations.
ineffectiveness, and management turmoil.
                                                         In response to a request by the Ranking
We recommended the Under Secretary for                   Member, House Committee on Veterans’
Health: (i) determine what VA’s role should be           Affairs, we reviewed complaints and allegations
with respect to various Federal Government               of mismanagement made by VAMC clinical
disaster programs, (ii) adjust EMSHG                     staff. We found that polarization existed
headquarters staffing levels, (iii) eliminate            between a group of senior clinical staff and the
certain field positions and transfer essential           facility’s top management team. We also found
duties to the VISNs, (iv) eliminate two specific         that several specific resource-related issues such
EMSHG headquarters positions, (v) establish              as lack of control over spending for consultants
accounting mechanisms to track and account for           and ineffective use of staffing resources were
expenditures and to identify and permit                  identified and addressed by facility and VISN
reallocation of unneeded funds, (vi) determine           management.
whether VA should continue to provide financial
support to the National Disaster Medical System          While budget and resource issues have
annual conference, and (vii) re-evaluate training        contributed to the problems experienced at the
and development activity.                                facility, the polarization that existed between a
                                                         core group of senior clinical staff and the
We also identified two additional issues that            facility’s top management team was
needed VHA top management attention: (i) the             fundamentally the result of more complex
functioning of EMSHG top management, and                 factors involving expectations, personalities, and
(ii) VA’s ability to take on a proposed new              management style. We found there was a need




                                                    40
                                                                                          Office of Audit

to ensure the facility’s organizational goals were        We concluded the level of funds received by the
clear, communications were improved, and that             VAM&ROC was commensurate with the level
management was responsive to the concerns of              of funds received by other medical centers
the clinical staff.                                       within VISN 1. We also found Togus generally
                                                          ranked below other VISN 1 facilities in cost
The Director, Florida/Puerto Rico VISN,                   efficiency; also the utilization and productivity
concurred with our recommendations and                    of some of its clinics could be enhanced. We
provided acceptable implementation plans.                 concluded management should: (i) better
(Review of Hotline Complaints Concerning                  control staffing costs - the indirect to direct
Issues Raised by Clinical Staff Questioning the           staffing ratio ranked the highest in VISN 1 and
Effectiveness of the Leadership and                       among the highest in the nation; (ii) more
Management of the West Palm Beach VAMC,                   closely monitor clinic utilization - only 5 of 11
9D2-A19-121, 8/12/99)                                     clinics had most of their available appointments
                                                          scheduled; and, (iii) implement pharmacy cost
Issue: VAM&ROC Togus.                                     controls - the per patient drug cost for FY 1998
Conclusion: Management action was                         was VISN 1’s highest and about 15 percent
   taken to address concerns about the                    higher than the VISN 1 average.
   delivery of medical care and benefits
   within the state of Maine. Further                     Management concurred with the findings and
   action is necessary to increase cost-                  recommendations, and provided an acceptable
   efficiency and effectiveness of                        implementation plan. (Audit of VAM&ROC
   operations.                                            Togus, ME, 9R1-F05-088, 5/3/99)
Impact: Improved quality of care and
   better use of funds.
                                                          Facility Management
We conducted the audit in response to a request
from the Maine Congressional delegation to                Issue: Validation of construction
perform an independent audit of funding,                     projects.
operations, and management issues. We found               Conclusion: Thorough reviews will
VAM&ROC management had addressed many                        enable better use of funds.
of the delegation’s concerns regarding the level          Impact: Better use of $20.4 million.
and quality of service provided to veterans and
beneficiaries living in Maine. For example: (i)           We conducted the audit to determine whether
additional community based outpatient clinics             construction funds were managed effectively
were opened in the communities of Calais and              and were expended for projects that helped meet
Rumford, Maine; (ii) most patients previously             VA goals. Our audit included evaluations of:
referred to facilities in Boston for magnetic             (i) the effectiveness of VAMC and VISN
resonance imaging and radiation therapy were              controls to ensure projects were justified and
now treated in Maine; (iii) five additional rating        construction funds were used to meet agency
specialists were hired to expedite compensation           goals, (ii) the methodology used to allocate
and pension claims processing; and (iv)                   funds to VISNs, and (iii) the timing of
management had improved communication with                obligations.
stakeholders, including employees, veterans
service organizations, and union representatives.         We concluded that construction funds were
                                                          managed effectively. However, some projects in
                                                          the FY 1998 Operating Plan were not justified or




                                                     41
Office of Audit

should be reduced in scope. This occurred                  to review WCP cases for identifying potential
because VAMC management did not always                     fraud. The automated analysis of claims
ensure that workload information and statistical           provides a basis to prioritize cases for review
data used to justify construction projects                 and identify cases most likely to be fraudulent
requests were current and accurate. Also,                  based on indicators developed during recent
VAMC and VISN officials did not thoroughly                 OIG initiatives in this program area.
review the scope and justification of projects.
                                                           Along with the protocol package, we also
We recommended the Under Secretary for                     developed a case management and fraud
Health ensure project justifications contained             detection handbook. The handbook contains
complete and accurate information. We also                 information, instructions, and worksheets to aid
concluded a new methodology for allocating                 individual VA facility WCP coordinators and
construction funds based on patient care                   specialists with case management and fraud
workload should result in a more equitable                 detection efforts. The development of the
distribution. The Under Secretary for Health               protocol package and handbook was
agreed with our recommendations and provided               accomplished through a positive teaming effort
acceptable implementation plans. (Audit of VA’s            with the Department. The OIG is committed to
Minor Construction and Nonrecurring                        reducing fraud, waste, and abuse in VA’s WCP
Maintenance Programs, 9R5-D02-118, 6/14/99)                and we will continue to work with the
                                                           Department to enhance its review and oversight
Fraud Detection                                            of claims. (Protocol Package for VISN WCP
                                                           Case Management and Fraud Detection, 9D2-
Issue: Workers’ Compensation Program                       G01-002, 4/14/99, and Handbook for Facility
   (WCP) protocol package.                                 WCP Case Management and Fraud Detection,
Conclusion: Improved management.                           9D2-G01-064, 4/14/99)
Impact: Reduction in program costs.

We developed a protocol package to provide                 Veterans Benefits
VISNs with an effective methodology to
enhance review of claims and reduce annual                 Administration
costs. Our audit work shows that VA continues
to be at risk for unnecessary WCP costs. Use of            Fraud Detection
this protocol package should help VHA better
identify potential fraud, waste, and abuse and
                                                           Issue: Implications of employee thefts
reduce future costs. VHA’s costs totaled about
                                                              from the Compensation and Pension
$133 million in charge back year 1998 and
                                                              (C&P) system, and internal control
represent about 95 percent of VA’s cost. During
                                                              vulnerabilities.
the last year, the OIG has been engaged in a
                                                           Conclusion: Significant vulnerabilities
review of VA’s WCP. During this effort we
                                                              for fraud exist in the C&P program.
have applied a three-step approach: a
                                                           Impact: Improved internal control over
comprehensive national audit, a joint
                                                              C&P payments.
investigative/audit fraud detection effort, and the
development of a protocol package.
                                                           At the request of the Under Secretary for
                                                           Benefits, we conducted an evaluation of internal
The protocol package contains an automated
                                                           controls in the C&P benefit program and
analysis of claims as well as instructions on how




                                                      42
                                                                                          Office of Audit

provided the Under Secretary our observations              As part of an ongoing national audit, we audited
of vulnerabilities in the general internal control         two mortgage lenders to assess compliance with
environment, and C&P claims processing in                  VA underwriting standards. The purpose of the
particular. The observations were derived from             reviews were to determine if the lenders had
ongoing criminal investigations and a review of            complied with VA requirements in underwriting
the control environment conducted by the Office            loans that subsequently went into default.
of Audit. A nationwide evaluation of internal              We found the loans originated by both lenders
control has begun that will follow-up on the               generally complied with VA underwriting
reported vulnerabilities, as well as any additional        guidelines. Three loans (two at one lender and
areas we decide should be included.                        one at the other lender) were not underwritten
                                                           appropriately because the applicants would not
Delivery of Benefits and Services                          have met minimum VA criteria if the guidelines
                                                           had been accurately applied. However, the
Issue: VBA’s customer service.                             deficiencies did not warrant indemnification
Conclusion: VBA has made good                              because there was no evidence of fraud or
   progress in implementing customer                       misrepresentation. The Director, VARO Atlanta,
   service standards.                                      who has jurisdiction over VA home loan
Impact: Better service to VBA’s clients.                   processing in North Carolina and Alabama,
                                                           concurred with our recommendation to discuss
The purpose of this evaluation was to assess               these discrepancies with the lenders’ officials
progress in implementing customer service                  and provided acceptable implementation plans.
standards under the Government Performance                 (Underwriting Practices, Carolina Mortgage
and Results Act, to include measuring customer             Company of Fayetteville, NC, 9R5-B10-099,
satisfaction, handling complaints, and providing           5/6/99, and Underwriting Practices, Southtrust
improved access to VBA’s toll-free customer                Mortgage Corporation, Birmingham, AL,
service number. We found VBA management                    9R5-B10-123, 6/23/99)
established customer service standards as
required, but service could be further improved
by: (i) fully implementing planned customer                Office of Financial
satisfaction surveys, (ii) establishing a customer
complaint process, and (iii) providing improved            Management
access to VBA’s toll-free customer service
number. The Under Secretary for Benefits                   VA’s Financial Statements
concurred with our assessment. (Evaluation of
VBA’s Implementation of Customer Service
                                                           Issue: Public Law 104-208 Financial
Standards, 9R1-B18-127, 6/30/99)
                                                              Management Improvement Act of
                                                              1996.
Loan Guaranty                                              Conclusion: VA did not comply with
                                                              certain Act requirements.
Issue: Mortgage lenders compliance                         Impact: Improved stewardship of VA
   with VA underwriting standards.                            assets and resources.
Conclusion: Lenders followed VA
   guidelines in most cases.                               Our report on VA’s Consolidated Financial
Impact: Reduce VA home loan defaults.                      Statements (CFS) for FYs 1998 and 1997
                                                           describes noncompliance with Federal Financial




                                                      43
Office of Audit

Management Improvement Act requirements                  G10-098, 5/6/99; Management Letter: ADP
concerning Housing Credit Assistance program             Security at VHA, 9AF-G10-097, 5/13/99;
financial management information systems,                Management Letter: FY 1998 Financial
information system security, cost accounting             Statements, VA Life Insurance Programs and
standards, and provisions of the Credit Reform           Selected Loan Guaranty Program Financial
Act as it relates to guarantees on Housing Credit        Activities 9R1-G10-100, 5/21/99; Management
Assistance loans sold. Remedial actions taken            Letter: ADP Security VBA, 9AF-G10-106,
by the Department to bring these areas into              6/1/99; and Management Letter: FY 1998
compliance are also described. Except for these          Consolidated Financial Statement Audit –
instances of noncompliance, we concluded that            Benefit Programs, 9R4-G10-116, 6/14/99)
for the items tested, VA complied with laws and
regulations materially affecting the financial
statements. (Audit of VA’s Consolidated                  “We appreciate your office’s work in
Financial Statements for FY 1998, 9AF-G10-               accomplishing the FY 1998 audit. The
061, 3/10/99)                                            audit, a real joint management and OIG
                                                         effort, made and will continue to make a
Issue: Financial management.                             difference to the Department.”
Conclusion: Six management letters
   were issued to assist the Department                    Deputy Assistant Secretary for Finance
   in improving financial management.
Impact: Improved financial reporting
   and control.                                          Issue: Financial management.
                                                         Conclusion: VA’s Enterprise Centers’
As part of the CFS audit, we issued six                     financial statements present their
management letters addressing financial                     financial position fairly.
reporting and control issues. The management             Impact: Financial reporting and control.
letters provided Department managers additional
observations and advice that will enable the             VA’s Franchise Fund supports VA’s mission by
Department to improve accounting operations              supplying common administrative services at
and controls. These issues included: (i)                 competitive prices to Federal entities. Congress
expenditure transactions, (ii) automated data            created the Fund in 1996 as one of six Franchise
processing (ADP) security, and (iii) VBA                 Fund pilots operating within the executive
benefit programs.                                        branch of Government. In FY 1998, the Fund
                                                         included six Enterprise Centers (lines of
None of the conditions noted had a material              business): the Austin Automation Center,
effect on the FY 1998 CFS, but correction of the         Financial Services Center, Law Enforcement
conditions was considered necessary for                  Training Center, Computer Training Center,
effective operations. Where needed, appropriate          Security and Investigations, and the VA Records
adjustments were made to the financial                   Center and Vault.
statements. (Management Letter: Expenditure
Transactions, 9AF-G10-086, 4/15/99;                      The audit of VA’s Enterprise Centers financial
Management Letter: ADP Security at                       statements by an independent public accounting
Philadelphia Regional Office and Insurance               firm concluded the statements present fairly, in
Center and Benefit Delivery Center, 9AF-G10-             all material respects, the financial position of the
087, 4/22/99; Management Letter: ADP                     Centers. No material weaknesses were found in
Security at Hines Benefit Delivery Center, 9AF-          the internal controls tested. However,




                                                    44
                                                                                        Office of Audit

improvement was needed in certain internal              showed that the contractor typically sold most
controls related to year-end accrual procedures.        accessory items at promotional pricing.
This weakness, although not considered to be
material, represented deficiencies which could          • A medical supplies company remitted
adversely affect the Centers’ ability to meet           $108,952 to VA for an aggregate end-of-contract
internal control objectives. No reportable              rebate for FSS sales.
noncompliance with laws and regulations were
found in areas tested. (VA’s Enterprise Centers         • A medical equipment cost-per-test
Financial Statement Audit for the FY Ended              contractor remitted $8,457 to VA for contract
September 30, 1998, 9AN-G10-117, 6/22/99)               overcharges related to inadvertent overbillings to
                                                        VAMCs.
Postaward Contract Reviews
                                                        Issue: Contractor overcharges for
Issue: Contractor overcharges for x-ray                    pharmaceuticals.
   film, medical equipment, and                         Conclusion: Postaward reviews and
   supplies.                                               surveys disclosed overcharges.
Conclusion: Postaward reviews                           Impact: Recovery of $306,000.
   disclosed overcharges.
Impact: Recovery of $2.8 million.                       • We completed 26 Public Law 102-585
                                                        compliance reviews and surveys. For 11 of the
• A medical and dental x-ray film and                   26 reviews and surveys, errors in the calculation
supplies manufacturer remitted $1.4 million to          of Federal Ceiling Prices resulted in contract
VA, in addition to the $516,000 previously paid         overcharges. The companies agreed to pay
to VA. Contract overcharges resulted from the           $306,291 to VA. Of the 11 reviews and surveys
manufacturer not disclosing accurate, complete,         with recoveries, 6 were related to voluntary
and current pricing and discount information to         disclosures and refund offers. Where
the contracting officer during negotiations and         appropriate, we made recommendations to the
the failure to comply with provisions of the            companies reviewed suggesting ways they could
Price Reduction clause. The contractor’s failure        improve their policies and procedures so that the
to disclose to the contracting officer that it          Government and the company could be assured
offered more favorable pricing to other                 that their systems were producing accurate
commercial customers denied the Government              Federal Ceiling Prices.
the opportunity to negotiate better discounts.
                                                        Preaward Contract Reviews
• VA recovered $1,252,869 from a medical
equipment manufacturer for contract                     Issue: Federal Supply Schedule vendors
overcharges that resulted because the                      did not offer best prices.
manufacturer did not disclose accurate,                 Conclusion: Contractors can offer better
complete, and current pricing and discount                 prices to VA.
information to the contracting officer during           Impact: Potential better use of $11.3
negotiations. The contractor’s failure to                  million.
accurately disclose the nature and extent of
promotional pricing practices on accessories            • A preaward review of a medical supplies
denied the Government the opportunity to                company’s offer resulted in potential contract
negotiate promotional prices. Our review




                                                   45
Office of Audit

savings of $9,124,049. The estimated 5-year             The audit identified a number of issues to
contract value was $85 million.                         address that could help make the Department’s
                                                        overall Y2K efforts more successful, reduce
• A preaward review of a medical equipment              operating costs, and ensure continuity of
company’s offer resulted in potential savings of        operations beyond the millennium. Key areas
$1,127,908. The estimated 5-year contract value         that needed to be addressed included: (i)
was $8.7 million.                                       infrastructure support; (ii) contingency planning;
                                                        (iii) assuring computers, biomedical devices and
• A preaward review of a medical supplies               equipment provided to veterans for home use
company’s offer resulted in potential savings of        were Y2K compliant; and (iv) approval of
$675,376. The estimated 5-year contract value           pending requests for equipment and software
was $45 million.                                        replacements that would reduce operating costs
                                                        by $1.5 million and enhance Y2K
• Three preaward reviews of medical                     implementation efforts. Because of the high risk
equipment and supplies companies’ offers                associated with failure to comply, the
resulted in potential savings of $364,461.              Department should continue to monitor Y2K
                                                        risk as a potential material weakness area.

                                                        The Acting Assistant Secretary for Information
Office of Information and                               and Technology concurred with the report
Technology                                              findings, recommendations, and monetary
                                                        impact figures and provided appropriate
                                                        implementation actions. (Audit of VA’s Year
Issue: VA’s Year 2000 (Y2K)
                                                        2000 Implementation Effort, 9D2-G07-049,
   implementation efforts.
                                                        6/10/99)
Conclusion: Efforts were well organized
   and focused on mission critical
   systems. However, additional effort                  “We appreciate the effort you and your
   is needed in other selected areas.                   staff have made in conducting site visits
Impact: Continuity of operations in the                 to VA’s medical centers and regional
   Year 2000.                                           offices.”

The purpose of the audit was to assess VA’s             “Your continued assistance in
efforts to address Y2K computing issues and             conducting site visits will assist my
become Y2K compliant. The audit focused on              office in overseeing VA’s Year 2000
identifying areas where VA’s Y2K                        efforts.”
implementation efforts could be strengthened.
The audit found VA’s Y2K efforts were well                           Acting Assistant Secretary for
organized and focused on those mission critical                       Information and Technology
systems that must be compliant to ensure
veterans receive uninterrupted services. VA
management reports show it completed
implementation of all mission critical systems
by the March 31, 1999 milestone date
established for all Federal agencies.




                                                   46
                                                                                         Office of Audit

                                                         and as a result, we could not verify the accuracy
Implementation of GPRA                                   of the population projections or the NCA
in VA                                                    estimate which was based on the projections.
                                                         We recommended that the Office of Program
Congress attaches great importance to effective          and Data Analyses retain sufficient
implementation of the Government Performance             documentation to re-create future veteran
and Results Act (GPRA). The OIG has a                    population projections.
significant role to play in informing both VA
and Congress on issues concerning efforts to             The Assistant Secretary for Planning and
implement GPRA.                                          Analysis agreed with our recommendations and
                                                         provided acceptable implementation plans. The
As background for our efforts in this area, it is        NCA Office of Operations and Support provided
relevant that VA was an Office of Management             comments that indicated corrective action would
and Budget designated pilot agency for                   be taken for the concerns we noted in the
performance measurement. As such, VA began               management advisory section of the report. We
establishing performance measures for its                consider the recommendations resolved.
programs and operations in FY 1992.
                                                         Unique Patients Using VA Medical Centers
In FY 1998, at the request of the Assistant
Secretary of Planning and Analysis, we initiated         VHA's GPRA performance measure - Number
a multi-stage audit to examine the integrity of          of Unique Patients - needs more accurate data.
the data used for GPRA reports. This project             We found that the 3 million unique patients
involves a series of audits to evaluate VA’s most        reported for FY 1997 overstated actual usage by
critical GPRA performance measures for                   5.7 percent. The overstatement occurred
validity, reliability, and integrity of the data.        because: (i) inaccurate Social Security numbers
                                                         were input into the national patient care data
During this 6-month reporting period, we                 base, and (ii) patients with undocumented
assessed the accuracy of data used to measure            outpatient appointments and appointment
the percent of veterans with a VA burial option          cancellations and no-shows were sometimes
and the accuracy of data used to count the               counted as being treated.
number of unique patients.
                                                         To correct the overstatement, we recommended
National Cemetery Administration Burial                  the Under Secretary for Health establish an edit
Option                                                   check at the Austin Automation Center to
                                                         identify and correct input errors, establish an
One of VA's goals is to ensure that all eligible         edit check to identify pseudo Social Security
veterans have reasonable access to a VA burial           numbers, and make corrections if necessary.
option. Audit results showed that NCA                    The Acting Under Secretary for Health agreed
personnel generally made sound decisions and             with the recommendations and provided
accurate calculations when preparing their               acceptable implementation plans.
estimate. However, the Office of Program and
Data Analyses personnel could not re-create the          Current Status
veteran population projections which were used
to calculate NCA's estimate because certain              As part of our ongoing assessment to validate
essential data were no longer available. The             the accuracy and reliability of VA’s
lack of this data impaired the scope of our audit        performance measures in accordance with




                                                    47
Office of Audit

GPRA, the OIG is auditing four VHA
performance measures and one VBA
performance measure. These measures are:

VHA Performance Measures -

•   Prevention index.
•   Bed days of care per 1,000 unique patients.
•   Chronic disease index.
•   Addiction severity index.

VBA Performance Measure -

•   Foreclosure avoidance through servicing.

We will issue reports on each performance
measure as audits are completed. GPRA related
audit reports to date include:

Review of Implementation of VHA’s Strategic
Plan and Performance Measurements,
5R1-A19-026, 2/6/95.

Review of Implementation of NCS’s Strategic
Plan and Performance Measurements, 5R1-B18-
082, 7/6/95.

Review of Implementation of VBA’s Strategic
Plan and Performance Measurements,
5R1-B18-100, 8/25/95.

Accuracy of Data Used to Measure Claims
Processing Timeliness, 9R5-B01-005, 10/15/98.

Audit of Data Integrity for Veterans Claims
Processing Performance Measures Used for
Reports Required by the GPRA, 8R5-B01-147,
9/22/98.

Accuracy of Data Used to Measure Percent of
Veterans with a Burial Option, 9R5-B04-103,
5/12/99.

Accuracy of Data Used to Count the Number of
Unique Patients, 9R5-A19-161, 9/20/99.




                                                  48
OFFICE OF HEALTHCARE INSPECTIONS
Mission Statement                                       Deans Committee structure, functions, and
                                                        compliance. With the development of a more
    Promote the principles of continuous                deliberative and stringent process for selecting
    quality improvement to provide effective            and assigning Hotline allegations, we have
    inspections, oversight, and consultation to         improved our ability to complete and report on
    enhance and strengthen the quality of VA’s          these reviews more promptly. The quality
    health care programs for the well being of          program assistance (QPA) review is now
    veteran patients.                                   included as an integral part of the Combined
                                                        Assessment Program, but we will continue to
                                                        use it as a tool for inspecting sensitive Hotline
Resources                                               allegations at VAMCs.
The Office of Healthcare Inspections (OHI) has
31 FTE allocated to staff headquarters and field
operations. Three regional offices have been            Veterans Health
established in Atlanta, Chicago, and Los
Angeles. OHI staff are deployed 100 percent in          Administration
healthcare inspections and evaluation issues.
                                                        Nationwide Healthcare Program
Overall Performance                                     Reviews

Output                                                  Issue: VHA’s responsibility to oversee
• We published 19 final reports during the                 and evaluate its policy on missing
reporting period.                                          patients.
                                                        Conclusion: Improvement is needed in
Outcome                                                    the monitoring of high-risk patients
• We made 44 recommendations, focused on                   and in patient search procedures.
improving both clinical care delivery and               Impact: Ability to ensure patient safety
management efficiency.                                     and improve health care.

Customer Satisfaction                                   In keeping with our oversight responsibility of
• Program managers’ satisfaction and                    contributing to the improvement of health care
acceptance level of our work was an average of          delivery, we conducted an exploratory and
4.6 on a 5.0 scale for the year.                        preliminary assessment of VAMCs’ missing
                                                        patient policies and procedures. Patients leaving
OHI inspectors have continued to emphasize the          VAMCs without approval or knowledge of
need for VHA to strengthen its quality                  clinicians has been an issue that has instigated
management infrastructure by developing and             various reviews and constituent concerns.
pursuing a variety of quality management                Moreover, incidents of patients missing or
related projects and reports. These projects            eloping from VAMCs can result in such
included reviews of VHA’s missing patient               consequences as serious injury or death, which
policies and procedures, an analysis of the             undermine the public’s perception of the quality
Defense and Veterans Head Injury Program                of care provided to veteran patients.
operations, and a nationwide review of VHA’s




                                                   49
Office of Healthcare Inspections

We recognize that VAMCs face a difficult                  manage traumatic brain injured patients.
challenge in securing high-risk patients in view          Coordination of this jointly operated program
of the delicate balance of maximizing patients’           appears to be effective. The program is
rights in the least restrictive environment, while        mutually beneficial to both Departments and to
at the same time ensuring patient safety.                 their beneficiaries.
However, several patient incidents have raised
concern regarding the process of granting                 Our analysis showed VA is an active component
privileges to patients who may be at risk for             of the joint program operations and that VHA
eloping and the adequacy of VAMC search                   clinicians are treating a broad range of head-
procedures when patients disappear from the               injured patients, including evaluating and
treatment area.                                           treating acute head injuries. We found that
                                                          VHA’s four lead traumatic brain injury
Our analysis showed that: (i) improvement is              treatment centers (Richmond, Tampa,
needed in monitoring high-risk patients, and in           Minneapolis, and Palo Alto), with some
patient search procedures, to further reduce              exceptions, offer comprehensive head-injury
adverse patient incidents that result from                care. However, the secondary centers vary
unauthorized absences; and (ii) clinical                  tremendously in the scope of services they offer.
managers, who have responsibility for ensuring
patient safety, need to assess and record                 We concluded that clinicians need to strengthen
appropriately the factors that can help define a          coma care, refine the treatment of violent
patient’s elopement risk. These factors, when             patients, and strengthen support of ventilator-
communicated in the treatment planning phase,             dependent patients. VHA managers need to
are essential clinical information, which can be          increase system-wide awareness of the program,
used for granting privileges to patients, and help        particularly as VHA continues its transition to a
reduce the risk of patient unauthorized absences.         primary health care model. The Under Secretary
                                                          for Health agreed with our conclusions and
The Under Secretary for Health agreed with our            recommendations that are aimed at
conclusions and suggestion. (Preliminary                  strengthening this valuable program. (Oversight
Assessment of VHA’s Missing Patient Search                Review of Selected Aspects of VHA’s Traumatic
Procedures, 9HI-A28-084, 4/8/99)                          Brain Injury Program, 9HI-A28-119, 4/30/99)

Issue: Administrative and clinical                        Issue: Is the Deans Committee
   operations of the traumatic brain                         functioning effectively?
   injury program.                                        Conclusion: Deans Committees do not
Conclusion: Program is innovative,                           appear to fulfill their original
   widely needed, and generally                              purposes and functions.
   effective.                                             Impact: Weakened coordination of
Impact: Better management and care of                        university and VA contributions to
   brain injured patients.                                   the delivery of care.

Head injury is a major medical and social                 We conducted this nationwide assessment of the
problem for both active duty personnel, who are           VHA’s Deans Committee structure, functions,
served by the DoD health care system, and for             and compliance with established VHA policy
U.S. veterans, who are served by VA. In 1992,             guidance. We sent structured questionnaires to
VA and DoD joined to establish the Defense and            136 VA medical centers that reportedly have
Veterans Head Injury program in order to better           academic affiliations with medical schools. We




                                                     50
                                                                    Office of Healthcare Inspections

requested information about individual medical            QPA Reviews
center compliance with VHA Deans Committee
guidance and also requested a representative              Issue: VAMCs’ ability to provide optimal
sample of each medical center’s Deans                        access to high quality, low cost, and
Committee minutes. We performed a                            timely health care.
comparative analysis between individual                   Conclusion: Managers are working
medical center manager’s perceptions of their                collaboratively to reorganize the
Deans Committee’s compliance with VHA’s                      health care process.
requirements, and the results of our review of            Impact: Developing initiatives to provide
each of the sets of minutes that medical center              good, accessible care at an
managers sent to us.                                         affordable cost.

We found that, over time, the Deans Committee             During this reporting period, OHI completed one
structure and function have changed as result of          QPA review. OHI inspectors concluded that
affiliation governance. This has occurred based           medical center executive managers were
on the emergence of VISN-stimulated changes               working collaboratively to initiate programmatic
in VHA’s academic affiliation program and the             changes that were designed to improve veterans’
governance of the affiliation relationship, as            access to high quality health care. Managers
exemplified by the Deans Committee. VHA                   were also developing and implementing
developed a revised approach to the governance            strategies that reduced operating costs and
of its academic affiliations with the                     allowed them to reprogram funds so that more
establishment of Academic Partnership                     money would be available for direct patient care.
Councils. VHA is shifting toward a VISN-wide
role for the administration of these academic             Clinicians were generally very supportive of the
affiliations and the implementation of Affiliation        organizational and operational changes that had
Partnership Councils.                                     occurred and believed that these changes had
                                                          improved the quality and accessibility of patient
As VHA continues its evolution from Deans                 care. Patients had generally positive
Committees to Affiliation Partnership Councils,           impressions about recent improvements in care,
VHA top managers need to more stringently                 accessibility, and employee attitudes that
oversee Council functions to ensure that they             occurred in association with the changes.
adhere to law and VHA guidance. VHA also                  Executive managers established intensive
needs to revise its policy to standardize guidance        communication initiatives to keep employees
for Council operations. The Under Secretary for           and other stakeholders fully informed about
Health concurred with our recommendations and             ongoing and contemplated organizational and
provided responsive implementation plans.                 operational changes. (Quality Program
(Review of the Policy and Function of VHA’s               Assistance Review, VAMC Baltimore, MD, 9HI-
Deans Committees for Academic Year 1996,                  F03-107, 5/13/99)
9HI-A28-145, 8/11/99)




                                                     51
Office of Healthcare Inspections

Healthcare Hotline Inspections                             appropriate treatment while he was hospitalized
                                                           at the VAMC.
Issue: Alleged substandard care of three
   nursing home patients at VAMC                           We concluded that VAMC physicians provided
   Tuskegee.                                               the patient with appropriate care. Clinicians did
Conclusion: A piece of Foley catheter                      not perform an aortic valve replacement on the
   remained in a patient’s urethra for 11                  patient, but this was a justifiable and appropriate
   days after the catheter was removed.                    clinical decision. We did not confirm that
Impact: Vague procedure guidance can                       medical center officials refused to comply with
   lead to untoward patient incidents.                     the family’s request to transfer the patient to
                                                           another hospital. The patient’s multiple medical
We inspected allegations of substandard care               problems precluded any open-heart surgery.
made by a complainant at the Tuskegee Nursing              Clinicians used all possible resources to provide
Home Care Unit (NHCU). We substantiated                    the patient with the care he required.
one of the complainant’s three allegations that a
piece of Foley catheter remained in a patient’s            The complainant was often not receptive to
urethra for 11 days after the catheter was                 VAMC employees’ attempts to communicate
removed. We could not substantiate allegations             with him regarding the patient’s medical
that two other patients received improper                  conditions and realistic treatment options.
treatment. We made several recommendations                 Several VAMC clinicians were concerned for
to address the issues that we identified. The              their safety because of the complainant’s
Medical Center Director concurred with the                 irrationality. When the patient’s illness did not
recommendations and implemented or planned                 progress as expected, the complainant’s
appropriate corrective actions. (Inspection of             aggressive behavior and inappropriate reactions
Alleged Poor Quality of Care of Three Nursing              concerned VAMC employees. We did not
Home Care Patients, VA Central Alabama                     identify any problems in the patient’s treatment
Veterans Health Care System, East Campus,                  and did not make any recommendations.
Tuskegee, AL, 9HI-A28-091, 4/28/99)                        (Inspection of Inadequate Treatment for Aortic
                                                           Stenosis, VAMC Denver, CO, 9HI-A28-092,
Issue: Alleged inadequate treatment at                     4/28/99)
   VAMC Denver.
Conclusion: Clinicians used all possible                   Issue: Allegations of undetected death
   resources to provide the patient with                      and elopement and death of
   the care he required.                                      psychiatric patients at VAMC
Impact: Continued quality health care.                        Northport.
                                                           Conclusion: Allegations were not
A complainant alleged that clinicians refused to              substantiated.
perform a needed aortic valve replacement on               Impact: Medical Center’s policy and
his father (the patient), and that clinicians                 procedures are adequate.
refused to transfer the patient to another hospital
which would perform the operation. The                     A Congressman asked us to inspect the alleged
complainant also alleged that physicians never             circumstances surrounding: (i) a patient who
returned telephone calls to private sector                 died at the NHCU without employees detecting
physicians who were willing to accept his father,          the death for 24 hours, and (ii) a patient who was
and the patient was not provided with                      found dead on the hospital grounds a
                                                           considerable time after he disappeared from the




                                                      52
                                                                    Office of Healthcare Inspections

treatment environment. This inspection was                police department and to request a search. Since
done coincident with a broader inspection of              we did not find any indications that employees
general allegations pertaining to other clinical          acted improperly, or that faulty internal
and administrative discrepancies on the                   procedures led to the patient’s disappearance, we
VAMC’s long-term care and chronic psychiatry              did not make any recommendations. (Inspection
areas.                                                    of Alleged Undetected Nursing Home Patient’s
                                                          Death, and Alleged Elopement and Subsequent
We did not find any indication that a patient had         Death of a Psychiatric Patient, VAMC
died in the NHCU and that clinicians were not             Northport, NY, 9HI-A28-104, 5/13/99)
aware of the death for 24 hours. NHCU nurses
make patient rounds and observe patients for              Issue: Allegations of inadequate care
respirations and safety every 1 to 4 hours. None             and denial of patient rights at VAMC
of the nurses or other employees whom we                     Northport.
interviewed were aware of any incident in which           Conclusion: Allegations were not
a patient had died, and whose death had not been             substantiated.
discovered for an excessive period of time. We            Impact: Effective communication can
concluded that this alleged event did not occur.             lead to improved interaction with
                                                             patients.
As for the second allegation, medical center
managers acknowledged that employees found a              The Office of Medical Inspector asked OHI to
deceased veteran in a wooded area on the                  inspect a patient’s complaint in the context of
medical center campus. While we confirmed                 our broader inspection of medical center
that a veteran was found dead on VAMC                     operations. The complainant alleged that
grounds, we did not find any evidence to suggest          VAMC clinical managers implemented a
that employees had provided the patient with              healthcare agreement that violated his rights and
anything less than adequate care during his               that the patient representative did not assist him
inpatient and outpatient episodes of care.                in contesting the agreement. The complainant
                                                          also alleged that another patient died because of
The veteran’s wife had dropped the veteran off            inadequate care in the NHCU.
on VAMC grounds because he wanted to live
there, apart from his family. We could not find           An OHI inspector and a consultant, who has
any evidence that he ever saw a clinician or any          expertise in mental health care, inspected the
other employee on that day. He was                        complaint. We did not substantiate either of the
subsequently found dead in the wooded area.               two allegations. We concluded: (i) the
Clinical managers conducted a thorough                    complainant’s history of threatening behavior
morbidity/mortality review of the circumstances           warranted the behavioral agreement, and (ii)
surrounding the patient’s death. We concluded             clinicians had appropriately treated the deceased
that a medical center-initiated search would not          NHCU patient and managers properly reviewed
have been indicated, because the patient was not          his clinical care.
an inpatient at the time of his disappearance, did
not have a clinic appointment, and apparently             We made two suggestions that, if implemented,
did not apply for treatment on the day that his           would improve the complainant’s compliance
wife delivered him to the VAMC.                           with his health care agreement. The Medical
                                                          Center Director concurred with our
It was the patient’s family’s responsibility to           recommendations and cited significant
report the patient’s disappearance to the local           improvement in interactions between the




                                                     53
Office of Healthcare Inspections

complainant and staff. (Inspection of Alleged             the Dialysis Unit, John Cochran Division of the
Denial of a Patient’s Rights, VAMC Northport,             VAMC St. Louis, MO, 9HI-A28-109, 5/17/99)
NY, 9HI-A27-108, 5/17/99)
                                                          Issue: Alleged mismanagement of
Issue: Alleged poor quality of care on                       Pharmacy Service and substandard
   the Dialysis Unit at VAMC St. Louis.                      patient care at the VA San Diego
Conclusion: Employees had attached                           Healthcare System.
   patients’ reusable dialyzers to the                    Conclusion: Three untoward patient
   wrong dialysis machines, but they                         care events and one adverse drug
   properly reported the incident, and                       reaction had occurred.
   took appropriate actions to ensure                     Impact: Strengthened reviews and
   the patients’ welfare.                                    oversight will improve patient care
Impact: Safeguards developed to reduce                       and reduce errors.
   errors.
                                                          A California Congressman and the House
An anonymous complainant alleged that: (i)                Committee on Veterans’ Affairs requested the
employees had been verbally abusive and                   OIG inspect multiple allegations of Pharmacy
threatening; (ii) hemodialysis unit patients were         Service mismanagement and 10 episodes of
dying because of inadequate dialysis treatments;          alleged substandard patient care. A senior
(iii) the dialysis program medical director               pharmacy manager who is assigned to another
refused to provide medication refills to patients         VISN consulted with OHI inspectors on
if they missed appointments; (iv) technicians             Pharmacy Service management issues.
were not appropriately sterilizing the
hemodialysis machines, which resulted in the              We confirmed that three untoward patient care
transmission of infections to patients; and (v)           events and one adverse drug reaction had
patients’ reusable dialyzers had mistakenly been          occurred among the 10 alleged cases of
attached to other patients’ dialysis machines.            substandard care. We did not substantiate the
                                                          remaining six cases.
The first four allegations were not substantiated.
We substantiated the allegation that employees            Quality managers and executive managers had
had attached patients’ reusable dialyzers to the          identified and thoroughly reviewed each case of
wrong dialysis machines. One such incident had            untoward care when it occurred and instituted
occurred several years ago in which clinicians            appropriate corrective actions. Therefore, we
mistakenly interchanged two patients’ sterilized          did not make any recommendations. We did not
reusable dialyzers and inadvertently attached             substantiate any of the allegations pertaining to
these dialyzers to the wrong patients’ dialysis           flawed Pharmacy Service management practices,
machines. The incident did not result in any              and we did not make any recommendations
patient harm. We did not identify any similar             concerning these issues. (Inspection of Multiple
incidents and we concluded that managers had              Allegations of Pharmacy Service
initiated adequate preventive safeguards to               Mismanagement and Substandard Patient Care,
reduce the possibility of reoccurrence. The               VA San Diego Healthcare System, San Diego,
employees who were involved in the incident               CA, 9HI-A28-112, 5/26/99)
had promptly and properly reported the incident,
and managers took appropriate actions to
monitor and ensure the patients’ welfare.
(Inspection of Alleged Poor Quality of Care in




                                                     54
                                                                   Office of Healthcare Inspections

Issue: Alleged substandard and                           during a physical takedown in the VAMC’s
   unprofessional care.                                  Emergency Room, causing irreversible physical
Conclusion: Allegation not                               damage. We did not substantiate the allegation.
   substantiated.                                        We concluded that employees did restrain the
Impact: Appropriate delivery of care to                  patient when he became agitated and bit an
   patient with history of substance                     employee on the hand. However, we could not
   abuse was confirmed.                                  conclude that employees’ actions in restraining
                                                         the patient caused irreversible physical damage.
A complainant alleged that he received
substandard care and unprofessional treatment            The psychologist involved in the patient’s
when VAMC Biloxi clinicians made him wait                Emergency Room evaluation ordered the use of
for excessive periods of time in the Emergency           restraints. Such an order is not within a
Room and denied him pain medication. The                 psychologist’s scope of practice. The
complainant alleged he contracted hepatitis B as         psychologist also failed to determine if the
a result of a blood transfusion that he received.        patient was incompetent to make medical
The complainant further alleged that he                  decisions and failed to document a competency
contracted hepatitis C and sustained back, knee,         determination in the patient’s medical record.
and neck injuries when a patient struck him on           The patient did not give consent for his
the head while he was employed at the VAMC.              hospitalization. The psychologist failed to
                                                         initiate actions for commitment procedures for
We did not substantiate any of the allegations.          involuntary hospitalization and failed to
We concluded that medical center clinicians              document this in the patient’s medical record.
promptly evaluated the complainant’s medical             Managers initiated a series of corrective actions
treatment concerns, and that a physician                 to clarify the privileges of non-medical
prescribed pain medication to alleviate his              clinicians and to review policies and procedures
complaints of chronic pain, even though he had           for Emergency Room mental health services.
a history of drug seeking behavior. We                   (Inspection of Alleged Patient Abuse, VA Gulf
concluded the physician’s decision to order              Coast Veterans Health Care System, Biloxi, MI,
these analgesic drugs was within the standards           9HI-A28-129, 6/29/99)
of community practice. (Inspection of Alleged
Substandard Care and Unprofessional                      Issue: Operational deficiencies at the
Treatment, VA Gulf Coast Veterans Health Care               Ventnor, NJ Outpatient Clinic.
System, Biloxi, MI, 9HI-A28-128, 6/29/99)                Conclusion: Staffing levels are
                                                            inadequate to meet psychosocial and
Issue: Alleged patient abuse.                               health care needs of veterans.
Conclusion: Employees acted properly                     Impact: Poor clinic conditions and
   in restraining a patient. A                              interpersonal relationships.
   psychologist operated outside the
   scope of practice.                                    An anonymous complainant alleged operational
Impact: Establishment of a Process                       deficiencies were adversely affecting patient
   Improvement Team to evaluate the                      care at the clinic. OHI inspectors visited the
   overall mental health practices                       Wilmington VAM&ROC and the clinic.
   related to emergency psychiatry.                      Inspectors found interpersonal communications
                                                         among clinicians and other employees are
A complainant alleged that a VAMC Biloxi                 inadequate to meet patients’ needs. Clinic
employee pushed down on a patient’s throat               staffing levels are inadequate to meet the




                                                    55
Office of Healthcare Inspections

psychosocial and health care needs of the local           liver cancer, or that they mismanaged the
veteran population. There is no evidence in the           medication prescribed for the patient’s fluid
medical records that we reviewed that the nurse           retention. We recommended the Medical Center
practitioner provided substandard care.                   Director ensure the appropriate service chief
                                                          monitor biopsy interpretations to ensure the
We made two recommendations aimed at                      accuracy of pathology findings. The Director
improving clinic conditions and interpersonal             concurred with our recommendation and
relationships. The Medical Center Director                implemented corrective action. (Inspection of
concurred with our recommendations and                    Alleged Poor Quality of Care, William S.
provided acceptable implementation plans.                 Middleton Memorial Veterans Hospital,
(Inspection of Alleged Ventnor, NJ Outpatient             Madison, WI, 9HI-A28-137, 7/30/99)
Clinic Deficiencies, VAM&ROC Wilmington,
DE, 9HI-A28-130, 6/30/99)                                 Issue: Patient falls.
                                                          Conclusion: Clinical managers had not
Issue: Alleged misdiagnosis and failure                      established safety measures to
   to properly treat a patient’s liver                       protect incompetent patients from
   cancer.                                                   wandering.
Conclusion: Clinicians initially                          Impact: Strengthened patient
   misdiagnosed the cancer, but sought                       surveillance and evaluation practices
   clarification from the Armed Forces                       will improve patient safety.
   Institute of Pathology.
Impact: Stronger review of biopsy                         A complainant alleged that two patients
   findings.                                              experienced serious falls at the NHCU at the
                                                          Central Alabama Veterans Health Care System,
The family of a patient made several allegations          Tuskegee, AL. These two patients were
including misdiagnosis of the patient’s liver             reportedly incompetent and in their wheelchairs
cancer, failure to properly treat the patient’s           when they fell down the stairs.
liver cancer, failure to completely excise a tumor
on the patient’s scalp, and mismanagement of              We substantiated the allegations that the two
the patient’s fluid retention medication.                 patients, both of whom had diagnoses of
                                                          dementia, fell down a stairwell in their
We concluded that VAMC Madison clinicians                 wheelchairs. Managers believed that, in the first
initially misdiagnosed the patient’s liver cancer.        case, someone had propped a stairwell door
The biopsy slides were sent to the Armed Forces           open, thus allowing a patient to roll down the
Institute of Pathology (AFIP) for a second                stairs. In the other case, clinicians had not
opinion and AFIP pathologists made the                    properly assessed an incompetent patient as a
diagnosis of hepatocellur carcinoma (liver                wanderer and had not provided him with an
cancer) one month later. The surgeons could not           electronic security bracelet. He too was able to
safely completely excise the patient’s scalp              get out of the ward to a stairwell and rolled
tumor, but they removed a sufficient amount of            down the steps in his wheelchair. Clinical
the lesion to provide palliation. Further                 managers had not established safety measures to
resection of the tumor could have resulted in             protect incompetent patients from wandering.
severe and possibly fatal complications.
                                                          We made two recommendations. The Medical
There is no evidence in the medical records that          Center Director concurred with our
clinicians failed to properly treat the patient’s         recommendations and provided acceptable




                                                     56
                                                                  Office of Healthcare Inspections

implementation plans for one recommendation.            Issue: Alleged inappropriate heart
The remaining recommendation is                            surgery.
unimplemented pending receipt of further data.          Conclusion: Emergency surgery was
(Inspection of Two Allegedly Serious Patient               appropriate given the severity of the
Falls, Central Alabama Veterans Health Care                patient’s coronary artery disease.
System, VAMC Tuskegee, AL, 9HI-A28-140,                 Impact: Informed consent needs strong
7/30/99)                                                   and clear documentation in the
                                                           medical record.
Issue: Alleged substandard patient care
   and administrative discrepancies.                    The wife of a patient alleged that her husband
Conclusion: Employees are generally                     received substandard care while hospitalized,
   performing well under difficult                      that he should have been evaluated for cardiac
   circumstances.                                       disease and hospitalized earlier, and questioned
Impact: Limited resources negatively                    the validity of the patient’s consent for a
   impact on quality of care.                           coronary artery bypass graft operation. The
                                                        patient had a complicated post-operative course
A complainant alleged there is waste, fraud,            that ultimately resulted in his death.
abuse, and mismanagement at the VA Outpatient
Clinic, Chattanooga, TN. OHI inspectors made            We concluded that clinicians promptly
two site visits to review clinic operational            diagnosed the patient’s heart condition and that
policies, management structure and functions,           emergency surgery was appropriate, given the
and patient care delivery systems. Inspectors           severity of the patient’s coronary artery disease.
extensively interviewed the original complainant        We further concluded that clinicians properly
to clarify allegations and spoke with more than         obtained the patient’s consent for surgery. We
100 patients and family members who sought to           made one recommendation concerning the peer
be interviewed.                                         review process. The Medical Center Director
                                                        concurred with our recommendation and
We concluded that employees generally perform           provided an acceptable implementation plan.
well under difficult circumstances, which are           (Inspection of Allegedly Inappropriate Open
directly related to limited resources, a                Heart Surgery, VAMC West Los Angeles, CA,
geographically remote parent facility, lack of          9HI-A28-151, 8/18/99)
readily available referral resources, and a
medically challenging patient population.               Issue: Inappropriate services for the
Compounding this difficult situation are issues            visually impaired at VAMC Augusta.
of employee morale and interpersonal conflicts          Conclusion: Some patients have been
that impair the collaborative practice that must           inappropriately admitted to the Blind
occur among professionals for them to manage               Rehabilitation Center.
such a complex patient population.                      Impact: Better admission screening
                                                           leads to more effective results.
We made several recommendations. The
Medical Center Director and the VISN Director           We received a complainant’s letter concerning
concurred with our recommendations and                  issues involving the appropriateness of
provided acceptable implementation plans.               admissions to the VAMC’s inpatient Blind
(Inspection of Alleged Substandard Patient Care         Rehabilitation Center and of the outpatient care
and Administrative Discrepancies, Outpatient            and services provided in the Visually-Impaired
Clinic, Chattanooga, TN, 9HI-A28-141, 7/30/99)          Service’s Low-Vision or Optometry clinics. In




                                                   57
Office of Healthcare Inspections

both categories of allegations, there were cases        fallen into a 4-foot deep ditch that contained
involving allegedly unnecessary or                      about 2 feet of water. The cause of death was
inappropriately issued low-vision prosthetic            reported as an accidental drowning.
items. We obtained assistance from three
consultants who are considered experts in low           We reviewed the patient’s clinical course, as
vision optometry and blind rehabilitation.              well as the supervision that medical center
                                                        clinicians provided to the patient. Prior to our
We confirmed that some patients have been               inspection, the Medical Center Director initiated
inappropriately admitted to the Blind                   a root-cause analysis to review the management
Rehabilitation Center, and we also partially            of the patient’s care and of the station’s missing
substantiated cases in which optometry and/or           patient search procedures. We concluded that
prosthetic services were inappropriate or less          clinicians were aware of the patient’s need for
than optimal. We concluded that program and             direction and supervision, but they failed to
operating improvements of the Center, Visually-         ensure that he was provided appropriate
Impaired Service’s team, and Optometry                  supervision during a recreational event.
Services in the VAMC are needed.                        Managers appropriately ordered a review of the
                                                        circumstances surrounding the patient’s
We made seven recommendations that should               disappearance and subsequent death and have
improve the quality and appropriateness of care         initiated corrective action to prevent a similar
in the Blind Rehabilitation Center and the              incident from reoccurring.
various Visually-Impaired Service’s clinics, as
well as the appropriateness of and need for             We made four recommendations that address the
prosthetic items issued to low-vision or blinded        issues in this case. The Medical Center Director
patients. The Medical Center Director provided          concurred with our recommendations and
acceptable implementation plans. (Inspection of         provided appropriate implementation plans.
Allegedly Inappropriate Visually Impaired               (Inspection of the Management of a Missing
Service, VAMC Augusta, GA, 9HI-A28-159,                 Patient, VAMC Butler, PA, 9HI-A28-167,
9/16/99)                                                9/21/99)

Issue: Missing patients.
Conclusion: Improvement is needed in
   the management and monitoring of
   high-risk patients.
Impact: Ability to ensure patient safety
   and improve health care.

We conducted an oversight inspection to
evaluate the medical center’s review of the
circumstances surrounding a patient’s
disappearance and the actions taken to prevent
similar incidents from reoccurring. The patient
was attending a recreational activity with other
patients and volunteers when, at the completion
of the activity, he wandered away and did not
return to his ward. He was reported missing and
was found dead 3 days later. The patient had




                                                   58
OFFICE OF MANAGEMENT &
ADMINISTRATION
Mission Statement                                        planning for all OIG IT requirements. The
                                                         Division also maintains the Master Case Index
    Promote OIG organizational effectiveness             (MCI) system, the OIG’s primary information
    and efficiency by providing reliable and             system for case management and decision
    timely management and administrative                 making.
    support, and providing products and
    services that promote the overall mission            IV. Resources Management Division - The
    and goals of the OIG. Strive to ensure that          Division is responsible for OIG financial
    all allegations communicated to the OIG              operations, including budget formulation and
    are effectively monitored and resolved in a          execution; OIG personnel management; and all
    timely, efficient, and impartial manner.             other OIG administrative support services.

The Office of Management and Administration              Resources
is a diverse organization responsible for a wide
range of administrative and operational support          The Office of Management and Administration
functions. The Office includes four Divisions:           has 51 FTE allocated to the following areas.

I. Hotline and Data Analysis Division - The
Division is responsible for determining action to
                                                                                   
be taken on allegations received by the OIG                   	
         		
Hotline. The Hotline section receives thousands                               
of contacts annually, mostly from veterans, VA                   
employees, and Congressional sources. The
work includes controlling and referring many
cases to impartial VA components having
                                                               		
jurisdiction. The Data Analysis section provides               	

automated data processing support, such as                                          
	
computer matching and data extraction from VA                                            !
                                                                                       "	

data bases.                                                                              

II. Operational Support Division - The Division
does followup tracking of OIG report
recommendations; Freedom of Information Act
(FOIA) releases; strategic, operational, and
performance planning; and IG reporting and
policy development.

III. Information Technology (IT) Division - The
Division manages nationwide IT support,
systems development and integration, and
represents the OIG on numerous intra- and inter-
agency IT organizations and does strategic




                                                    59
Office of Management & Administration

I. HOTLINE AND DATA
ANALYSIS DIVISION                                                               
                                                                               	"     
                                                                                        	


Mission Statement                                                                        
                                                                                         
                                                                                              
    Ensures that allegations of fraud, waste,                                             
    abuse, and mismanagement are responded                                               
                                                                                             	!
    to in an efficient and effective manner.                     
    Provides automated data processing                           #	

    technical support to all elements of the
    OIG and other Federal Government
    agencies needing information from VA
    files.                                               Overall Performance
The Hotline Section operates a toll-free
                                                         During the reporting period the Hotline received
telephone service five days a week, Monday
                                                         7,289 contacts. Of this number, 396 cases were
through Friday, from 5 AM to 10 PM Eastern
                                                         opened. The OIG reviewed 76 of these and the
Time. Phone calls, letters, and e-mail messages
                                                         remaining 320 cases were referred to VA program
are received from employees, veterans, the
                                                         offices for review.
general public, the Congress, General
Accounting Office, and other Federal agencies
                                                         Output
reporting issues of fraud, waste, and abuse. Due
                                                         • During the reporting period, Hotline staff
consideration is given to all complaints and
                                                         closed 358 cases, of which 105 contained
allegations received; mission related issues are
                                                         substantiated allegations (29 percent). The
addressed by OIG or other Departmental staff.
                                                         Hotline staff opened 166 cases and generated
                                                         230 letters responding to inquiries received from
The Data Analysis section provides automated             members of the Senate and House of
data processing technical support to all elements        Representatives.
of the OIG, and other Federal and governmental
agencies needing information from VA files.              Outcome
The section is physically located at the VA
                                                         • VA managers imposed 35 administrative
Automation Center in Austin, Texas.
                                                         sanctions against employees and took 55
                                                         corrective actions to improve operations and
Resources                                                activities as the result of these reviews. The
                                                         monetary impact resulting from these cases
There are 20 staff positions allocated to Hotline        totaled $1,336,241. Data Analysis staff’s
and Data Analysis Division. In addition to the           participation in a joint effort with other OIG
Division director, there are 11 employees in the         elements and VA officials resulted in the
Hotline section, and 8 employees in the Data             identification of $700,000 in checks cashed after
Analysis section, which provides support to all          the payee’s death. Action was taken to stop the
OIG operating elements. The following chart              awards and initiate collection actions.
shows the percent of resources utilized by
various program areas.




                                                    60
                                                          Office of Management & Administration

                                                         against the employee up to this incident.
A. HOTLINE SECTION                                       Management is closely monitoring this situation.
The Hotline section’s most significant leads are         • As the result of a Hotline inquiry sent to a
referred to other OIG elements. Hotline staff            VAM&ROC, a review found there no systems
also retain oversight on a number of other cases         were in place to ensure patient safety and to
that are referred to independent VA program              expedite appointments and processing.
officials for resolution.                                Management implemented procedures to correct
                                                         this oversight.
The Hotline Section worked with VA program
offices on allegations concerning patient care
                                                         • A Hotline inquiry prompted a VAMC
and services, quality of care issues, employee
                                                         review, which substantiated allegations of
misconduct, outside employment concerns,
                                                         employee misconduct and violation of patient
contracting activities, Government equipment
                                                         safety by a triage nurse and police officer. The
and supplies, time and attendance issues, and
                                                         nurse was administratively counseled on her
allegations of inappropriate travel claims.
                                                         lack of interpersonal skills. The police officer
Hotline staff also worked with VBA on
                                                         was administratively counseled on his lack of
allegations concerning the payment of
                                                         customer service and was advised to seek the
compensation and pension to incarcerated
                                                         advice of a clinical provider on a patient’s
veterans, and inappropriate benefits awarded to
                                                         medical status before touching any patient. The
veterans and beneficiaries that were not entitled
                                                         director of the facility wrote a letter of apology
to receive payments. The following are some
                                                         to the veteran.
examples of the cases that Hotline managed
closed during this reporting period.
                                                         • A VAMC investigation disclosed an
                                                         employee shut off electrical power to the
                                                         surgical suite during a procedure. Although the
Veterans Health                                          patient was unharmed, the employee was
                                                         suspended without pay for 60 days.
Administration
                                                         Employee Misconduct
Patient Care and Service
                                                         • Another Hotline inquiry sent to a VISN
• A VAMC review prompted by a Hotline                    prompted an investigation of alleged
inquiry substantiated an allegation that an              improprieties at a VAMC. The review resulted
employee used improper techniques while                  in a reprimand being issued to the chief, Fiscal
handling a patient with fragile skin.                    Service, for improper use of his Government
Consequently, the patient received a laceration.         credit card. The investigation also found the
The employee received several hours of training          chief had borrowed money from a subordinate
and a written counseling. The review also                employee. The chief retired when he received a
revealed the same employee was removed from              proposed reprimand for his actions. Another
a ward 6 years ago for physical abuse. At that           Fiscal Service employee was issued a
time, the employee received a 14-day suspension          termination letter for time and leave abuse
and successfully completed a performance                 discovered during the investigation. An
improvement plan. Since that suspension, no              employee who refused to answer questions
allegations of patient abuse have been reported          during the investigation received a three-day
                                                         suspension.




                                                    61
Office of Management & Administration

• Another Hotline referral to a Readjustment             issued a notice to all VAMC employees
Counseling Service prompted a review which               reminding them of proper procedures.
substantiated allegations that four employees
willfully misused Government vehicles. One               Quality of Care
employee also admitted having a Government
computer at home without authorization.                  • A Hotline inquiry to another VISN
Management suspended the supervisor for 30               prompted a review that substantiated an
days for using the vehicle to routinely commute          allegation of poor quality of care at a VAMC. A
back and forth to work without authorization and         veteran was able to elope from a psychiatric
for authorizing similar use by subordinate staff.        ward as the result of a lack of supervision by his
Three employees received admonishments for               treatment team. VAMC management
unauthorized use of the vehicles. The employee           established better monitors and lines of
who took the computer home also received a 14-           communication between the team members and
day suspension for endangering client                    with the patients.
confidentiality.
                                                         • A VAMC review substantiated an allegation
• A VAMC review substantiated an allegation              of poor quality of care. A physician diagnosed a
of misuse of a Government credit card. An                veteran’s elbow condition based on a review of
employee used his card for personal purchases            the medical records and not a physical
and travel, without submitting a travel request.         examination. Management counseled the
The employee received a written counseling and           physician and acted to ensure that attending
additional training on travel regulations.               physicians examine patients personally.

• A VAMC review confirmed the allegation                 • A VISN review prompted by a Hotline
that an employee had misused VA franking                 inquiry substantiated allegations of poor quality
privileges. When approached by management,               of care and mismanagement of resources by a
the employee admitted to making personal use             VAMC. The VAMC failed to sufficiently
of VA envelopes and agreed to reimburse the              anticipate a series of circumstances that led to
VA for whatever amount was necessary.                    insufficient radiology coverage and a backlog of
Employee was issued a bill of collection for             unread radiological procedures. The VAMC
$300 and a written counseling.                           corrected the situation.

•   An investigation by a VAMC director                  • A VAMC review revealed poor quality of
substantiated the allegation of improper use of a        care in the treatment of a veteran at a VA
Government credit card by a union official. The          outpatient clinic. The physician reviewed
official used the card for personal purchases.           diagnostic test results but failed to examine the
The official was counseled and repaid the                patient who had a head injury. The clinic also
VAMC for $1,463 in unauthorized charges.                 failed to provide timely follow-up care. The
                                                         physician was counseled by the facility and
• A VAMC review substantiated allegations                system reviews have been revised to streamline
of employee misconduct, use of official position         scheduling processes between the outpatient
for personal gain, and minor misuse of a                 clinic and the medical center.
Government vehicle. The Facilities
Management Service supervisor and one                    • A review at a VAMC found that problems
employee received reprimands. Management                 with timely hiring of nursing staff created
                                                         difficulties in responding to nursing home




                                                    62
                                                          Office of Management & Administration

patients. Management took action to address the          system being purchased from a single vendor.
time required for responding to the needs of             After receiving the Hotline inquiry, VHA
residents.                                               reconsidered its position and decided the
                                                         incremental costs associated with the
• An investigation by a VAMC director                    replacement of the VAMC's existing system did
substantiated the allegation of improper surgical        not justify its replacement at this time. Based on
resident on-call scheduling, which resulted in           this decision, VA avoided costs estimated at $1
residents working 120-hour weeks. The director           million.
took immediate action to reduce the number of
hours the residents were expected to be on call.         • A VAMC review found an employee had
Additionally, the medical center implemented a           improperly used the e-mail system to solicit
monitoring system to ensure that proper rotation         other employees to join a gambling pool at $25
schedules are maintained.                                per person for a weight loss contest.
                                                         Management counseled the employee.
Outside Employment
                                                         • A VAMC review substantiated the
A Hotline inquiry initiated a VAMC                       allegation that employees had used Government
investigation, which found the facility's dental         telephones to make personal calls during
laboratory supervisor performed lab work for a           working hours. Three employees were
VA dentist's private practice using VA materials         counseled.
on VA time. The dentist admitted that the work
was done and that he and the employee were               • A technical review at a VAMC found the
friends. The service chief counseled the dentist         facility used multiple non-standard approaches
on VA rules and regulations concerning outside           to deal with the telecommunications system.
work, the appearance of nepotism, and misuse of          The VAMC implemented the recommended
Government property.                                     corrective actions, including the development of
                                                         consistent procedures based on industry
Contracting Activity                                     standards.

• A VHA review found double billing by a                 Timekeeping Procedures
contract pharmacy and the overpayment of
veteran co-pay amounts. The pharmacy was                 • A Hotline inquiry to a VAMC director
paid twice for the same prescription in two              prompted a review that substantiated an
instances, resulting in the veteran being                allegation of time and attendance abuse. The
inappropriately charged a co-pay amount. VHA             investigation found two supervisory staff
recovered $191 from the contract pharmacy and            members did not follow appropriate procedures
refunded $63 to the veteran.                             in reporting time and attendance. The
                                                         supervisors were formally counseled on
Government Equipment and Supplies                        documenting time and absences and the
                                                         importance of employees' perceptions.
• A Hotline inquiry, and subsequent requests
for a senior-level VHA review, determined that           • Another Hotline inquiry to a VAMC found
the proposed replacement of an essentially new           that a supervisor used inefficient timekeeping
telephone system at a VAMC was unnecessary.              methods. Additionally, it was discovered that an
VHA held that the VAMC's PBX switch was                  alternate timekeeper was inappropriately
incompatible with a VISN-wide telephone                  accessing timecards and violating privacy




                                                    63
Office of Management & Administration

information in discussing employees’ time and           100 percent compensation while incarcerated in
attendance issues. Management counseled the             South Carolina. The veteran was incarcerated in
supervisor and employee. The alternate                  November 1998 and failed to notify VA. VARO
timekeeper was relieved of her timekeeping              staff assessed an overpayment of more than
duties and the VAMC implemented procedures              $9,900.
to ensure that staffs maintain accurate
timekeeping records in the future.                      • A Hotline inquiry found that a veteran was
                                                        receiving full compensation benefits while
• A VAMC review substantiated the                       incarcerated. The veteran failed to notify the
allegation that two nurses had inappropriately          VARO of his incarceration, which began in June
received pay for unnecessary on-call duty. One          1998. The veteran was assessed an overpayment
employee received on-call pay for 9 years.              of more than $2,300.
Management stopped the on-call tour of duty for
both employees and issued bills of collection to        • A VAMC review discovered an incarcerated
recoup $8,971.                                          veteran had assumed the identity of another
                                                        veteran and received VAMC social work
Beneficiary Travel Reimbursement                        services under the assumed identity, which
                                                        resulted in the veteran being billed for services.
A Hotline inquiry to a VAMC found that a                The VAMC cancelled the charges and flagged
veteran claimed he was residing in another city         the veteran’s information in their computer
to obtain higher beneficiary travel                     system to prevent future fraudulent receipt of
reimbursements; however, the review found he            medical services. The VAMC also notified the
lived close to the VAMC. Consequently, the              VARO of the veteran's incarceration, which
VAMC billed the veteran for $2,414. The                 resulted in the creation of a $25,000
VAMC also recorded the veteran’s current                overpayment.
address and reduced his travel reimbursement.
                                                        Receipt of VA Benefits

Veterans Benefits                                       • As the result of a Hotline inquiry sent to one
                                                        VARO, action was taken to review the
Administration                                          appropriateness of a veteran’s 100 percent
                                                        service connected rating for blindness. The
Benefits Payments to Incarcerated                       VARO staff determined the rating was
Veterans                                                inappropriate because the veteran was shown on
                                                        videotape driving an automobile. The veteran’s
• As the result of a Hotline inquiry to one             rating was reduced to 50 percent, his individual
VARO, staff took action to review and confirm           unemployability benefit terminated, and his
that a veteran was incarcerated and                     special benefits for total blindness were
inappropriately receiving VA benefits. The              discontinued. The VARO's actions resulted in
VARO reduced the veteran’s benefits and                 savings of approximately $27,600 that would
created an overpayment of $76,917.                      have otherwise continued to be paid to the
                                                        veteran over the VA budget cycle.
• Another Hotline inquiry prompted a review
by VARO staff, which substantiated the                  • A VARO field examination determined that
allegation that a veteran continued to receive          a veteran's receipt of disability compensation at
                                                        a 100 percent level based on individual




                                                   64
                                                         Office of Management & Administration

unemployability was unwarranted. The VARO               VA Loan Guaranty Program
found the veteran, who was supposedly
wheelchair-bound, could walk and worked on              A Hotline inquiry prompted a review which
and raced motorcycles. The VARO reduced the             found a veteran was using a $240 monthly
veteran's compensation to 40 percent, and his           mortgage payment allotment from his military
monthly benefit payment from $1,924 to $399.            retirement pay to avoid an IRS tax lien. The
The VARO's actions will save the Government             veteran's mortgage loan was paid off in 1996 but
from having to unnecessarily pay $18,300 over a         the veteran had made no attempt to stop the
one-year period.                                        allotment until contacted by the VA regional
                                                        office and insurance center. The center refunded
• A Hotline-prompted inquiry found a veteran            the veteran his accumulated funds and notified
received VA benefits during periods he was on           IRS of this action.
active duty and receiving service pay. This
resulted in an overpayment of $8,204.

• A VARO field exam substantiated an
                                                        National Cemetery
allegation that a veteran was receiving pension         Administration
benefits for which he was not entitled. The
pensioner was found to have a non-reported
monthly income of $3,000 from self-                     A NCA review substantiated the grave of a
employment. The VARO created an                         veteran who died in 1976 did not have a
overpayment of $48,594.                                 headstone. NCA contacted the cemetery and
                                                        found that the headstone had been delivered
• A VARO review substantiated an                        years earlier, but the family was never notified
inappropriate increase of a veteran’s pension           that they had to pay for the concrete foundation
based on medical expenses. At the time the              and granite base. The family has been notified
increase was approved, the veteran was a patient        and is making payment to the cemetery.
at a state veterans nursing home and his medical
expenses were already covered. The VARO
notified the veteran his pension would be               Office of Human
reduced, creating an overpayment of $19,221.
                                                        Resources and
• A VARO review revealed that a veteran's
widow receiving DIC benefits had remarried
                                                        Administration
twice and not reported her change in marital
status to VA. The widow was assessed an                 A VA Office of Resolution Management review
overpayment of $95,320 for the benefits she             at a VAMC confirmed that an Equal
received over a ten-year period.                        Employment Office counselor shredded
                                                        documentation submitted as part of an
                                                        complaint. The review concluded the counselor
• A VARO review resulted in confirmation
                                                        erred in deciding to shred excess documentation
that a veteran's widow had continued to receive
                                                        that was not pertinent to the case. The employee
DIC for six years after her remarriage. The
                                                        was counseled. Management apologized to the
VARO cancelled the widow's benefits and
                                                        complainant.
recouped $23,486.




                                                   65
Office of Management & Administration

                                                           section routinely receives requests from the FBI,
B. DATA ANALYSIS                                           HHS, Air Force Office of Special Investigations,
SECTION                                                    and other DoD organizations. The following
                                                           reflects some of the data collected and analyzed
                                                           for these groups.
The Data Analysis section conducts reviews of
VA computerized data files and reports
                                                           Computer Profiles Developed Detected
conditions in VA computer systems. Data
                                                           Fraud and were Successful in Stopping
Analysis staff search for data and indicators of
                                                           Inappropriate Benefit Payments
fraud, waste, and abuse. They also identify data
inconsistencies that may indicate the existence
                                                           Working with the OIG Office of Investigations
of invalid or erroneous information in VA files.
                                                           and the VA Financial and Systems Quality
These efforts are often the first step in
                                                           Assurance Service, the Data Analysis staff
identifying issues warranting comprehensive
                                                           developed and tested computer profiles designed
reviews by the OIG.
                                                           to search for data patterns that pointed to the
                                                           potential for fraud in the system. Tests
During the semiannual period, the section
                                                           conducted at five VAROs resulted in the
completed work on 295 requests for information
                                                           identification of 29 inappropriate benefit claims.
received from OIG operational elements. In
                                                           The VARO staffs established overpayments and
conjunction with these requests, data analysis
                                                           OIG investigative work continues. The reviews
staff worked closely with auditors, inspectors,
                                                           identified approximately $700,000 in improper
and investigators requesting information to
                                                           payments. The computer profiles have been
ensure the data was valid, complete, and met
                                                           refined and used in detecting fraud patterns in
their needs. The support work provided by the
                                                           other VAROs.
staff is shown in many of the projects and
investigative cases described in this report.
                                                           Reviews of Computer Systems Identified
                                                           Problems Warranting Attention
The section worked on 18 other projects to
develop computer profiles, which would identify
                                                           • During a review of fee basis master files
fraud and abuse in VA systems. Some of these
                                                           programmed by the VA Austin Automation
profiles are currently in use by investigative and
                                                           Center, the Data Analysis staff found a Y2K
audit staff at several OIG regional offices.
                                                           problem. The Center corrected the problem and
                                                           notified their customers of the error.
The section also completed work on 81 requests
received from contract review auditors, which
                                                           • While working with VBA loan guaranty
generated 214 outputs. Support was provided on
13 other specific projects consisting of 116               production programs, the section identified
vendor sales containing more than 55 million               several coding errors that caused inaccurate
records. The monetary results of these efforts             output reports. VBA agreed to correct the
are reported in the Office of Audit section of this        production programs and test them to make sure
semiannual report under results of postaward               their figures were accurate.
and preaward contract reviews.
                                                           • During a review of accounts receivable files
In addition, the staff completed work on 57 other          received quarterly from all VA stations
requests for information received from VA                  nationwide, the staff identified duplicate
management and other Federal agencies. The                 billings. The records were sent to an individual
                                                           station for resolution. Staff found the duplicate




                                                      66
                                                           Office of Management & Administration

billings were caused by a computer system                 section had developed for the Medical Care Cost
failure at the station in 1993. Action was taken          Fund portion of the Consolidated Financial
to correct the problem.                                   Statements audit. Office of Audit found the
                                                          reports very helpful in reconciling major
• While working with VBA’s first notice of                differences they were experiencing in their
death records, the section found an anomaly               accounts receivable files. VHA is now running
where the system failed to recognize a command            these programs in a production environment on a
to stop payment on a claim. Consequently,                 routine basis.
payments continued to be sent out to an address
for a period of 17 months with the checks issued          Support Provided to Contract Review
totaling about $47,500. Fortunately, the post             and Evaluation Efforts
office returned the check each month as
undeliverable. As the result of the review, VBA           • During this 6-month period the section also
staffs are looking into this matter to ensure it          provided ADP technical support to the Office of
does not happen with other payments. VBA is               Audit’s Contract Review and Evaluation
also looking into procedural changes in the               Division which conducts preaward and
handling of notices to stop payments nationwide.          postaward reviews of certain categories of VA
                                                          contracts. Some examples of the work the Data
• While reviewing VA files to determine if                Analysis staff performed follow.
any VA entity was doing business with a
company that had been excluded from                       • One postaward review revealed that a
participation in Medicare, Medicaid, and other            certain pharmaceutical company had converted
Federal health care programs, the staff identified        from one computer system to another in the
eight VAMCs that made purchases totaling                  middle of the contract and in the process the
about $75,000 from at least seven companies on            prices it charged for certain items had been lost
an exclusion listing. The information was sent            or were posted incorrectly. Using sales files the
to A&MM for action as warranted.                          section had received from the company on a
                                                          previous request, the staff members were able to
Requests from VA for Data Support                         go back several years and reconstruct the price
                                                          changes on the new sales file forward so that the
• During this reporting period, the VBA Data              audit work could continue.
Management office requested assistance in
providing them with computer files developed              • During one other review, the section
for the audit of VA’s Consolidated Financial              developed a multi-step programming procedure
Statements. VBA staff found these reports a               that allowed the staff to compute price
useful management tool and will be running                reductions for 125 items that would have been
these files on a recurring basis as part of their         virtually impossible without the procedure.
production processing requirements. The                   There were two price reduction clauses in the
section provided them with all specifications,            contract that calculated price reductions the VA
report formats, record layouts, and computer              was entitled to during four different periods
coding Data Analysis developed for use in                 during the contract. The Data Analysis staff
determining the actuarial calculation of future           identified approximately 60,000 sales to VA that
liabilities of veteran’s benefits.                        were entitled to the price reductions and
                                                          recalculated the amounts in support of the
• VHA also requested the staff's assistance in            review.
providing them with computer programs the




                                                     67
Office of Management & Administration

                                                       implement the recommendations, but is not yet
II. OPERATIONAL                                        finished. In addition, $114 million relates to
SUPPORT DIVISION                                       unresolved reviews awaiting contract resolution
                                                       by VA contracting officers.

Mission Statement                                      The Division is also responsible for maintaining
                                                       the centralized, computerized followup system
    Promote OIG organizational effectiveness           that provides for oversight, monitoring, and
    and efficiency by providing reliable and           tracking of all OIG recommendations through
    timely followup reporting and tracking on          both resolution and implementation. Resolution
    OIG recommendations; responding to                 and implementation actions are monitored to
    Freedom of Information Act (FOIA)                  ensure that disagreements between OIG and VA
    requests; conducting policy review and             management are resolved as promptly as possible
    development; strategic, operational, and           and that corrective actions are implemented as
    performance planning; and overseeing               agreed upon by VA management officials. VA’s
    Inspector General reporting requirements.          Deputy Secretary, as the Department’s audit
                                                       followup official, resolves any disagreements
Resources                                              about recommendations.

This Division has 8 FTE with the following             Management officials are required to provide the
allocation:                                            OIG with documentation showing the
                                                       completion of corrective actions, including
                                                       reporting of collection actions until the amounts
                                                       due VA are either collected or written off. OIG
               
                                                    staff evaluates information submitted by
                                 	
 

                                   
                                                       management officials to assess both the
                                                       adequacy and timeliness of actions and to
                                                       request periodic updates on an ongoing basis.
                                 

                                  
                                                       As of September 30, 1999, VA had 108 open
                                                       internal OIG reports with 298 resolved but
                                                       unimplemented recommendations and 43
                      
                        
                                                       unresolved contract review recommendations
                                                       which are awaiting contracting officer’s
                                                       decisions.
Overall Performance
                                                       After obtaining information that showed
                                                       management officials had fully implemented
Followup on OIG Reports
                                                       corrective actions, the Division took action to
                                                       close 67 internal reports and 230
The Division is responsible for obtaining
                                                       recommendations with a monetary benefit of
implementation actions on audits, inspections,
                                                       $464 million.
and reviews with over $1 billion of actual or
potential monetary benefits as of September 30,
                                                       During this period, 100 percent of followup
1999. Of this amount $909 million is resolved,
                                                       requests on immediate actions were sent within
but not yet realized as VA has agreed to
                                                       three months. Also, 100 percent of the initial




                                                  68
                                                          Office of Management & Administration

and the subsequent followup letters were                 over 1 year old; seven of these were from the
processed in less than 3 months. In both cases,          same requester. The average processing time for
we met the standard.                                     workable FOIA requests considered complex
                                                         was 83 working days; while routine cases took
FOIA, Privacy Act, and Other Disclosure                  11 working days.
Activities
                                                         Electronic FOIA activities are now reported in
The Division processes all OIG FOIA and                  the Information Technology Division report,
Privacy Act requests from Congress (on behalf            which follows this Division’s report.
of constituents), veterans, veterans service
organizations, VA employees, news media, law             Review and Impact of Legislation and
firms, contractors, complainants, general public,        Regulations
and subjects/witnesses of inquiries and
investigations. In addition, the Division                The Division coordinated concurrences on
processes official requests for information and          legislative and regulatory proposals from the
documents from other Federal Departments and             Congress, Office of Management and Budget,
agencies, such as the Office of Special Counsel,         and the Department that relate to VA programs
the Department of Justice, and the FBI. These            and operations. The OIG commented and made
requests require the review and possible                 recommendations concerning the impact of the
redacting of OIG hotline, healthcare inspection,         legislation and regulations on economy and
criminal and administrative investigation,               efficiency in the administration of programs and
contract audit, and internal audit reports and           operations or the prevention and detection of
files. It also processes OIG reports and                 fraud and abuse. During this period, 86
documents to assist VA management in                     legislative, 30 regulatory, and 48 administrative
establishing evidence files used in taking               proposals were reviewed and commented on, as
administrative or disciplinary actions against VA        appropriate.
employees.

During this reporting period, we processed 220
requests under the Freedom of Information and
Privacy Acts and released 259 audit,
investigative, and other OIG reports. In one
instance we had no records. We totally denied
four requests under the appropriate exemptions
of the Acts. Information was partially withheld
in 156 requests because release would have
constituted an unwarranted invasion of personal
privacy, interfered with enforcement
proceedings, disclosed the identity of
confidential sources, disclosed internal
Department matters, or was specifically
exempted from disclosure by statute.

During this period, 12 FOIA cases did not
receive written responses within 20 working
days, as required. Eleven complex cases were




                                                    69
Office of Management & Administration

III. INFORMATION                                         Resources
TECHNOLOGY DIVISION                                      The Division has 6 FTE currently assigned to
                                                         the OIG headquarters and allocated to the
                                                         following areas:
Mission Statement

    Promote OIG organizational effectiveness
    and efficiency by ensuring the accessibility,                    

                                                                                              


                                                                  

    usability, and security of OIG information                        
                                                                                               !
"#
                                                                                                 $
    assets; developing, maintaining, and
    enhancing the enterprise database
    application; facilitating reliable, secure,
    responsive, and cost-effective access to this
    database, VA databases, and electronic                                                    %
                                                                                              $
    mail by all authorized OIG employees;                       !' %
                                                                  !
'
    providing Internet document management                         $
    and control; and providing statistical                                      !"""&
                                                                                   $
    consultation and support to all OIG
    components.

The Division provides information technology             Overall Performance
(IT) and statistical support services to all
components of the OIG. It has responsibility for         Master Case Index (MCI)
the continued development and operation of the
management information system known as the               We completed the initial implementation of an
Master Case Index (MCI), as well as the OIG’s            Oracle database application known as MCI to
Internet resources. The Division interfaces with         replace a non-Y2K compliant 9-year old legacy
VA IT units nationwide to establish and support          Oracle application. This implementation
local and wide area networks, uninterrupted              culminated a 10-month conversion of 18 forms
access to electronic mail, service personal              and 250 reports in the legacy application, as well
computers, detect and defeat computer threats,           as the creation of 20 additional forms, a new
and offer support in protecting all electronic           case numbering format, search tools, and an
communications. The Division, which is                   index to external reports of interest to the OIG.
managed by the OIG’s Chief Information                   The graphical user interface of MCI provides
Officer, represents the OIG on numerous intra-           users with intuitive access to their data denied
and inter-agency IT organizations and is                 them in the legacy application, which required
responsible for strategic planning for all OIG IT        experienced programmers to conduct on-line
requirements. Finally, a member of this division         queries. Additionally, users now have
serves as the OIG statistician.                          appropriate access to enterprise-wide data
                                                         instead of only data pertaining to their
                                                         operational directorate. Within the next
                                                         6 months, we intend to expand the user base
                                                         from approximately 40 in the legacy application
                                                         to all OIG employees. Data validation tables,
                                                         picklists, and search tools will result in increased




                                                    70
                                                          Office of Management & Administration

accuracy and non-duplication of data entered             departmental efforts to improve how the VA
into our enterprise database.                            uses the Internet to serve its customers.

Internet Technology/Security                             Statistical Support

The Division is responsible for processing and           The OIG statistician, part of the technical
controlling electronic publication of OIG                support team under the direction of the OIG's
reports, including maintaining the OIG websites          Chief Information Officer, provides statistical
and posting OIG reports on the Internet. We              consultation and support to the OIG. Statistical
posted frequently requested CAP, administrative          consultation involves providing assistance and
investigation, audit, and healthcare inspection          direction in the planning, designing, and
reports in our electronic reading room in                sampling for relevant IG projects. Statistical
compliance with the Electronic Freedom of                support includes providing assistance in the
Information Act. We published more than 20               implementation of a project's methodology to
additional audit reports, 40 Office of                   ensure that data collection, preparation, analysis,
Investigations press releases, and other OIG             and reporting are accurate and valid.
publications online. We added privacy
statements and made our website more                     During this period, the OIG statistician provided
accessible for the visually impaired in                  statistical consultation and support on 11
accordance with Department of Justice                    sampling plans for proposed audit projects, 3
guidance.                                                OHI proactive program evaluations, and 4 CAP
                                                         reviews. In addition, the statistician provided
In collaboration with the Offices of Audit and           statistical consultation on appropriate data and
Investigations within the OIG, we placed                 methods that could be used in support of two
Workers' Compensation Program case                       pending OHI evaluations for the upcoming fiscal
management and fraud detection resources                 year. Much of the proactive statistical analysis
online for VA managers. We published the                 of data was associated with VHA’s policies and
Office of Audit internal peer review guide for           procedures for discharge planning of long-term,
the Federal audit community for use in checking          nursing home patients, the treatment of veterans
conformance with Government auditing                     with hepatitis C, the quality of care provided at
standards.                                               selected VAMCs, and establishing appropriate
                                                         methods for assessing similarities and difference
At the request of Congressional staff, we created        in quality across centers.
an electronic copy of a CAP report on the North
Florida and South Georgia Veterans Health
System. We provided technical advice to OIG
FOIA staff on sensitive computer or systems
information that should be withheld from OIG
reports in order to protect system integrity.

We participated in departmental efforts in
improving information security including recent
budgetary, resources, and policy initiatives,
including the Department's participation in the
Government electronic white pages project and




                                                    71
Office of Management & Administration

                                                      materials for associated hearings in the
IV. RESOURCES                                         Department and with the Office of Management
MANAGEMENT DIVISION                                   and Budget.

                                                      The staff executed 99.83 percent of the OIG’s
Mission Statement                                     FY 1999 budget authority.

    Promote OIG organizational effectiveness          Human Resources Management
    and efficiency by providing reliable and
    timely management and administrative              During this period, the staff wrapped up the FY
    support services.                                 1999 recruitment and hiring campaign, bringing
                                                      on board 40 new employees. In addition, the
The Division provides support services for the        staff processed 175 personnel actions, 12 IG
entire OIG. Our services include personnel            awards, 40 AIG awards, 5 distinguished career
advisory services and liaison; budget                 awards, 2 outstanding career awards, 254 special
formulation, presentation, and execution;             contribution awards, 8 time-off awards, 7 quality
automated data processing programming and             step increases, and 4 on-the-spot awards.
support; travel processing; procurement; space
and facilities management; and general                Travel
administrative support.
                                                      OIG personnel travel almost continuously. As a
Resources                                             result, the Travel section processed 1,632 travel
                                                      and 32 permanent change of station vouchers in
                                                      addition to 17 new permanent change of station
The Division has 11 FTE currently assigned to
                                                      authorities and 27 amendments to existing
the OIG headquarters. The staff allocation for
                                                      authorities.
the five functional areas is as follows:
                                                      Administrative Support
                       )"&' !'
                          $
                                                      Several relocation projects were completed
                                                      during this period. These projects involved
        ,-
                                        substantial planning and coordination between
         
                                                      OIG staff and various outside parties to ensure a
                                                      smooth transition and minimal impact on work
                                      ()
          processes. The administrative staff works
                                       $
                                                      closely with building management to coordinate
                 *+                                  office renovation plans, telephone installation,
                                                   and the procurement of furniture and equipment.

                                                      In addition, this component processed 290
Overall Performance                                   procurement actions and reviewed and approved
                                                      each month the 42 statements received from the
Budget                                                OIG’s cardholders under the Government’s
                                                      purchase card program.
The staff assisted in the coordination and
preparation of the 2001 budget submission and




                                                 72
OTHER SIGNIFICANT OIG ACTIVITIES
President’s Council on Integrity                           Award for Excellence
and Efficiency (PCIE)
                                                           Pat Christ, Director, Health Systems
Federal Audit Executive Council                            Development Division, and a Registered Nurse,
                                                           was recognized for her outstanding leadership
The Assistant Inspector General (AIG) for                  and efforts on enhancing and strengthening the
Auditing serves on the Board of Directors of the           image and reputation of the OIG as a
Federal Audit Executive Council. The purpose               professional, impartial, and dynamic
of the Council is to discuss and coordinate on             organization.
issues affecting the Federal audit community in
general, and in particular, matters affecting audit        Award for Excellence
policy and operations of common interest to
members.                                                   The following OIG staff were recognized for the
                                                           assignment addressing VA’s Worker’s
PCIE Awards                                                Compensation Program.

On September 29, 1999, a number of OIG                     • The Office of Audit, Central Office
employees received recognition at the 2nd                  Operations Division -- Stephen Gaskell,
Annual PCIE/Executive Council on Integrity                 Director; James Farmer, audit manager; Sandra
and Efficiency Awards Program. This year’s                 Miller, lead auditor; and Melvin Reid, staff
program was particularly gratifying as our                 auditor.
organization was recognized in several different
IG categories.                                             • The Office of Management and
                                                           Administration, Hotline and Data Analysis
Career Achievement Award                                   Division -- Roger Perez, Director; Emil L.
                                                           Balusek, supervisory computer specialist; and
Michael J. Costello, our recently retired AIG for          Trudy Pickle, computer specialist.
Investigations, received recognition of his
outstanding leadership and many contributions              • The Office of Investigations, Central
to Federal law enforcement. His                            Office, Northeast Field Office, and Western
accomplishments have resulted in fines,                    Field Office -- James Gaughran, Program
penalties, restitutions, recoveries and other              Director, benefits fraud; Bruce Sackman, Special
monetary benefits valued at over $300 million.             Agent in Charge (SAC), Northeast Field Office;
                                                           John McDermott, Assistant SAC, Northeast
Award for Excellence – Financial                           Field Office; Claire Chico, special agent;
Statement Audit Network Group                              Thomas Hill, SAC, Western Field Office; John
                                                           Hambrick, Assistant SAC, Western Field Office;
John Jonson, Director, Financial Management                and Wayne Nomi, special agent.
Audit Division, was recognized for identifying
and resolving key issues related to the                    Honorable Mention
preparation and audit of Federal financial
statements.                                                • Atlanta Audit Operations Division --
                                                           James Hudson, Floyd Dembo, George Patton,
                                                           Marcia Drawdy, Scott Harris, Harvey Hittner,




                                                      73
Other Significant OIG Activities

Thomas Holloway, John Richardson, Leon                  • Managers from the Seattle Audit Operations
Roberts, Mu Taalib, Cheri Preston, Emil                 Division gave a presentation on the use of
Balusek, Trudy Pickle, and John Hisnanick               automated information to improve medical
(OIG statistician) were given honorable mention         center supply inventory management.
for conducting an evaluation of VBA benefit
payments to incarcerated veterans to determine          • The Directors of the Atlanta and Seattle
whether recommendations made a 1986 OIG                 Audit Operations Divisions gave presentations
report were implemented.                                on the OIG’s Combined Assessment Program.

• Laney College Investigations Team --                  Washington, D.C. Law Firm Presentation
Michel Seitler, Alan Dal Porto, Patrick
McCormack, Dean Wauson, and Paul Lore, all              At the request of a Washington, D.C. law firm,
special agents in the Western Field Office, were        the OIG Counselor and Director, Contract
given honorable mention for their combined              Review and Evaluation Division, gave a
investigative efforts which led to criminal             presentation on the process used by the OIG to
convictions of two individuals involved, and            address voluntary disclosures made by
collateral civil proceedings involving over 200         companies concerning internal reviews that
individuals, in the largest education benefits          identify contract overcharges.
fraud scheme ever perpetuated against VA.
                                                        United States Surgical Corporation
OIG Management Presentations                            Presentation

VA Information Technology Conference                    The Director, and an audit manager in the
                                                        Contract Review and Evaluation Division, gave
The following OIG audit officials made                  a presentation on the OIG role in VA’s Federal
presentations at the Conference, which is VA’s          Supply Schedule contracting program.
premier conference on the innovative use of             Presentation topics included preaward and
information technology to improve VA                    postaward reviews, commercial selling
operations.                                             practices, and the effect of the GSA’s August
                                                        1997 final rule on the Federal Supply Schedule
• The Director, Central Office Audit                    program. The presentation was videotaped for
Operations Division; project manager of the             incorporation into their on-going training
audit of workers’ compensation; and the Special         program.
Agent in Charge, Northeast Field Office of
Investigations, gave a presentation on detecting        First Annual Federal Workers’
fraud and reducing workers’ compensation                Compensation Conference and
costs. Workers’ compensation officials from             Exposition
VISNs in Albany, NY and Long Beach, CA also
participated in the panel discussion.                   The Director, Central Office Audit Operations
                                                        Division, and the Special Agent in Charge,
• Managers from the Central Office Audit                Northeast Field Office of Investigations, gave a
Operations Division and the Financial                   presentation on detecting fraud and reducing
Management Audit Division gave a presentation           workers’ compensation costs. An official from
on audit issues identified concerning VA                the Austin Automation Center also participated
information security.                                   in the presentation by providing a demonstration
                                                        on the use of VA’s Workers’ Compensation




                                                   74
                                                                     Other Significant OIG Activities

Management Information System. The                       the House Committee on Veterans Affairs,
conference was a collaborative effort between            Subcommittee on Oversight and Investigations.
VA and several Federal agencies and provided             The testimony addressed the OIG’s views on
educational opportunities for managing claims            fraud and mismanagement in veterans benefits,
under the Federal Employees’ Compensation                debt management, and procurement and
Act.                                                     contracting activities and summaries of the OIG
                                                         audits and investigations in those areas.
VHA Information Security Conference
                                                         Obtaining Required Information or
VA OIG audit staff made a presentation on the            Assistance
results of our review of VHA ADP security
conducted as part of the FY 1998 Consolidated
                                                         Sections 5(a)(5) and 6(b)(2) of the Inspector
Financial Statements audit.
                                                         General Act of 1978 require the Inspector
                                                         General to report instances where access to
Association of Government Accountants
                                                         records or assistance requested was
Conference
                                                         unreasonably refused, thus hindering the ability
                                                         to conduct audits or investigations. During this
The Director, Financial Management Audit
                                                         6-month period, there were no reportable
Division, gave a presentation on using financial
                                                         instances under these sections of the Act.
analysis to develop operational audits at the Los
Angeles professional development conference.
                                                         Under P.L. 95-452, the IG has authority “… to
                                                         require by subpoena the production of all
Presentation to Leadership VA Alumni
                                                         information, documents, reports, answers,
Association
                                                         records, accounts, papers, and other data and
                                                         documentary evidence necessary . . . .” The use
The Inspector General made a presentation on
                                                         of IG subpoena authority has proven valuable in
the work of the OIG to the Leadership VA
                                                         our efforts, especially in cases dealing with third
Alumni Association Forum. This conference is
                                                         parties. During this reporting period, 16
organized by graduates of VA’s premier
                                                         subpoenas were issued in conjunction with
leadership development program.
                                                         various OIG investigations and audits.
OIG Congressional Testimony

In April 1999, the Deputy Assistant Inspector
General for Auditing and the Director and
project manager in the Central Office Audit
Operations Division testified before the House
Committee on Veterans’ Affairs Subcommittee
on Oversight and Investigations. The testimony
highlighted the OIG’s review and oversight of
VA’s efforts to address Y2K issues and become
Y2K compliant.

In September 1999, the Inspector General,
accompanied by the Assistant Inspector General
Auditing and the OIG Counselor, testified before




                                                    75
Other Significant OIG Activities




                                   76
                                         APPENDIX A
                           DEPARTMENT OF VETERANS AFFAIRS
                             OFFICE OF INSPECTOR GENERAL
                                 REVIEWS BY OIG STAFF

  Report                                                           Funds Recommended
 Number/                                                              for Better Use    Questioned
Issue Date                   Report Title                           OIG      Management   Costs

COMBINED ASSESSMENT PROGRAM
9IGCAP502 Combined Assessment Program Review North
4/22/99   Florida and South Georgia Veterans Health System

9IGCAP503 Combined Assessment Program Review of the
6/30/99   Southern Nevada Veterans Healthcare System

9IGCAP504 Combined Assessment Program Review Louis Stokes
9/24/99   Cleveland VA Medical Center, Cleveland, OH

INTERNAL AUDITS
9R1F05088    Audit of Department of Veterans Affairs Medical and
5/3/99       Regional Office Togus, ME

9D2G07049 Audit of VA's Year 2000 Implementation Effort             $1,521,000    $1,521,000
6/10/99

9R5D02118 Audit of Department of Veterans Affairs Minor            $22,470,821 * $14,000,000
6/14/99   Construction and Nonrecurring Maintenance
          Programs

9ANG10117 Report of Department of Veterans Affairs Enterprise
6/22/99   Centers Financial Statement Audit for the Fiscal Year
          Ended September 30, 1998

9R4A19124 Audit of Veterans Health Administration Emergency         $4,575,000    $4,575,000
6/28/99   Medical Strategic Healthcare Group

OTHER OFFICE OF AUDIT REVIEWS

9D2G01002 Protocol Package for Veterans Integrated Service
4/14/99   Network (VISN) Workers' Compensation Program
          (WCP) Case Management and Fraud Detection

9D2G01064 Handbook for VA Facility Worker's Compensation
4/14/99   Program (WCP) Case Management and Fraud
          Detection

* Management disagreed with OIG estimate.


                                                    77
Report                                                          Funds Recommended
 Number/                                                           for Better Use    Questioned
Issue Date                    Report Title                        OIG     Management   Costs

OTHER OFFICE OF AUDIT REVIEWS (Cont’d)
9AFG10086 Management Letter: Expenditure Transactions
4/15/99

9AFG10087 Management Letter: ADP Security at Philadelphia
4/22/99   Regional Office and Insurance Center and Benefits
          Delivery Center

9R1G01089 Management Advisory: Selected Financial
4/30/99   Operations and Evaluation of Internal Controls, VA
          Boston Healthcare System

9R1G01090 Management Advisory: Selected Financial
4/30/99   Operations and Evaluation of Internal Controls, VA
          Pittsburgh Healthcare System

9AFG10098 Management Letter: ADP Security at Hines Benefits
5/6/99    Delivery Center

9R5B10099    Underwriting Practices Carolina Mortgage Company
5/6/99       of Fayetteville, NC

9R5B04103    Accuracy of Data Used to Measure Percent of
5/12/99      Veterans With a VA Burial Option

9AFG10097 Management Letter: ADP Security at Veterans Health
5/13/99   Administration

9R1G10100 Management Letter: Fiscal Year 1998 Financial
5/21/99   Statements, VA Life Insurance Programs and
          Selected Loan Guaranty Program Financial Activities

9AFG10106 Management Letter: ADP Security at Veterans
6/1/99    Benefits Administration

9R4G10116 Management Letter: Fiscal Year 1998 Consolidated
6/14/99   Financial Statement Audit – Benefit Programs

9R8A03113 Evaluation of Veterans Health Administration           $39,794,000 * $38,832,000
6/18/99   Management of Employee Quarters at VA Medical
          Centers

9R5B10123    Underwriting Practices, Southtrust Mortgage
6/23/99      Corporation Birmingham, AL

9R1B18127    Evaluation of Veterans Benefits Administration's
6/30/99      Implementation of Customer Service Standards

* Management disagreed with OIG estimate.



                                                     78
Report                                                          Funds Recommended
 Number/                                                           for Better Use    Questioned
Issue Date                    Report Title                        OIG     Management   Costs

OTHER OFFICE OF AUDIT REVIEWS (Cont’d)
9R4A02133 Evaluation of Veterans Health Administration          $114,000,000 $114,000,000
7/23/99   Radiology and Nuclear Medicine Activities

9D2A19121 Review of Hotline Complaints Concerning Issues
8/12/99   Raised by Clinical Staff Questioning the
          Effectiveness of the Leadership and Management of
          the West Palm Beach VA Medical Center

9R4A01146 Report of Evaluation, William S. Middleton
8/16/99   Memorial Veterans Hospital Madison, WI

9R5A19161 Accuracy of Data Used to Count the Number of
9/20/99   Unique Patients

9D2A19157 Survey Results - Audit of the Management and
9/21/99   Operations of the Florida/Puerto Rico Veterans
          Integrated Service Network

9R8E04164    Evaluation of Allegations Concerning Supply            $75,000       $75,000
9/23/99      Management Practices at the Blind Rehabilitation
             Center, VA Medical Center Augusta, GA

CONTRACT REVIEWS *

9PEX20080 Survey of Allergan Incorporated's Public Law 102-
4/5/99    585, Section 603, Policy and Procedures

9PEX20085 Review of Nycomed, Inc.'s (Nycomed) Voluntary                                         $46,716
4/9/99    Disclosure Under Federal Supply Schedule Contract
          V797P-5982n

9PEX06081 Review of Federal Supply Schedule Proposal
4/16/99   (Solicitation Number M3-Q3-97) Submitted by Pelton
          & Crane, Inc., Charlotte, NC

9PEX04095 Review of Federal Supply Schedule Proposal               $138,087
5/5/99    (Solicitation Number M3-Q4-97) Konica Medical
          Corporation, Wayne, NJ

9PEX20071 Report of Survey – Serono Laboratories Inc.'s
5/6/99    (Serono) Implementation of Section 603 Drug Pricing
          Provisions of Public Law 102-585

* Management estimates are not applicable to contract reviews. Cost avoidances resulting from these
reviews are determined when the OIG receives the contracting officer’s decision on the report
recommendations.


                                                     79
Report                                                            Funds Recommended
 Number/                                                             for Better Use    Questioned
Issue Date                   Report Title                           OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)
9PEX20101 Survey of Fujisawa Healthcare, Inc., Public Law 102-
5/10/99   585, Section 603, Policies and Procedures

9PEX25096 Final Report, Audit of Termination for Convenience
5/13/99   Claim Submitted By Abt Associates, Inc., Contract
          Number V01(93)P-1446, Bethesda, MD

9PEX10102 Review of Sannipoli Corporation dba Whited                 $118,840
5/14/99   Cemetery Service's Offer to Provide Single and
          Double-Depth Graveliners Under IFB 786-5-99,
          Romoland, CA

9PEX20105 Survey of Forest Laboratories, Inc.'s Public Law 102-                             $69,448
5/17/99   585, Section 603 Policies and Procedures

9PEX20093 Review of Immunex Corporation's Implementation of                                 $32,825
5/18/99   Section 603 Drug Pricing Provisions of Public Law
          102-585 Under Federal Supply Schedule Contract
          Numbers V797P-5307n and V797P-5280x

9PEX20111 Review of UDL Laboratories Inc.'s Implementation
5/19/99   of Section 603, Drug Pricing Provisions of Public
          Law 102-585, Under Federal Supply Schedule
          Contract Number V797P-5335x

9PEX20094 Survey of Upsher-Smith Laboratories, Inc.'s Public                                $12,356
6/15/99   Law 102-585, Section 603 Policies and Procedures

9PEX09122 Settlement Agreement Related to Overcharges on a                                $1,252,869
6/17/99   Medical Equipment Contract

9PEX20125 Report of Survey – Roberts Pharmaceutical
6/25/99   Corporation Implementation of Section 603 Drug
          Pricing of Public Law 102-585

9PEX20126 Survey of Boehringer Ingelheim Pharmaceuticals,
6/29/99   Inc.'s Implementation of Section 603, Drug Pricing
          Provisions of Public Law 102-585 Under Federal
          Supply Schedule Contract Number V797P-5100n

9PEX19070 Review of Federal Supply Schedule (Contract                                        $8,457
7/8/99    Number V797P-6566a) Tosoh Medics, Inc., South
          San Francisco, CA

9PEX20131 Fujisawa Healthcare (USA), Inc., Reimbursement for                                   $178
7/9/99    Miscalculation of N-FAMP Data




                                                    80
Report                                                          Funds Recommended
 Number/                                                           for Better Use    Questioned
Issue Date                   Report Title                         OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)
9PEX20058 Report of Survey – Solvay Pharmaceuticals
7/20/99   Implementation of Section 603 Drug Pricing
          Provisions of Public Law 102-585

9PEX11136 Postaward Review of Federal Supply Schedule                                      $7,869
7/21/99   Contract V797P-5512m, Awarded to 3M
          Pharmaceuticals

9PEX01139 Review of Federal Supply Schedule Proposal              $1,127,908
8/6/99    (Solicitation Number M5-Q50-97) Baxter Healthcare
          Corporation – Hyland Division, Deerfield, IL

9PEX05150 Review of Federal Supply Schedule Proposal              $9,124,049
8/18/99   (Solicitation Number M3-Q2B-98) Johnson &
          Johnson Health Care System on Behalf of Ethicon,
          Inc. and Ethicon Endo-Surgery, Inc., Piscataway, NJ

9PEX05135 Review of Federal Supply Schedule Proposal               $107,534
8/20/99   (Solicitation Number M3-Q2B-98) Phoenix Medical
          Technology, Inc., Andrews, SC

9PEX12083 Postaward Survey of Boehringer Mannheim Patient
8/20/99   Care Systems, Federal Supply Schedule Contract
          V797P-5261n

9PEX20148 Review of Voluntary Disclosures on Federal Supply                              $127,527
8/20/99   Schedule Contracts V797P-5728m, V797P-5554m
          and V797P-5354x Submitted By Novartis
          Pharmaceutical Corporation

9PEX20152 Survey of G.D. Searle & Co.'s Public Law 102-585
8/23/99   Section 603 Policies and Procedures

9PEX20153 Review of Novo Nordisk Pharmaceuticals Inc.'s
8/25/99   Implementation of Section 603, Drug Pricing
          Provisions of Public Law 102-585, Under Federal
          Supply Schedule Contract Numbers V797P-5057n
          and V797P-5224x

9PEX11155 Review of Voluntary Disclosure and Refund Offer                                 $15,105
9/9/99    Submitted by Paddock Laboratories, Inc., Contract
          Number V797P-5162x

9PEX20156 Review of a Voluntary Disclosure of a Public Law                                 $1,245
9/9/99    102-585, Section 603 Computation Error and Refund
          Offer Submitted by Amgen, Inc., Contract Number
          V797P-5190x


                                                   81
Report                                                         Funds Recommended
 Number/                                                          for Better Use    Questioned
Issue Date                   Report Title                        OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)
9PEX20134 Survey of Copley Pharmaceutical Inc., Public Law                                 $455
9/14/99   102-585, Section 603, Policies and Procedures

9PEX05158 Review of Federal Supply Schedule Proposal              $675,356
9/17/99   (Solicitation Number M3-Q2B-98) Kimberly-Clark
          Corporation Roswell, GA

9PEX20160 Report of Survey – Bracco Diagnostics Inc.
9/21/99   Implementation of Section 603 Drug Pricing
          Provisions of Public Law 102-585

9PEX19165 Postaward Review of Food Services Prime Vendor
9/22/99   Program (Contract Number 10-193P-1540)
          PVA/Monarch Food Services, Greenville, SC

9PEX16171 Postaward Review – Voluntary Disclosure on Federal                               $399
9/23/99   Supply Schedule Contract V797P-3378k, by Crown
          Therapeutics, Inc.

9PEX18172 Postaward Review of Federal Supply Schedule
9/23/99   Contract V797P-3602j, IVAC Corporation, San
          Diego, CA

9PEX18173 Postaward Review of Federal Supply Schedule
9/23/99   Contract V797P-3793j, Karl Storz Endoscopy-
          America

9PEX18175 Postaward Review of Federal Supply Schedule
9/23/99   Contract V797P-3983j, Zimmer, Inc.

9PEX19166 Postaward Review of Food Services Prime Vendor                                 $42,663
9/23/99   Program (Contract Number 10-193P-1539) Avalon
          Distributing, Inc., Canal Fulton, OH

9PEX20162 Survey Report - The Liposome Company, Inc.'s
9/23/99   Implementation of Section 603 Drug Pricing
          Provisions of Public Law 102-585, Federal Supply
          Schedule Contracts V797P-5938n and V797P-5131x

9PEX20163 Survey Report - Medeva Pharmaceuticals, Inc.'s
9/23/99   Implementation of Section 603, Drug Pricing
          Provisions of Public Law 102-585, Federal Supply
          Schedule Contracts V797P-5536m, V797P-5197x,
          and V797P-5577m

9PEX20168 Report of Survey – Ferndale Laboratories, Inc.
9/23/99   Implementation of Section 603 Drug Pricing
          Provisions of Public Law 102-585

                                                   82
Report                                                              Funds Recommended
 Number/                                                               for Better Use    Questioned
Issue Date                    Report Title                            OIG     Management   Costs

CONTRACT REVIEWS (Cont’d)
9PEX20170 Survey of ICN Pharmaceutical's Implementation of
9/23/99   Section 603, Drug Pricing Provisions of Public Law
          102-585, Under Federal Supply Schedule Contract
          V797P-5658m

9PEX20174 Report of Survey – Centeon LLC's Implementation of
9/23/99   Section 603, Drug Pricing Provisions of Public Law
          102-585

9PEX18176 After Contract Rebate Settlement Agreement, Federal                                $108,952
9/24/99   Supply Schedule Contract V797P-3622j, Angelica
          Image Apparel, St. Louis, MO

ADMINISTRATIVE INVESTIGATIONS
9PRE11057    Administrative Investigation, Justification for the
4/15/99      Lease of Non-Standard Passenger Vehicles by the
             Veterans Health Administration, VA Central Office

9PRA01110 Review of the Reliability of an Administrative Board
6/4/99    of Investigation Concerning a Patient Search and
          Recovery, VA New Jersey Health Care System,
          Lyons Campus

9PRA99060 Administrative Investigation, Time and Attendance
6/22/99   Issues, VAMC Salisbury, NC

9PRE11114    Administrative Investigation, Procurement and Use of                              $4,992
6/22/99      a Government Vehicle and Other Issues, Veterans
             Integrated Service Network, Boston, MA

9PRQ02144 Administrative Investigation, Voluntary Leave
8/3/99    Transfer Program Administration Issues, VA
          Central Office

9IQA99142    Administrative Investigation, Use of Vehicles and
8/5/99       Telephones By Union Officials, and Reprisal Issues,
             VA Ambulatory Care Center, Las Vegas, NV

9IQE99132    Administrative Investigation, Use of Local Supply
8/11/99      Funds for Travel by Various Acquisition and Materiel
             Management Service Chiefs, VA Central Office,
             Washington, DC

9PRE03143    Administrative Investigation, Contracting Issues at
9/15/99      the VA Chicago Health Care System, Chicago, IL



                                                      83
Report                                                              Funds Recommended
 Number/                                                               for Better Use    Questioned
Issue Date                    Report Title                            OIG     Management   Costs

ADMINISTRATIVE INVESTIGATIONS (Cont’d)
9IQE06154    Administrative Investigation, Use of a Government
9/16/99      Vehicle for an Unofficial Purpose, Ralph H. Johnson
             VA Medical Center, Charleston, SC

9DQG02169 Administrative Investigation, Privacy Act Issue,
9/23/99   Office of Human Resources Management, VA
          Central Office

HEALTHCARE INSPECTIONS
9HIA28084    Preliminary Assessment of the Veteran Health
4/8/99       Administration's Missing Patient Search Procedures

9HIA28091    Inspection of Alleged Poor Quality of Care of Three
4/28/99      Nursing Home Care Patients, Department of Veterans
             Affairs Central Alabama Veterans Health Care
             System, East Campus, Tuskegee, AL

9HIA28092    Inspection of Alleged Inadequate Treatment for
4/28/99      Aortic Stenosis, Department of Veterans Affairs
             Medical Center Denver, CO

9HIA28104    Inspection of Alleged Undetected Nursing Home
5/13/99      Patient's Death, and Alleged Elopement and
             Subsequent Death of a Psychiatric Patient,
             Department of Veterans Affairs Medical Center
             Northport, NY

9HIF03107    Quality Program Assistance Review, Department of
5/13/99      Veterans Affairs Medical Center, Baltimore, MD

9HIA28108    Inspection of Alleged Denial of a Patient's Rights
5/17/99      Department of Veterans Affairs Medical Center
             Northport, NY

9HIA28109    Inspection of Alleged Poor Quality of Care in the
5/17/99      Dialysis Unit, John J. Cochran Division of the
             Department of Veterans Affairs Medical Center, Saint
             Louis, MO

9HIA28112    Inspection of Multiple Allegations of Pharmacy
5/26/99      Service Mismanagement and Substandard Patient
             Care, VA San Diego Healthcare System,
             San Diego, CA




                                                       84
Report                                                              Funds Recommended
 Number/                                                               for Better Use    Questioned
Issue Date                    Report Title                            OIG     Management   Costs

HEALTHCARE INSPECTIONS (Cont’d)
9HIA28128    Inspection of Alleged Substandard Care and
6/29/99      Unprofessional Treatment VA Gulf Coast Veterans
             Health Care System Biloxi, MS

9HIA28129    Inspection of Alleged Patient Abuse VA Gulf Coast
6/29/99      Veterans Health Care System Biloxi, MS

9HIA28130    Inspection of Alleged Ventnor, New Jersey
6/29/99      Outpatient Clinic Inefficiencies Department of
             Veterans Affairs Medical and Regional Office Center
             Wilmington, DE

9HIA28119    Oversight Review of Selected Aspects of the Veterans
6/30/99      Health Administration's Traumatic Brain Injury
             Program

9HIA28137    Inspection of Alleged Poor Quality of Care, William
7/30/99      S. Middleton Memorial Veterans Hospital,
             Madison, WI

9HIA28140    Inspection of Two Alleged Serious Patient Falls,
7/30/99      Central Alabama Veterans Health Care System,
             Tuskegee, AL

9HIA28141    Inspection of Alleged Substandard Patient Care and
7/30/99      Administrative Discrepancies, Chattanooga
             Outpatient Clinic, Chattanooga, TN

9HIA28145    A Review of the Policy and Function of the Veterans
8/11/99      Health Administration's Deans Committees For
             Academic Year 1996

9HIA28151    Inspection of Allegedly Inappropriate Open Heart
9/10/99      Surgery Department of Veterans Affairs Medical
             Center West Los Angeles, CA

9HIA28159    Inspection of Allegedly Inappropriate Visually
9/16/99      Impaired Services, Department of Veterans Affairs
             Medical Center Augusta, GA

9HIA28167    Inspection of the Management of a Missing Patient,
9/21/99      Department of Veterans Affairs Medical Center
             Butler, PA

TOTAL:                          102 Reports                         $193,727,595 $173,003,000   $1,732,056




                                                      85
86
                                       APPENDIX B
                        DEPARTMENT OF VETERANS AFFAIRS
                          OFFICE OF INSPECTOR GENERAL
                      CONTRACT REVIEWS BY OTHER AGENCIES

                                                                                 Funds
 Report                                                                       Recommended
 Number/                                                                       for Better Unsupported
Issue Date                        Report Title                                     Use       Costs

8PEN02013    Claim, Contract No. V101bc131, Ambulatory Care Addition,            $3,787,571
4/6/99       VAMC San Juan, J. A. Jones Construction Co., Charlotte, NC

9PEN03106    Termination for Default, Cont. V673c-403, Construction, VAMC
4/6/99       Tampa, David Boland, Inc., Titusville, FL

9PEN02102    Proposal, Project No. 612-101f, A/E, SMP-SHG, VAOPC                   $78,323      $68,334
4/21/99      Fairfield, San Francisco, CA

9PEN03109    Claim, Contract No. V630c-415, Replace Fire Alarm System,             $28,053
4/28/99      VAMC Bronx, Eaton Electric, Inc., Bronx, NY

8PEN03002    Proposal, RFP 614-32-98, Radiologists - VAMC Memphis, TN,             $98,115      $45,000
5/3/99       University of Tennessee, Memphis, TN

9PEN02104    Proposal, Project No. 600-401, A/E, VAMC Long Beach, HMC                         $1,052,746
5/12/99      Group, Ontario, CA

9PEN03107    Claim, Contract No. V621c-505, Correct Lake Drainage, VAMC           $300,626
5/12/99      Mountain Home, Carpenter Construction, Inc., Robbinsville, NC

9PEN03110    Proposal, RFP No. 646-37-98, Construction, VAMC Pittsburgh,          $357,151
5/12/99      TJR Enterprises, Pittsburgh, PA

8PEN03109    Proposal, RFP No. 688-67-97, Replace Essential Power, VAMC
6/8/99       Washington, Ferguson & Ramey, Inc., Largo, MD

9PEN02103    Claim, Project No. 610-090, Construction, VAMC Marion, Caddell       $122,999
6/16/99      Construction Co., Montgomery, AL

8PEN02108    Proposal, Project No. 640-042h, Road Improvements, VAMC Palo
6/29/99      Alto, DJM/REZA Construction, Cerritos, CA

9PEN03108    Proposal, Project No. 543-015, Sprinkler & Fire Alarm, VAMC         $1,109,745
7/27/99      Columbia, Fire Security System, Inc., Bossier City, LA




                                                   87
                                                                              Funds
 Report                                                                    Recommended
 Number/                                                                    for Better Unsupported
Issue Date                         Report Title                                 Use       Costs

9PEN03111     Claim, Contract No. V640p-5285, Transportation Services,         $1,463,111
8/18/99       VAHCS Palo Alto, Bay Trans Company, Inc., Santa Clara, CA

8PEN02007     Proposal, Project No. 614-011, Seismic/Modernization, VAMC       $1,912,868
9/15/99       Memphis, Caddell Construction Company, Memphis, TN

9PEN02108     Claim, Project No. 685-077, Roofing, VAMC Waco, Young              $442,774
9/15/99       Enterprises Sherman, TX

TOTALS:                                15 Reports                              $9,701,336    $1,166,080

The Defense Contract Audit Agency completed 14 of the 15 reports issued. This data is also reported in
the Department of Defense OIG's Semiannual Report to Congress.




                                                    88
                                             APPENDIX C
               CONTRACT REVIEW REPORTS FOR WHICH A CONTRACTING
                 OFFICER DECISION HAD NOT BEEN MADE FOR OVER
                       6 MONTHS AS OF SEPTEMBER 30, 1999

                                                             Recommended      Reason for Delay
                                                   Questioned Better Use      and Planned Date
 Report Title, Number, and Issue Date                Costs      of Funds       for a Decision

 Contract Reviews by OIG

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT
Review of Federal Supply Schedule Proposal                     $5,484,450   Pending receipt of
(Solicitation No. M5-Q50-97), Wyeth-Ayerst                                  Contracting Officer Price
Laboratories, Philadelphia, PA, 7PE-E02-127, 9/4/97                         Negotiation Memorandum
                                                                            (PNM); no planned decision
                                                                            date available.

Review of Federal Supply Schedule Proposal                     $7,893,240   Pending receipt of
(Solicitation Number M5-Q50-97), Boehringer                                 Contracting Officer PNM;
Ingelheim Pharmaceuticals, Inc., Ridgefield, CT,                            no planned decision date
8PE-E02-021, 10/16/97                                                       available.

Review of Federal Supply Schedule Proposal                     $2,468,847   Pending receipt of
(Solicitation Number M3-Q4-97), Medrad, Inc,                                Contracting Officer PNM;
Indianola, PA, 8PE-E02-084, 3/19/98                                         anticipated award date is
                                                                            October 31, 1999.

Audit of Claims and Requests for Equitable                      $394,154    Claim in litigation; no
Adjustments Submitted by Bay Construction                                   planned resolution date
Company, Contract Number V662C-1439,                                        available.
8PE-E10-082, 3/25/98

Review of Federal Supply Schedule Proposal                                  Pending receipt of
(Solicitation Number M3-Q3-97), Midwest Dental                              Contracting Officer PNM;
Products Corporation (a Wholly Owned Subsidiary of                          no planned decision date
Dentsply International, Inc.), Des Plaines, IL,                             available.
8PE-E02-089, 3/31/98

Review of Federal Supply Schedule Proposal                     $1,695,678   Pending receipt of
(Solicitation Number M3-Q3-97), Star Dental,                                Contracting Officer PNM;
Lancaster, PA, 8PE-E02-109, 6/3/98                                          anticipated award date is
                                                                            October 31, 1999.

Audit of Termination Settlement Proposal and Claims             $333,886    Resolution of
for Equitable Adjustment Submitted by Bar-Con                               recommendation pending
Corporation Contract V523C-1129,                                            availability of funds to pay
8PE-D03-112, 6/24/98                                                        claim; anticipated payment
                                                                            by October 31, 1999.



                                                      89
                                                           Recommended      Reason for Delay
                                                 Questioned Better Use      and Planned Date
 Report Title, Number, and Issue Date              Costs      of Funds       for a Decision

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT (Cont’d)

Audit of Claim for Alleged Damages Under an                   $318,008    Claim in litigation; no
Agreement with a VAMC, 8PE-A12-104, 7/1/98                                planned decision date
                                                                          available.

Review of Federal Supply Schedule Proposal                   $9,340,040   Claim in litigation; no
(Solicitation Number M3-Q4-97), Imation Enterprises                       planned decision date
Corporation Oakdale, MN, 8PE-E02-108, 7/20/98                             available.

Review of Federal Supply Schedule Proposal                     $87,425    Pending receipt of
(Solicitation Number M3-Q3-97), Nobel Biocare USA,                        Contracting Officer PNM;
Inc., Westmont, IL, 8PE-X06-148, 9/30/98                                  no planned decision date
                                                                          available.

Review of Federal Supply Schedule Proposal                  $17,989,200   Pending receipt of
(Solicitation Number M3-Q4-97) Eastman Kodak                              Contracting Officer PNM;
Company, Rochester, NY, 9PE-X04-004, 11/30/98                             no planned decision date
                                                                          available.

Review of Federal Supply Schedule Proposal                   $2,409,502   Pending receipt of
(Solicitation Number M5-Q50-97) Baxter Healthcare                         Contracting Officer PNM;
Corporation, Deerfield, IL, 9PE-X01-022, 2/4/99                           no planned decision date
                                                                          available.

Review of Federal Supply Schedule Proposal                    $680,400    Pending receipt of
(Solicitation Number M3-QF-98) Everest & Jennings,                        Contracting Officer PNM;
Earth City, MO, 9PE-E02-036, 2/23/99                                      anticipated award date is
                                                                          October 31, 1999.




                                                      90
                                      Recommended                               Reason for Delay
                                        Better Use Unsupported                  and Planned Date
 Report Title, Number, and Issue Date    of Funds     Costs                      for a Decision

 Contract Reviews by Other Agencies

 OFFICE OF ACQUISITION AND MATERIEL MANAGEMENT

Claim, Contract V101DC-0048, Expand/Renovate            $1,469,934            Claim in appeal; planned
Bldg-1, VAMC Salt Lake, Interwest Construction Salt                           resolution date not
Lake City, UT, 7PE-N03-114, 9/30/97                                           available.

Proposal, Contract No. V662C1404 Install Energy           $298,715            Pending Board of Contract
Management System, VAMC San Francisco, Ramlor                                 Appeal scheduling
Construction, Inc., Pleasanton, CA, 8PE-N03-118,                              Alternative Dispute
3/17/99                                                                       Resolution; no planned
                                                                              resolution date available.

 OFFICE OF FACILITIES MANAGEMENT, VETERANS HEALTH ADMINISTRATION
Adjustment Claim, V101C-1606, Construction              $271,599              Negotiation not finalized;
Service, VAMC Albany, Bhandari Constructors Inc.,                             no planned resolution date
Syracuse, NY, 5PE-N02-007, 3/31/95                                            available.

Claim, Contract No. V101C-1651, Environment            $7,370,861             Negotiation not finalized;
Improvement, VAMC North Chicago, Blount Inc.                                  no planned resolution date
4PE-N02-202, 2/7/96                                                           available.

Claim, Contract V101C-1532, Asbestos Removal            $875,708     $1,898   Negotiation not finalized;
VAMC W. Roxbury, Saturn Construction Co., Inc.,                               resolution planned for next
Valhalla, NY, 5PE-N02-006, 2/23/96                                            reporting period.

Claim, Project No. 553-808, Replacement Hospital,     $11,952,726             Negotiation not finalized;
VAMC Detroit, MI, Bateson/Dailey, Dallas, TX,                                 no planned resolution date
6PE-N02-204, 12/11/96                                                         available.

Claim, Contract No. V101C-1603, Install Sprinklers,    $1,120,170             Negotiation not finalized;
VAMC Boston, L. Addison & Associates, Inc.,                                   no planned resolution date
Wakefield, MA, 6PE-N02-108, 12/19/96                                          available.

Proposal, Project No. 549-085, Clinical Addition,     $14,804,392             Negotiation not finalized;
VAMC Dallas, Centex Construction Company, Inc.,                               no planned resolution date
Dallas, TX, 7PE-N02-303, 5/20/97                                              available.

Proposal, Project No. 672-045, Change Order             $284,827              Negotiation not finalized;
Outpatient Clinic Add., VAMC San Juan, J. A. Jones                            planned resolution date
Construction Co., San Juan, PR,                                               December 31, 1999.
7PE-N02-007, 12/9/97




                                                        91
                                      Recommended                   Reason for Delay
                                        Better Use Unsupported      and Planned Date
 Report Title, Number, and Issue Date    of Funds     Costs          for a Decision

 OFFICE OF FACILITIES MANAGEMENT (Cont’d)

Claim, Project Nos. 549-085/031 A/E, VAMC                         Negotiation not finalized;
Dallas, Dahl Architects, Inc., /F&S Partner, Inc.,                no planned resolution date
Dallas, TX, 8PE-N02-110, 10/27/98                                 available.

Claim, Project No. 580-040, Electrical, VAMC         $3,280,340   Negotiation not finalized;
Houston, TX, Centex Bateson Construction                          no planned resolution date
Company, Inc., Dallas, TX, 5PE-N02-307, 2/18/99                   available.

 OFFICE OF THE GENERAL COUNSEL

Claim, Project No. 632-062, 120 Bed Nursing Home     $1,623,126   Claims consultant being
Care Unit, VAMC Northport, J.F. O’Healy                           hired by General Counsel to
Construction Corporation, Bayport, NY,                            assist in resolving claim; no
3PE-N02-001, 3/26/96                                              planned resolution date
                                                                  available.

Claim, Project No. 690-035 MFI Addition, VAMC         $724,755    General Counsel in
Brockton, Saturn Construction Co., Inc., Valhalla                 settlement discussions; no
NY, 6PE-N02-001, 5/19/97                                          planned resolution date
                                                                  available.

Claim, Contract No. V554C-684, Laundry Chute          $450,977    Claim in litigation; no
VAMC Denver, CO, Hughes-Groesch Construction                      planned resolution date
Co., Inc., Denver, CO, 7PE-N03-130, 3/31/97                       available.

Proposal, Project No. 543-015, Sprinkler & Fire       $503,356    Claim in litigation; no
Alarm Pro, VAMC Columbia Fire Security Systems,                   planned resolution date
Inc., Bossier City, LA, 8PE-N03-110, 3/19/98                      available.

 OFFICE OF GERIATRICS AND EXTENDED CARE, VETERANS HEALTH
 ADMINISTRATION

A-128, Fiscal Year Ended 6/30/96, State Approving                 Negotiation not finalized;
Agency Contract, State Home Construction &                        planned completion date
Nursing Home Care, State of Idaho, Boise, ID,                     could not be provided.
8PE-G06-046, 1/7/98

A-128, Fiscal Year Ended 6/30/95, State Approving                 Negotiation not finalized;
Agency Contract, State Home Construction &                        planned completion date
Nursing Home Care, State of Idaho, ID,                            could not be provided.
7PE-G06-058, 1/8/98

A-128, Fiscal Year Ended 6/30/96, State Approving                 Negotiation not finalized;
Agency Contract, State Veterans Home, State of                    planned completion date
Tennessee, Nashville, TN, 8PE-G06-047, 1/9/98                     could not be provided.




                                                      92
                                             APPENDIX D

                  FOLLOWUP/RESOLUTION OF OIG RECOMMENDATIONS

The Inspector General Act Amendments of 1988 require identification of all significant management decisions
with which the Inspector General is in disagreement and all significant and other recommendations unresolved
for over 6 months (management decisions not made). We had no Inspector General disagreements on significant
management decisions and there were no internal audit recommendations unresolved for over 6 months as of
September 30, 1999. Contract report recommendations unresolved for over 6 months are included in
Appendix C.

Following are tables which provide a summary of the number of OIG reports with potential monetary benefits
that were unresolved at the beginning of the period, the number of reports issued and resolved during the period
with potential monetary benefits, and the number of reports that remained unresolved at the end of the period.

                SUMMARY OF UNRESOLVED AND RESOLVED OIG AUDITS

As required by the IG Act Amendments, Tables 1 and 3 provide statistical summaries of unresolved and
resolved reports for the period April 1, 1999 – September 30, 1999. The dollar figures used throughout
this report are based on the definitions included in the IG Act Amendments of 1988. The figures are
current as of September 30, 1999, and may reflect changes from the data in the individual reports due to
OIG validation to ensure compliance with the IG Act Amendments definitions.

TABLE 1 - SUMMARY OF UNRESOLVED AUDIT REPORTS

Table 1 provides a summary of all unresolved reports and the length of time they have been unresolved.


                   MONTHS                TYPE AUDIT                 NUMBER           TOTAL
                     Over                Internal Audit                0
                                                                                        31
                   6 Months             Contract Review                 31
                   Less Than              Internal Audit                 0
                                                                                        18
                    6 Months            Contract Review                 18
                                                             TOTAL                      49

Tables 2 and 3 show a total of 43 reports that were unresolved as of September 30, 1999. This number
differs from the 49 reports shown above because tables 2 and 3 include only reports with monetary benefits
as required by the IG Act Amendments. Tables 2 and 3 also provide the reports resolved during the period
with the OIG estimates of disallowed costs and funds to be put to better use, including those in which
management agreed to implement OIG recommendations and those in which management did not agree to
implement OIG recommendations. The Assistant Secretary for Financial Management maintains data on
the agreed upon reports and Management estimates of disallowed costs and funds to be put to better use in
order to comply with the reporting requirements for the Secretary's Management Report to Congress,
required by the IG Act Amendments.

                                                       93
TABLE 2 - RESOLUTION STATUS OF REPORTS WITH QUESTIONED COSTS

Table 2 summarizes reports, the dollar value of questioned costs, and the costs disallowed and allowed.


                                                                    NUMBER            QUESTIONED
                    RESOLUTION STATUS                                 OF                  COSTS
                                                                    REPORTS            (In Millions)
    No management decision by 3/31/99                                     0                 $0
    Issued during reporting period                                       16                 $1.7
             Total Inventory This Period                                 16                 $1.7
    Management decision during reporting period
       Disallowed costs                                                  16                 $1.7
       Allowed costs                                                      0                 $0
            Total Management Decisions This Period                       16                 $1.7
            Total Carried Over to Next Period                             0                 $0


Definitions:

•   Questioned Costs
         For audit reports, it is the amounts paid by VA and unbilled amounts for which the OIG
recommends VA pursue collection, including Government property, services or benefits provided to
ineligible recipients; recommended collections of money inadvertently or erroneously paid out; and
recommended collections or offsets for overcharges or ineligible costs claimed.
        For contract review reports, it is contractor or grantee costs OIG recommends be disallowed by the
contracting officer, grant official, or other management official. Costs normally result from a finding that
expenditures were not made in accordance with applicable laws, regulations, contracts, grants, or other
agreements; or a finding that the expenditure of funds for the intended purpose was unnecessary or
unreasonable.

• Disallowed Costs are costs: that contracting officers, grant officials, or management officials have
determined should not be charged to the Government and which will be pursued for recovery; or on which
management has agreed that VA should bill for property, services, benefits provided, monies erroneously
paid out, overcharges, etc. Disallowed costs do not necessarily represent the actual amount of money that
will be recovered by the Government due to unsuccessful collection actions, appeal decisions, or other
similar actions.

•   Allowed Costs are amounts on which contracting officers, grant officials, or management officials
    have determined that VA will not pursue recovery of funds.




                                                    94
TABLE 3 – RESOLUTION STATUS OF REPORTS WITH RECOMMENDED
          FUNDS TO BE PUT TO BETTER USE BY MANAGEMENT

Table 3 summarizes reports with Recommended Funds to be Put to Better Use by management, and the
dollar value of recommendations that were agreed to and not agreed to by management.


                                                                  NUMBER            RECOMMENDED
                  RESOLUTION STATUS                                 OF             FUNDS TO BE PUT
                                                                  REPORTS           TO BETTER USE
                                                                                        (In Millions)

    No management decision by 3/31/99                                  40                 $226.3
    Issued during reporting period                                     26                 $205.9
           Total Inventory This Period                                 66                 $432.2
    Management decisions during reporting period
      Agreed to by management                                          16                 $214.4
      Not agreed to by management                                       7                 $101.6
           Total Management Decisions This Period                      23                 $316.0
           Total Carried Over to Next Period                           43                 $116.2


Definitions:
    Recommended Better Use of Funds
         For audit reports, it represents a quantification of funds that could be used more efficiently if
management took actions to complete recommendations pertaining to deobligation of funds, costs not
incurred by implementing recommended improvements, and other savings identified in audit reports.
         For contract review reports, it is the sum of the questioned and unsupported costs identified in
preaward contract reviews which the OIG recommends be disallowed in negotiations unless additional
evidence supporting the costs is provided. Questioned costs normally result from findings such as a
failure to comply with regulations or contract requirements, mathematical errors, duplication of costs,
proposal of excessive rates, or differences in accounting methodology. Unsupported costs result from a
finding that inadequate documentation exists to enable the auditor to make a determination concerning
allowability of costs proposed.

 Dollar Value of Recommendations Agreed to by Management provides the OIG estimate of funds
that will be used more efficiently based on management's agreement to implement actions, or the amount
contracting officers disallowed in negotiations, including the amount associated with contracts that were
not awarded as a result of audits.

 Dollar Value of Recommendations Not Agreed to by Management is the amount associated with
recommendations that management decided will not be implemented, or the amount of questioned and/or
unsupported costs that contracting officers decided to allow.



                                                    95
96
                                           APPENDIX E
                REPORTING REQUIREMENTS OF THE INSPECTOR GENERAL

The table below cross-references the reporting requirements to the specific pages where they are prescribed
by the Inspector General Act of 1978 (Public Law 95-452), as amended by the Inspector General Act
Amendments of 1988 (Public Law 100-504), and the Omnibus Consolidated Appropriations Act of 1997
(Public Law 104-208).

 IG Act
References                               Reporting Requirement                                          Page
Section 4 (a) (2)    Review of legislation and regulations                                                69

Section 5 (a) (1)    Significant problems, abuses, and deficiencies                                      1-72

Section 5 (a) (2)    Recommendations with respect to significant problems, abuses, and                   1-72
                     deficiencies

Section 5 (a) (3)    Prior significant recommendations on which corrective action has not been            93
                     completed

Section 5 (a) (4)    Matters referred to prosecutive authorities and resulting prosecutions and            i
                     convictions

Section 5 (a) (5)    Summary of instances where information was refused                                   75

Section 5 (a) (6)    List of audit reports by subject matter, showing dollar value of questioned         77-88
                     costs and recommendations that funds be put to better use                       (App. A & B)

Section 5 (a) (7)    Summary of each particularly significant report                                     i to vi

Section 5 (a) (8)    Statistical tables showing number of reports and dollar value of questioned          94
                     costs for unresolved, issued, and resolved reports                                (Table 2)

Section 5 (a) (9)    Statistical tables showing number of reports and dollar value of                     95
                     recommendations that funds be put to better use for unresolved, issued, and       (Table 3)
                     resolved reports

Section 5 (a) (10)   Summary of each audit report issued before this reporting period for which no      89 to 92
                     management decision was made by end of reporting period                           (App. C)

Section 5 (a) (11)   Significant revised management decisions                                            None

Section 5 (a) (12)   Significant management decisions with which the Inspector General is in             None
                     disagreement

Section 5 (a) (13)   Information described under section 05(b) of the Federal Financial                   43
                     Management Improvement Act of 1996




                                                       97
98
                                              APPENDIX F
                                    OIG OPERATIONS PHONE LIST

Investigations


Central Office Investigations Washington, DC.......................................................(202) 565-7702
Northeast Field Office (51NY) New York, NY ........................................................(212) 807-3444
Boston Resident Agency (51BN) Bedford, MA ............................................................(781) 687-3138
Newark Resident Agency (51NJ) Newark, NJ...............................................................(973) 645-3590
Pittsburgh Resident Agency (51PB) Pittsburgh, PA......................................................(412) 784-3818
Washington Resident Agency (51WA) Washington, DC..............................................(202) 565-8079
Southeast Field Office (51SP) Bay Pines, FL .............................................................(727) 398-9559
Atlanta Resident Agency (51AT) Atlanta, GA ..............................................................(404) 347-7869
Columbia Resident Agency (51CS) Columbia, SC .......................................................(803) 695-6707
Nashville Resident Agency (51NV) Nashville, TN.......................................................(615) 736-7200
New Orleans Resident Agency (51NO) New Orleans, LA ...........................................(504) 619-4340
West Palm Beach Resident Agency (51WP) West Palm Beach, FL.............................(561) 882-7720
Central Field Office (51CH) Chicago, IL...................................................................(708) 202-2676
Dallas Resident Agency (51DA) Dallas, TX .................................................................(214) 655-6022
Denver Resident Agency (51DV) Denver, CO..............................................................(303) 331-7673
Houston Resident Agency (51HU) Houston, TX ..........................................................(713) 794-3652
Kansas City Resident Agency (51KC) Kansas City, KS ...............................................(913) 551-1439
Western Field Office (51LA) Los Angeles, CA..........................................................(310) 268-4268
Phoenix Resident Agency (51PX) Phoenix, AZ ............................................................(602) 640-4684
San Francisco Resident Agency (51SF) Oakland, CA...................................................(510) 637-1074


Healthcare Inspections


Central Office Operations Washington, DC............................................................(202) 565-8305
Healthcare Regional Office Atlanta (54AT) Atlanta, GA......................................(404) 347-2083
Healthcare Regional Office Chicago (54CH) Chicago, IL.....................................(708) 202-5160
Healthcare Regional Office Los Angeles (54LA) Los Angeles, CA......................(310) 268-3005



                                                          99
                              OIG OPERATIONS PHONE LIST (CONT’D)


Audit


Central Office Operations Division (52CO) Washington, DC.................................(202) 565-4433
Contract Review and Evaluation Division (52C) Washington, DC ........................(202) 565-4818
Financial Management Audit Division (52CF) Washington, DC............................(202) 565-7913
Austin Residence (52AU) Austin, TX............................................................................(512) 326-6216
Operations Division Atlanta (52AT) Atlanta, GA.....................................................(404) 347-7790
Operations Division Boston (52BN) Bedford, MA....................................................(781) 687-3120
Philadelphia Residence (52PH) Philadelphia, PA..........................................................(215) 381-3052
Operations Division Chicago (52CH) Chicago, IL....................................................(708) 202-2667
Operations Division Kansas City (52KC) Kansas City, MO ...................................(816) 426-7100
Dallas Residence (52DA) Dallas, TX ............................................................................(214) 655-6000
Operations Division Seattle (52SE) Seattle, WA .......................................................(206) 220-6654
Los Angeles Residence (52LA) Los Angeles, CA.........................................................(310) 268-4336




                                                           100
                             APPENDIX G
                                  GLOSSARY
A&MM      Acquisition and Materiel Management
ADP       Automated Data Processing
AFIP      Armed Forces Institute of Pathology
AIG       Assistant Inspector General
CAP       Combined Assessment Program
C&P       Compensation & Pension
CFS       Consolidated Financial Statements
DCIS      Defense Criminal Investigative Service
dba       doing business as
DIC       Dependency and Indemnity Compensation
DoD       Department of Defense
DOL       Department of Labor
EEG       Electroencephalograph [System]
EMSHG     Emergency Medical Strategic Healthcare Group
FBI       Federal Bureau of Investigation
FOIA      Freedom of Information Act
FTE       Full Time Equivalent
FY        Fiscal Year
GAO       General Accounting Office
GPRA      Government Performance and Results Act
GSA       General Services Administration
HHS       Department of Health and Human Services
HUD       Department of Housing and Urban Development
IRS       Internal Revenue Service
IT        Information Technology
JWV       Jewish War Veterans of America
MCI       Master Case Index
MRI       Magnetic Resonance Imaging
NCA       National Cemetery Administration
NHCU      Nursing Home Care Unit
OA&MM     Office of Acquisition and Materiel Management
OHI       Office of Healthcare Inspections
OIG       Office of Inspector General
PACS      Picture Archiving and Communication Systems
PCIE      President’s Council on Integrity and Efficiency
QMIS      Quarters Management Information System
QPA       Quality Program Assistance [Review]
RRB       Railroad Retirement Board
SSA       Social Security Administration
USSS      United States Secret Service
VA        Department of Veterans Affairs
VAMC      Veterans Affairs Medical Center
VAM&ROC   Veterans Affairs Medical and Regional Office Center
VARO      VA Regional Office
VBA       Veterans Benefits Administration
VHA       Veterans Health Administration
VISN      Veterans Integrated Service Network
WCP       Workers’ Compensation Program
Y2K       Year 2000


                                       101
Copies of this report are available to the public. Written requests should be sent to:

       Office of the Inspector General (53B)
       Department of Veterans Affairs
       810 Vermont Avenue, NW
       Washington, DC 20420


The report is also available on our Web Site:

       http://www.va.gov/oig/53/semiann/reports.htm

For further information regarding VA’s OIG, you may call 202 565-8620




 Cover photo of
 Tuskegee Airmen Memorial Statue
 in Front of the USAF Academy Chapel,
 Colorado Springs, CO by
 Joseph M. Vallowe, Esq.
 VA OIG, Washington, DC


                                           102
Help VA's Secretary ensure the integrity of departmental operations
by reporting suspected fraud, waste, or abuse in VA programs
or operations to the Inspector General Hotline.



                 (CALLER CAN REMAIN ANONYMOUS)




To Telephone:        (800) 488 - 8244
                     (800) 488 - VAIG

To Send
Correspondence:      Department of Veterans Affairs
                     Inspector General Hotline (53E)
                     P.O. Box 50410
                     Washington, DC 20091-0410

Internet Homepage: http://www.va.gov/oig/hotline/hotline.htm

E-mail Address       VAOIG.HOTLINE@forum.va.gov




                                Department of Veterans Affairs
                                Office of Inspector General
                                Semiannual Report

                                April 1, 1999 - September 30, 1999
